<html>
<title> - SMALL BUSINESSES TO GLOBAL CORPORATIONS: WILL THEY SURVIVE THE YEAR 2000?</title>
<body><pre>[Senate Hearing 105-894]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 105-894


 
                SMALL BUSINESSES TO GLOBAL CORPORATIONS:
                    WILL THEY SURVIVE THE YEAR 2000?

=======================================================================

                                HEARING

                               before the

                        SPECIAL COMMITTEE ON THE
                      YEAR 2000 TECHNOLOGY PROBLEM
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

   THE EFFECT OF Y2K ON GENERAL BUSINESS--A TERM THE ENCOMPASSES THE 
 SPECTRUM OF AMERICAN COMMERCE RANGING FROM OVER 5 MILLION SMALL FIRMS 
   AT ONE END OF THE SPECTRUM TO GLOBAL CORPORATIONS AT THE OTHER END

                               __________

                            OCTOBER 7, 1998

                               __________

                  Printed for the use of the Committee


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
                          Washington, DC 20402


                    U.S. GOVERNMENT PRINTING OFFICE                    
51-51564 cc                  WASHINGTON : 1999



                        SPECIAL COMMITTEE ON THE

                      YEAR 2000 TECHNOLOGY PROBLEM

         [Created by S. Res. 208, 105th Cong., 2d Sess. (1998)]

                   ROBERT F. BENNETT, Utah, Chairman

JON KYL, Arizona                     CHRISTOPHER J. DODD, Connecticut,
GORDON SMITH, Oregon                   Vice Chairman
SUSAN M. COLLINS, Maine              JEFF BINGAMAN, New Mexico
TED STEVENS, Alaska, Ex Officio      DANIEL PATRICK MOYNIHAN, New York
                                     ROBERT C. BYRD, West Virginia, Ex 
                                     Officio

                    Robert Cresanti, Staff Director

              T.M. (Wilke) Green, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                                 ------                                

                 OPENING STATEMENT BY COMMITTEE MEMBERS

Robert F. Bennett, a U.S. Senator From Utah, Chairman, Special 
  Committee on the Year 2000 Technology Problem..................     1
Susan M. Collins, a U.S. Senator from Maine......................     2
Gordon Smith, a U.S. Senator from Oregon.........................     4

                    CHRONOLOGICAL ORDER OF WITNESSES

Laurene L. West..................................................     6
Lou Marcoccio, Research Director, Gartner Group..................     9
Hon. Fred P. Hochberg, Deputy Administrator, Small Business 
  Administration.................................................    19
William J. Dennis, Jr., Senior Research Fellow, National 
  Federation of Independent Business.............................    23
Rod Rodrigue, Director, Manufacturers Extension Partnership, 
  State of Maine.................................................    25
Harold Schild, President/CEO, Tillamook Cheese, Inc..............    26
Dr. Charles Popper, Chief Information Officer, Merck & Co........    32
Ronald J. Streck, President and CEO, National Wholesale 
  Druggists' Association.........................................    34
Keith Mallonee, Vice President, Systems Development, McKesson 
  Corp...........................................................    36
Richard T. Carbray, Jr., General Manager, Pelton's Pharmacy and 
  Home Health Centers............................................    37

                                APPENDIX
              Alphabetical Listing and Material Submitted

Bennett, Hon. Robert F.:
    Opening statement............................................     1
    Prepared statement...........................................    45
Carbray, Richard T., Jr.:
    Statement....................................................    37
    Prepared statement...........................................    46
    Responses to questions submitted by Chairman Bennett.........    48
Collins, Hon. Susan M.:
    Opening statement............................................     2
    Prepared statement...........................................    49
Dennis, William J., Jr.:
    Statement....................................................    23
    Prepared statement...........................................    50
    Responses to questions submitted by Chairman Bennett.........    66
Dodd, Hon. Christopher T.: Prepared statement....................    67
Hochberg, Hon. Fred P.:
    Statement....................................................    19
    Prepared statement...........................................    69
    Responses to questions submitted by Chairman Bennett.........    81
Kyl, Hon. Jon: Prepared statement................................    84
Mallonee, Keith:
    Statement....................................................    36
    Prepared statement...........................................    84
    Responses to questions submitted by Chairman Bennett.........    85
Marcoccio, Lou
    Statement....................................................     9
    Prepared statement...........................................    87
Moynihan, Hon. Daniel Patrick: Prepared statement................   100
Popper, Dr. Charles:
    Statement....................................................    32
    Prepared statement...........................................   101
    Responses to questions submitted by Chairman Bennett.........   103
Rodrigue, Rod:
    Statement....................................................    25
    Prepared statement...........................................   104
    Responses to questions submitted by Chairman Bennett.........   105
Schild, Harold:
    Statement....................................................    26
    Prepared statement...........................................   107
    Responses to questions submitted by Chairman Bennett.........   109
Smith, Hon. Gordon:
    Opening statement............................................     4
    Prepared statement...........................................   110
Snowe, Hon. Olympia J.: Prepared statement.......................   112
Streck, Ronald J.:
    Statement....................................................    34
    Prepared statement...........................................   113
    Responses to questions submitted by Chairman Bennett.........   115
West, Laurene L.:
    Statement....................................................     6
    Prepared statement...........................................   116

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

Letter from NORPAC Foods, Inc., to Senator Gordon Smith, October 
  5, 1998, with a NORPAC Food, Inc. Action Summary attachment....   118

Note: Responses to questions submitted by Chairman Bennett to Mr. 
  Lou Marcoccio were not received at the time the hearing was 
  published.


                       SMALL BUSINESSES TO GLOBAL
                    CORPORATIONS: WILL THEY SURVIVE
                             THE YEAR 2000?

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 1998

                               U.S. Senate,
                 Special Committee on the Year 2000
                                        Technology Problem,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-192, Dirksen Senate Office Building, Hon. Robert F. 
Bennett (chairman of the committee), presiding.
    Present: Senators Bennett, Smith, and Collins.

  OPENING STATEMENT OF HON. ROBERT F. BENNETT, A U.S. SENATOR 
    FROM UTAH, CHAIRMAN, SPECIAL COMMITTEE ON THE YEAR 2000 
                       TECHNOLOGY PROBLEM

    Chairman Bennett. The committee will come to order. I have 
just received word that we have two stacked roll call votes 
scheduled starting at 10 o'clock. I have said before, somewhat 
facetiously, the Senate gets in the way of the work of the 
Senate from time to time. We apologize in advance to our 
witnesses for the disruption that might come as senators will 
have to leave to go to the floor to cast these votes; we are 
very grateful to all of the witnesses for their coming and 
being with us today at this hearing on the general business 
sector.
    This is the committee's ninth and final hearing this year, 
and in every one of our hearings we have strived to increase 
awareness and disseminate reliable preparedness information as 
well as facilitate solutions. I believe we have done that. In 
spite of the efforts of the committee, however, recent polls 
say that only 30 percent of Americans have even heard of the 
Year 2000 problem and that is a little disquieting. There are 
now 450 days between us and the new century so that the work of 
this committee and everyone connected with this problem becomes 
more urgent with each passing day.
    Now we have gone through the top priorities that the 
committee laid out at the outset starting with the power grid 
going through telecommunications and so on. So we come to 
general business activity and just because it comes after some 
of these other vital infrastructure priorities does not mean 
that it cannot have a major impact on what happens in the Year 
2000. ``General business'' is the term that encompasses the 
spectrum of American commerce from over 5 million small firms 
at one end to global corporations at the other end. Every one 
of these companies in one way or another faces a Year 2000 
challenge--from the PC on which you keep your books all the way 
up through the systems that automate offices, credit card point 
of sale systems, and just in time inventory systems.
    One of today's witnesses will warn us that over 700,000 
small firms are at risk of closing their doors or being 
severely crippled by Year 2000 problems. So the awareness 
challenge that we have taken on this committee is still very 
necessary. Now global corporations face complex problems 
because of their dependence on thousands of suppliers, 
distributors, and frankly customers; a customer can have a 
problem that can kick back into your corporation in a variety 
of ways. These problems are both domestic and international. 
Businesses must be concerned not only about Y2K readiness of 
their partners but the infrastructure of the companies in which 
they reside. Perhaps in next year's hearings I will focus more 
on international problems and move in that direction.
    Today, the Gartner Group is releasing some alarming new 
research data which shows that 66 percent of the companies in 
critical industries such as health care and food processing 
will likely experience at least one mission critical systems 
failure. In addition, 50 percent of the companies in critical 
trading partner countries such as Germany, Japan, Saudi Arabia, 
and Venezuela will experience similar failures, and if these 
predictions are correct and nothing is done in the 450 days 
remaining, Y2K could deliver a devastating blow to an already 
troubled global economy.
    If I sound overly serious, it is not because I am grabbing 
for the headlines but because I am hoping to reach people who 
are currently unaware of where they are. It reminds me of a 
paraphrase from the poem by Rudyard Kipling: If you can keep 
your head when all around you are losing theirs, you do not 
understand the situation. [Laughter.]
    [The prepared statement of Chairman Bennett can be found in 
the appendix:]
    Chairman Bennett. Now, before we hear from our witnesses I 
would like to recognize Senator Collins for any opening 
statement that she might have. I would also comment that her 
colleague Senator Olympia Snowe, who has been part of this 
effort even though she is not a member of this committee, has a 
statement that she would like included in this record. She has 
held a number of hearings around the State of Maine on small 
business issues and so it is appropriate that her contribution 
to the committee would be included.
    [The prepared statement of Senator Snowe can be found in 
the appendix.:]
    Chairman Bennett. Senator Collins.

OPENING STATEMENT OF HON. SUSAN M. COLLINS, A U.S. SENATOR FROM 
                             MAINE

    Senator Collins. Thank you very much, Mr. Chairman. I want 
to first thank you for your continued leadership on this 
critical issue. Over the past 4 months, this committee has 
examined vital areas of our country's technological 
infrastructure. We started in June with our utilities hearing, 
and since that time the committee has focused on 
telecommunications, banking and finance, transportation, and 
most recently emergency preparedness. But of all the hearings 
that we have held, today's hearing with its focus on Y2K's 
impact on business, especially the impact on small business, 
might well be our most important endeavor to date.
    Our Nation's 23 million small businesses create 2 out of 
every 3 new jobs, represent over 90 percent of all employers, 
and are responsible for more than half of our nation's 
technological innovation. In my home State of Maine, they are 
truly the backbone of our economy. While we have received 
assurances of other industry sectors' preparedness for Y2K, 
there is considerable concern about the small business sector. 
Many small businesses are having difficulty in determining how 
they will be affected by Y2K and what they should do about it. 
Many of them face not only technological but also financial 
challenges in becoming Y2K compliant. Most of all, they simply 
need practical information about what to do.
    The good news is that information resources are available 
for small businesses to assist them in figuring out what to do. 
In fact, I look forward to welcoming two people who know how to 
help small businesses and are working everyday to tackle the 
Y2K problem. First, I want to welcome Fred Hochberg, the Deputy 
Administrator of the SBA, an organization with which I am very 
familiar because I served at one point as the New England 
administrator of the SBA. The SBA joined Senator Snowe, as the 
chairman has mentioned, in Maine in August to roll out the 
agency's ``Are You Y2K OK?'' program which encourages small 
businesses throughout the country to identify potential Y2K 
problems, take action on them, and stay informed about new 
developments. This is an excellent outreach program and I want 
to commend SBA for its leadership role on Y2K.
    I also am especially proud to welcome Rod Rodrigue from 
Maine. I had the opportunity to meet with Rod last month in my 
office and was impressed by the tremendous amount of knowledge 
and energy he brings to this issue. Thanks to his leadership, 
the Maine Manufacturing Extension Partnership has taken the 
initiative in my State in reaching out to small businesses to 
help them cope with the Y2K challenge.
    The Maine Manufacturing Extension Partnership uses a 
diagnostic software tool to assist businesses in identifying 
specific Y2K problem areas and then provides a road map for 
businesses to find further information to help them with the 
Y2K remediation process including links to SBA loans if 
necessary. I believe that Congress should take a very close 
look at this model which is funded through the National 
Institute of Standards and Technology as well as the Department 
of Commerce.
    Mr. Chairman, by their very definition, entrepreneurs are 
risk managers. In the years that I have been working with small 
businesses and based on my own family's 150 years of continuous 
operation as a small business, I am very aware of the countless 
experiences where the entrepreneurial spirit has propelled 
small business owners to overcome major obstacles to succeed.
    While we hear about the reasons for concern about small 
businesses and their ability to cope with Y2K in today's 
hearing, we should not lose sight of their amazing and 
continual ability to adapt to changed circumstances. Coupled 
with tools and resources from organizations like the SBA and 
the Maine MEP, it is my expectation that small businesses will, 
in fact, succeed in solving the Y2K problem. I look forward to 
learning more from today's witnesses about how the Federal 
Government can assist them in meeting this goal. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Collins can be found in 
the appendix.]
    Chairman Bennett. Thank you very much. We have divided up 
the responsibilities in the committee according to the seven 
priorities that we outlined and the seven members of the 
committee. Senator Smith, who is himself a small businessman--
actually his business has grown quite large, has led the 
committee on this issue. [Laughter.]
    During my first campaign, I was accused of being a big 
businessman, and I said, well, I did not start out that way. 
[Laughter.]
    But I am not going to give it back. This particular 
assignment of dealing with general business Y2K problems has 
been given to Senator Smith and he has responded very well and 
we appreciate his leadership and help on this. Senator Smith.

  OPENING STATEMENT OF HON. GORDON SMITH, A U.S. SENATOR FROM 
                             OREGON

    Senator Smith. Thank you, Mr. Chairman. I appreciate being 
able to work with you and the excellent leadership you have 
given in addressing this Y2K problem. I also want to thank our 
distinguished witnesses who are with us today for taking time 
to help us address the challenges facing the entire business 
sector at both the large and small ends of the scale.
    With American business today becoming more and more 
dependent on technology, I hope this hearing will be a stepping 
stone for all small businesses to inch closer to full 
preparedness for the Year 2000. Those most at risk for the Y2K 
failures are small and medium-sized companies, not their larger 
counterparts. Many small companies have not yet realized the 
extent to which the Y2K computer problem will affect their 
businesses and may not have access to capital to cure such 
problems before the Y2K issue causes them disastrous effects.
    This is why it is so important for the Federal Government 
to both raise awareness of the problem as well as find emerging 
solutions. In my former life, as the chairman mentioned, I was 
a food processor. I called myself a pea picker from Pendleton, 
OR and owned a small frozen food processing plant. I can assure 
you that any interruption within the farm to fork chain can 
result not only in direct loss to those who supply food but 
will likely translate into food shortages and price increases 
nationwide.
    As with many businesses, food suppliers are increasingly 
dependent on computerized processing and information exchange. 
For example, farmers and ranchers use electronically equipped 
irrigation systems, animal systems and transport systems. Food 
processors rely on automated systems that help prepare and 
package consumer ready products. Distributors, wholesalers, and 
retailers depend on computer-driven equipment to transport, 
deliver, store, display, and sell food products. Inventory and 
accounting systems, harvesting equipment, grain elevators, 
refrigeration and security systems all depend on the 
computations of computers. Mr. Chairman, I know that there was 
some difficulty in getting some of our larger retailers and 
food processes to participate today, but I am happy to report 
that we will hear from a representative of one of Oregon's food 
companies and they have been working very hard on the Y2K 
issue.
    I am proud to introduce Harold Schild, the president and 
CEO of Tillamook County Creamery, who is one of our witnesses 
today from Tillamook, OR. If you all have not tried Tillamook 
cheese and ice cream, it is the best in the world. No offense 
meant to any of my Wisconsin colleagues.
    Chairman Bennett. We will take you to Cash Valley. 
[Laughter.]
    Senator Smith. I look forward to hearing Mr. Schild's 
testimony to address the real problems with which typical small 
business is confronted and specifically the food industry in 
its approaches to addressing the Y2K problem. Another company 
from Oregon, Norpac Foods, has also been leading the effort in 
addressing the Y2K problem in the frozen food business. While 
their representative is not here today, Mr. Chairman, they have 
provided a statement that is very helpful and insightful, and I 
ask that that be included in the record.
    Chairman Bennett. Without objection.
    [The prepared statement of Norpac Foods can be found in the 
appendix.]
    Senator Smith. I am also pleased that the Deputy 
Administrator of the Small Business Administration, Mr. Fred 
Hochberg, is here before us today. The SBA has been one of the 
leading Federal agencies actively raising public awareness for 
Year 2000, and I would like to commend the agency for its 
aggressive outreach programs to small business. I know my 
constituents in Oregon have found the SBA website a very useful 
and informative tool.
    Mr. Hochberg, I am interested in your opinion regarding the 
recent legislation passed by the Senate Small Business 
Committee that requires SBA to establish a Y2K loan program. I 
understand this loan program would establish a new short-term 
loan program under which the SBA would guarantee up to 50 
percent of the value of private sector loans up to a total loan 
value of $50,000 for small businesses to become Y2K compliant. 
So your views on that I am interested in. If you or any of the 
witnesses can testify on the impact this legislation will have, 
it will be helpful to all small business.
    As we work toward addressing the Y2K problem, let us not 
forget that many of our international neighbors are still very 
far behind. We need to continue to encourage foreign countries 
to focus on the impacts of Y2K since it could potentially shut 
down an entire country. With this in mind, I look forward to 
hearing more specifics on Y2K challenges facing our small 
businesses and our global corporations and, Mr. Chairman, I 
thank you.
    [The prepared statement of Senator Smith can be found in 
the appendix.]
    Chairman Bennett. Thank you very much. Now, before we get 
into the subject of today's hearing specifically, I would like 
the members of the committee to meet one of my constituents, 
Laurene West, who is a registered nurse from Salt Lake City, 
UT. Her special medical circumstances graphically demonstrate 
that the Y2K problem is not just a technological problem or a 
business problem, but can be a very personal one. This very 
capable and articulate woman is living proof that the Y2K 
problem has potential to take a very serious toll. And she has 
courageously agreed to share her story with us. So I would ask 
her to come forward and be our first witness this morning. Even 
though it is not specifically on the issue of small business, I 
think you will find it very worthwhile. Ms. West, we welcome 
you and again we thank you for your willingness to share what 
must be a very difficult personal odyssey with us, but I think 
the committee and those who are watching on television and 
elsewhere will be greatly benefitted by your willingness to do 
this and we are grateful to you.

                  STATEMENT OF LAURENE L. WEST

    Ms. West. Thank you, Senator Bennett. Can you hear me?
    Chairman Bennett. Yes. If you could get a little closer to 
the microphone. These microphones are not going to be 
threatened by Y2K problems. [Laughter.]
    They are low enough tech and old enough that they are not a 
problem. So if you could get it as close to you as you can, we 
would appreciate it.
    Ms. West. Thank you. I appreciate the invitation to present 
to you my concerns and my health history. Seated before you 
this morning, I probably give the impression that I am good 
health. I am not. Without a daily supply of medication and a 
coordinated community effort on the part of the health care 
community, I will be a casualty of the Year 2000; I will die.
    I had a tumor removed from the center of my brain, and I 
now require daily medication to prevent the tumor from 
returning. Additionally, when I had the first of 13 surgeries 
on my head, I acquired a staph infection which now requires--
the infection that I have in my head is not sensitive to any 
known oral antibiotic. Therefore, I am dependent on a continual 
supply of IV antibiotics. I am a registered nurse. For 20 years 
I worked in critical care settings of acute care facilities, 
and for the last 14 years I have worked with developing and 
implementing medical information systems. I share that with you 
so that you know or that you understand that I know health 
care. I know it from being a clinician. I know health care also 
from being a recipient of care and I know how the Year 2000 
will affect health care.
    My message today is twofold. First as a clinician, we have 
all heard the media reports about what the Year 2000 will do to 
the power grid, national security, air traffic. All hospitals 
are at risk if we do not have power, but I can bring an army of 
clinicians into any facility and keep patients alive basically 
by doing CPR, but I cannot keep patients alive if I do not have 
a continual supply of their medications.
    My second message is that all Americans will be affected by 
a disruption in the supply and distribution of medications, 
particularly those of us who are alive only because on a daily 
basis, I take drugs to keep my tumor from growing and to keep 
the infection in my head from spreading. And what I find 
amazing is that my medication requirements are minimal compared 
to those of diabetics, transplant patients, patients with 
implantable devices, patients who have hypertension, who have 
cardiac difficulties. Those people have no time if they do not 
have access to their medications.
    We need to begin immediately to create a public awareness 
program. We need to teach the people of our country what they 
can do to prepare. AARP needs to know. They need to talk to 
their membership and let those people know that they are going 
to have a store of their medications. They need to stockpile 
their medications. An informed and educated public will be less 
likely to panic, but we will have panic if we have people out 
there who think that they cannot get access to their 
medications, many of which are controlled substances.
    All medication dependent Americans are looking to you for 
help in mobilizing national resources to help us survive. I 
will be happy to help in any way that I possibly can. Let us 
work with the RX2000 Solution Institute, the American Medical 
Association, the American Nurses Association, Department of 
Insurance, AARP, International Red Cross, any other Federal 
resources that we have, to prepare a coordinated national 
preparedness program so that the Year 2000 does not cause 
unacceptable deaths.
    We may need legislation allowing a one-time exclusion for 
either Medicare, Medicaid or any other health plan to allow 
patients to get a 90 day supply of their medications at the end 
of 1999 instead of just a 30 day supply. We would then need to 
come up with a creative process to distribute and store 
controlled substances and radioactive isotopes. We need to work 
with the CDC, the Centers for Disease Control, to prevent 
global epidemics from the lack of antibiotics and 
immunizations.
    We should compose a national patient advocacy council to 
monitor Year 2000 efforts within all health care organizations 
and provide patients and health care providers a media where 
they can turn, where they can look for help, where they can get 
answers. And if worst case scenarios occur and health care is 
rationed, the public needs to know which diagnoses and which 
procedures will be covered.
    Thus far, most health care organizations are taking the 
position that they can reduce their liability exposure by 
minimizing their due diligence and their education. That may be 
politically correct and legally correct, but I do not consider 
that to be ethical. If we do not teach the patients what they 
need to do, we will die. There is no harm in overreacting to 
this issue. There is harm if we do not react.
    I am willing to do whatever I can to help in any way to 
save as many lives including my own as possible. And my story 
is not unique. There are millions of people who are at greater 
risk than myself who need your help. And for them and for 
myself I am asking for your help. Thank you.
    [The prepared statement of Ms. West can be found in the 
appendix.]
    Chairman Bennett. Thank you. May I ask you a question or 
two? It is my understanding that your medication is 
sufficiently unusual that you require a very careful 
calibration that involves medical devices that are something 
other than just pills sitting on a shelf; is that true?
    Ms. West. To keep my tumor from regrowth, there is an oral 
medication that I take. My risk is with infection and in order 
to receive the IV antibiotics, those are at such a high 
concentration that in order to receive those, I have a catheter 
that is inserted into the antecubital vein of my arm and then 
threaded up into the superior vena cava of my heart, and you 
can only do that under sterile circumstances.
    Chairman Bennett. But the calculation of the dosage 
requires devices----
    Ms. West. That is correct.
    Chairman Bennett [continuing]. Which could fail because of 
Y2K?
    Ms. West. That is correct.
    Chairman Bennett. I wanted to make that clear so that 
everybody understood it is not just a matter in your case of 
stockpiling 90 days worth of pills. The device that controls 
this daily injection must be absolutely on in terms of its 
calibration and its accuracy or you would not survive a couple 
of days. Is that----
    Ms. West. That is correct.
    Chairman Bennett. I do not mean to overdramatize it, but 
your delivery seemed a little cool, and I wanted everybody to 
understand exactly how serious the calibration issue is in your 
case and how vulnerable you are to a Y2K failure.
    Ms. West. And there are patients who are at much greater 
risk than myself such as transplant patients and insulin 
dependent diabetics. They have less time than I have and the 
calibration for their medication also comes from a device with 
a microprocessor and in many cases those medications cannot be 
stored. The medication that I take for my tumor, I can store 6 
months worth of that and then I rotate through that. The IV 
medication that I take for the infection in my head, I cannot 
store that for more than 2 weeks.
    Chairman Bennett. Thank you for that clarification. Do any 
other members of the committee have questions?
    Senator Collins. I just want to thank you, Ms. West, for 
coming forward and sharing your personal experience. The fact 
that you have been both a clinician and a patient gives you an 
unusual insight to share with the committee. I wish you the 
best of everything and I really appreciate your taking this 
good out of your very difficult experience.
    Ms. West. Thank you.
    Senator Smith. I would just simply second that. Thank you 
for being here and others will benefit because you have shared 
your story.
    Ms. West. Thank you.
    Chairman Bennett. Thank you. You have helped us dramatize 
in a positive and I think worthwhile way the challenge of this. 
We were in a hospital yesterday, Senator Dodd and I, and some 
people connected with the health care industry have said to us 
this is not a patient care problem, this is just a computer 
problem where our billing system is at risk. We did our very 
best yesterday to make it abundantly clear this is first and 
foremost a patient care problem. Your being here today and your 
willingness to share your experience with us has helped to 
dramatize that for any who still have not got the message.
    Ms. West. Can I make one more statement?
    Chairman Bennett. Surely.
    Ms. West. I am astonished that physicians, many physicians, 
and many hospitals are considering this to be an IT problem 
only. And at this point, there is not time for a complete 
electronic fix. Their only alternative is for physical 
contingency plans working closely with pharmaceutical 
companies, closely with biomedical device manufacturers, to 
make sure that there is a continual supply or we will have 
large scale mortality rates in the Year 2000.
    Chairman Bennett. Our third panel will consist of a number 
of pharmaceutical companies. I know their representatives are 
in the room; that is one of the reasons why we asked you to be 
our first witness so they could hear this directly from you. 
Thank you again for coming and for sharing this with us.
    All right. We will now start with Lou Marcoccio from the 
Gartner Group, and he will set the scene for the hearing. His 
research is based on a network of some 15,000 companies in 26 
vertical industries in 87 countries. He will share the results 
of Gartner's research into the impact of the Year 2000 problem 
on small, medium, and large companies and the relative Y2K 
preparedness of industry sectors within the United States. And 
he will also give us an update of the Y2K status of other 
countries closely connected with the U.S. economy. If Ms. West 
gave us a laser beam micro-view of the Y2K impact on one 
individual, Mr. Marcoccio will give us the macro view. In some 
cases, it is almost as scary. Have I pronounced your name 
correctly, sir?
    Mr. Marcoccio. Yes, you have, Senator, yes.
    Chairman Bennett. OK. Fine. We welcome you here and I 
apologize in advance when the buzzer goes off. We will do our 
best to run over and vote and get back as quickly as we can, 
but we will get started.

  STATEMENT OF LOU MARCOCCIO, RESEARCH DIRECTOR, GARTNER GROUP

    Mr. Marcoccio. OK. Great. First of all, thank you, Mr. 
Chairman and members of the committee, for having me here this 
morning to share this information with you and this important 
research that we have been working on and pulled together in 
regard to the scope and status and risks in regard to Year 2000 
throughout key industries and throughout the world.
    In developing our research at Gartner Group for those who 
do not know, I would just like to make a comment here that we 
do our research in several ways. We have tens of thousands of 
clients throughout the world that we work with everyday in all 
industries throughout most countries of the world. We also do 
surveying of very large numbers as, Senator, you mentioned, of 
15,000 companies in 87 countries including the country 
governments and their agencies as well as far as status and 
specific risks related to those specific companies and 
government agencies.
    One of the things that we find is that first of all 
throughout 1998, there has actually been tremendous progress 
and, in fact, in 1997, in calendar year 1997, about 5 percent 
of information technology budgets were spent on average on the 
Year 2000 problem and on Year 2000 projects. In calendar year 
1998, that has increased by six times, and during calendar year 
1998 the companies that have started and government agencies 
that have started on this problem are spending an average of 30 
percent of their information technology budgets. Unfortunately, 
we have not seen as much of an expansion in other areas outside 
the IT area. We see now about 30 percent of companies that had 
previously started on Year 2000 in calendar year 1997 have 
expanded these efforts into other areas of business, areas of 
contingency and other areas of integration and interoperability 
between themselves, other countries, other facilities and so 
forth throughout the world.
    What we find in our information--basically we do our 
surveys, we do our measurement of companies and governments 
through a method that we call COMPARE. It has five levels I 
would just like to briefly mention so that you understand when 
I go through the actual status. These five levels include level 
I being companies that are basically just getting started. They 
are doing awareness. They are getting people or a champion to 
head up the activity within a company, and they are starting to 
do their inventorying of both their IT systems and also their 
key business processes as well.
    In level II is where these companies basically complete 
detailed inventories of their business dependencies and the 
remainder of their IT components, embedded systems and other 
things that they at least can get their arms around and 
identify, which in many cases is a difficult task in itself.
    In level III these companies actually get detailed program 
plans put together, project plans, they get the resources 
identified, committed and in place, and they start doing the 
work as far as actually getting systems remediated and fixed 
and also doing a great deal of work as far as identifying 
dependencies and risks with vendors, supply chain vendors and 
other business dependencies. In level III, they also get 20 
percent of what they identify as their mission critical systems 
fixed, tested and back into production environments within 
their companies.
    In level IV, they get the remaining 80 percent of those 
mission critical solutions fixed and back into production as 
well as completing a detailed risk assessment and development 
of contingencies and alternatives in order to lower the risks 
enough in order not to have major business interruptions.
    In level V, they basically complete whatever else they have 
time to complete outside of mission criticality as well as 
putting procedures and policies in place to ensure that they do 
not bring in infected systems or other business processes after 
they get their systems fixed. So those are basically the five 
levels.
    First of all, I would like to identify status associated 
with size. When we look at all companies and all government 
agencies throughout the world, we identify size in three 
categories. First of all, small is under 2,000 employees. We do 
have some subcategories as far as extent of size in the small 
category, but we identify small as under 2,000 employees. 
Medium or mid-size is 2,000 to 20,000 employees. And large is 
over 20,000 employees.
    What we find at the present time this quarter--in fact, as 
of just a couple weeks ago in our latest status survey--we find 
that small companies throughout the world in this under 2,000 
employee category are anywhere from not started at all up to 
approximately the end of level II, which means that they have 
gotten some great extent of their inventory completed. That is 
the range throughout the world as far as small companies.
    The mid-size companies run the range from between being 
about halfway through their inventory activities up to and 
including having as much as ten to 20 percent of their internal 
systems fixed and have started testing. So it is a pretty wide 
range on the mid-size companies as well. And the large 
companies, over 20,000 employees, run the range from the end of 
level II, which means that they have basically nearly completed 
their thorough inventory of business processes as well as their 
internal IT systems, all the way up to having as much as 70 to 
80 percent of their internal systems fully remediated and are 
well into the test phase.
    Now, this means if we were to look at actual timeframes, we 
find that it takes--and this is a pretty important fact to us--
it takes an average of 30 months for a mid-size company or 
government agency to complete their systems, mission critical 
systems, that they identify as mission critical. That means 
that unfortunately it takes about 6 months under 3 years to get 
that kind of activity completed. That is from the time they 
start to the time they get their mission critical systems made 
compliant or at least remediated, fixed, and back into 
production.
    Now that means that small companies, the difference between 
small companies and mid-size companies right now runs between--
well, it is about 1\1/2\ to 2 years difference between medium 
to large companies. So large companies are way out ahead of, of 
course, small and mid-size companies overall throughout the 
world. It is a 1\1/2\ to 2 year difference between mid-size to 
large. And right now it is running 2\1/2\ to 3 years between 
small to large companies. So large companies are considerably 
out in front throughout the world and especially here in the 
United States.
    Now, 23 percent of all companies throughout the world of 
all sizes, all industries, have not started as of yet on any 
Year 2000 activities or efforts; 83 percent of that 23 percent 
are small companies. That is what we categorize as small 
companies throughout the world.
    So understanding that by size, let us now take a look by 
industry. According to our latest survey, we find that the 
three industries that are farthest out ahead are insurance, 
investment services, and banking. I think we are all somewhat 
familiar with the reasons why those industries are somewhat 
ahead. Basically, their mission critical systems were a lot 
more obvious up front or early on. In some cases these are the 
industries that are most regulated, and in some cases we have 
situations where these industries actually experienced failures 
starting quite awhile ago. In fact, banks had failures in 
regard to processing 30 year mortgages back in 1970 and so 
forth. So these are the industries that are farthest head.
    Chairman Bennett. They are also the industries that come 
under the purview of the Senate Banking Committee where Senator 
Dodd and I got started on this. In an election year where we 
are both up, we cannot fail but to take note of that. 
[Laughter.]
    Mr. Marcoccio. So looking at this same chart, you can see 
that some of the industries that are farthest behind 
unfortunately are like education, health care, especially 
health care as far as hospitals and elderly care facilities. 
The oil industry is surprisingly behind in these activities. 
Industries like semi-conductor, food processing and 
agriculture, farming, construction industry, all of these 
industries are dangerously behind and if you look at our 30 
month timeframe that it takes to get mission critical solutions 
compliant, they are dangerously behind in this situation.
    Senator Smith. Mr. Chairman, I notice that the lawyers are 
dangerously behind. Does that mean that business can sue their 
lawyers? [Laughter.]
    Chairman Bennett. I am sure some lawyers will figure out a 
way to sue other lawyers.
    Mr. Marcoccio. Yes. And we separated medical practices out 
of health care because we found such a stark difference. 
Medical practices in general are extremely behind on this 
activity. We find a very small percentage have actually started 
any activity whatsoever in addressing the problem.
    Next slide. The next item has to do with--excuse me. I am 
sorry. We are out of sync. We need to go back. There we go. 
Yes. OK. The next slide here we have categorized basically all 
of the industries and what we have been doing is we have 
actually been following failures for some time. We have put 
analyses together associated with being able to calculate 
predictions related to status, related to history of failures 
that have occurred in those industries and in those size 
companies, and we have been able to analyze and come up with a 
prediction associated with these four categories of industries.
    As you can, the industries that are farthest ahead in 
category 1, we have now predicted that 15 percent of all 
companies in those industries will experience at least one 
mission critical system failure. The industries that are in 
category 2, 33 percent, or approximately one-third, of those 
companies in those industries will experience at least one 
mission critical system failure. And, of course, a mission 
critical failure means that a business interruption is likely 
to occur. It could affect revenue and will likely affect the 
continued operation of that business.
    The category 3, one half of all companies in those 
industries throughout the world will experience at least one 
significant mission critical system failure. And in our last 
category, which is extremely severe, we will have two-thirds of 
all companies in that category will experience at least one 
significant mission critical system failure. So these are 
clearly the industries that are at most risk and we have gone 
through subcategorizations in these areas to identify risks of 
various severity within these industries as well.
    The next item I would like to share is associated with 
status of countries--go on to the next major slide--the 
status--it is another one like that one. The status of 
countries we have been able to identify associated with where 
they stand and basically as you can clearly see the United 
States is definitely farthest out front when we include all 
sizes, all industries of companies throughout, and government 
agencies at both the Federal, State and local level. You can 
see the United States is clearly out in front. We have other 
countries that are just slightly behind like Holland, Belgium, 
Sweden; several of the western European countries are just 
slightly behind the United States.
    Now when we look at countries that are farthest behind, you 
can see that we have an anomaly in Western Europe where we have 
Germany very far behind. Germany has had a major focus on a new 
monetary euro system. They have also been a major driver of 
that strategy and in order not to lose focus on that activity 
or actually lose focus on the activity, they have actually put 
very little effort up until now associated with the Year 2000. 
It has only been as of late that many industries and companies 
in Germany are now starting to figure out that they need to 
address the problem and now they are scrambling to figure out 
how they can get moving as quickly as possible. We also have 
countries like Japan that are relatively far behind.
    Next slide, please. Now we have taken the countries as well 
and categorized them in four categories. And as you can see, we 
have been able to predict the percent of companies in each of 
these categories as far as how many companies will experience 
at least one significant mission critical system failure, and 
you can see the countries in category 1 where we will have 15 
percent of those companies--and again, this is all sizes, all 
industries--will experience at least one significant mission 
critical system failure. These include countries like 
Australia, Belgium, Bermuda, Canada, Denmark, Holland and so 
forth.
    The countries that are in category 2 where companies in 
those countries, 33 percent of them, will experience a 
significant mission critical system failure, and these include 
countries that many of our companies are well entrenched with. 
There is an awful lot of dependency on. Many are addressing 
markets in these countries to a great extent. Countries like 
Brazil, Chile, Finland, France, Hungary and so on.
    In category 3, 50 percent of companies and government 
agencies in those countries will experience a significant 
mission critical system failure. And, of course, in category 4 
we are talking about two-thirds will experience the same. So 
you can see the probability and the extent of the problem here; 
the seriousness of the problem within these countries is 
extreme. We find in countries like Afghanistan, Bahrain, 
Bangladesh, Cambodia, Chad, China and so on and so forth, we 
have, first of all, very little effort going on at the 
government level within these countries, either local, regional 
or federal. And we also find that most of these industries are 
way behind, many of them not even started in many of these 
countries.
    What we have done is we have taken our detailed information 
down at the next two or three levels beyond this, this 
research, and we have been following not only failures but the 
extreme details of this status, and we have put together now an 
analysis, analytical analysis, associated with our predictions 
related to the infrastructures within these countries and what 
some of the likely outcomes will be. Now if we take those four 
categories of the countries down at this lower, bottom slide on 
the floor here, you can see they have been categorized across 
the top of this slide, and as you can see, in category 1, which 
the United States would be in, we have identified a situation 
such that we will have isolated and minor problems related to 
power loss. We do not see at this point in time serious or 
severe power loss especially across or broad-based across the 
United States. We see that we will have some problems. There 
will be some interruptions, especially down within community 
power companies, very small facilities and so forth, and we 
have categorized those as isolated and minor.
    Same thing with telephone operations. Isolated and minor 
issues. As you can see, if were to go across to the last 
category of countries that are in the most severe condition, 
when we talk about power loss, they will experience a 
widespread and moderate. And these categories down at the 
bottom--by the way, when I say widespread, I am talking about 
the distribution of the failure and the problem throughout the 
entire country--and then the second item is associated with the 
severity. So we are talking about widespread and moderate 
situations as far as power loss, as far as telephone operations 
and interruptions.
    And when we get to government services within those 
countries, we are talking about a situation where we have 
widespread distribution and extremely severe severity issues. 
The governments in many of these countries have not started any 
activity whatsoever in some cases. If they have started, they 
are way behind.
    Next slide, please. So if we look at failures that are 
likely in each of these cases associated with these countries, 
associated with these industries, if we look at failures 
overall, what we find in our research also--and also by 
following the history of these failures so far--we find that a 
failure, any mission critical failure will cost anywhere from 
in a smaller company as little as $20,000, which could be 
extreme to some small businesses, up to $3.5 million to get 
themselves back operating associated with a mission critical 
failure. This is the range of what it will cost by failure.
    Also, a key point here is that failures overall, when we 
talk about all these failures that will occur, 10 percent of 
them we are predicting will last 3 days or longer. It is likely 
that a small percentage will last more than 3 days, but we know 
that, and we can predict that 10 percent will last 3 days or 
longer.
    Chairman Bennett. Is that in the United States?
    Mr. Marcoccio. That is overall, worldwide across all 
industries all countries. In the United States, we have also 
calculated and find that, yes, that holds true in the United 
States as well.
    Next slide. Now another point I would like to bring up is 
one of the things that I hear all the time in working with many 
companies, in fact doing conferences and talking with clients 
throughout the world and many country governments, there is 
still a misnomer out there. You were talking about awareness 
earlier, Mr. Chairman. The misnomer is that many people think 
that Year 2000 failures will occur at the strike of midnight 
January 1, 2000, and that that is our only fear and our only 
threat. That is absolutely not the case. In fact, we are 
talking about at the actual millennium rollover, the failures 
that are likely to occur are related to the embedded chip 
failures that are likely to occur or happen.
    We do find in our research, by the way, that the number of 
embedded chips, and we have been working with many engineering 
organizations, manufacturers of chips, and manufacturers of 
many types of equipment, we do find that a small percentage of 
embedded chips, a very small percentage, will fail in total. I 
have seen numbers publicized about 30 billion chips that we 
have, embedded chips throughout the world, and I have seen 
numbers of 10 or 20 percent that are likely to fail. Our 
research does not show those numbers. In fact, our research 
shows that embedded micro-controllers, we are talking about 1 
in 100,000 as far as failing.
    Now, unfortunately, that 1 in 100,000 may be running a very 
critical operation as far as power operation or life support 
system or whatever. So, of course, they have to be researched 
and evaluated and analyzed. But the number of actual failures 
we are going to see from embedded systems or embedded chips 
will be very small in number. But the embedded chips that do 
fail, however, most of them will fail at the strike of 
midnight, January 1, 2000. That is the way they are engineered, 
designed. In fact, they are engineered to monitor 8 second 
intervals, and within 8 seconds of that strike at midnight, 
those embedded chips will fail. The majority will fail.
    However, when we look at computer systems throughout the 
world that are likely to have failures, those failures, of 
course, have been occurring already in low volumes for some 
time, through the 1970's, 1980's and so forth, and, in fact, 
throughout 1997 and 1998, we have had quite a few failures. The 
volume has gone up somewhat in regard to material resource 
planning systems, in regard to many devices or systems that are 
used to forecast information, quarterly or yearly forecasts, 
especially 2 or 3 year forecast information.
    So in 1998, we have been seeing failures occurring. In 
1999, we are expecting that the volume will go up considerably. 
Most companies are going to be entering their fiscal 2000 as 
far as their business fiscal years, and we also have many other 
attributes that will cause the volume to go up considerably in 
1999. We will see failures go up dramatically in the Year 2000, 
but they are not going to just peak and drop quickly when we 
hit 2000. These failures will occur at a fairly consistent rate 
throughout the entire year of 2000. We have many transactions 
in many of these systems that do not occur at the strike of 
midnight. They occur either the next quarter or within the next 
segments of business throughout the entire year. And this will 
continue in 2001 at a reduced rate, 2002, so we are talking 
about a 3 to 4 year period of considerable number of likely 
failures.
    Chairman Bennett. I have to interrupt you here. I need to 
get over to the vote and we will return as quickly as we can. 
This is fascinating stuff and I have some questions for you, 
but I apologize. The committee will stand in recess.
    [Recess.]
    Chairman Bennett. The committee will come to order. OK. Mr. 
Marcoccio, again my apologies for the interruption. We are back 
to your last chart, as I understand it.
    Mr. Marcoccio. OK. Great. Well, my point on that last chart 
was, of course, that the failures will occur over a 3 or 4 year 
period as opposed to a single point in time and when we look at 
risks and we talk about potential effects, global effects, 
economic effects and so forth, we really need to be thinking 
about that entire spectrum or period of time as opposed to one 
point in time.
    And my last comment that I wanted to make basically is 
associated with the potential risks to the United States 
specifically. From a domestic perspective, the risks that we 
have identified or highlighted as being most important are the 
interruptions or failures due to interdependencies and 
interconnections between companies and countries and we feel 
that can produce a considerable negative impact. Second, of 
course, the IT systems in critical industries that will not be 
fixed in time because many of these companies just will not 
have time because of the 30 month factor and the amount of time 
it takes to get mission critical systems completed. And then 
there are several other risks, of course, that I have in my 
testimony, but from a foreign perspective, the foreign business 
interruptions which would impact, too, many U.S. companies, of 
course, from a dependency perspective--foreign security issues 
ignited by things like unrest or severe economic issues. Many 
of these countries, of course, that I had in that fourth 
category, we are talking about the likelihood for significant 
impact to their basic infrastructure.
    So things like foreign security, national security, as well 
as unrest in those countries, is very likely in our estimation. 
Key foreign government agencies will experience significant 
failures and therefore the interrelationships between our 
government agencies, militaries and so forth are also highly 
critical.
    And this last point is associated with our recommendations 
to the committee. I guess the most primary recommendation would 
be to identify either a specific Federal agency or group that 
exists today to manage and coordinate the global impact of Year 
2000. We think this is of ultimate importance. Of course, all 
the other issues and items that are being dealt with within the 
committee we feel are important as well, but we feel it needs a 
major focus as far as addressing the global impact issue.
    And the second recommendation is associated with the 
Security and Exchange Commission, and I know, Mr. Chairman, I 
think you have done some great work in trying to drive the 
issue of disclosure throughout the United States as far as 
publicly held companies. We find in our research, however, that 
there is a vast amount of difference between what has actually 
been disclosed thus far and the actual status within the 
majority of companies, even here in the United States.
    We do find that a lot more as far as numbers of companies 
do intend to at least make or fill or provide their disclosure 
statements in this next quarter, related to some contingency 
work and so forth, but we still find, even with the work that 
is being done today, a considerable difference in reality 
versus this extreme optimism. We would strongly recommend that 
a policy be adopted where either the SEC or another independent 
agency or company actually provide a set of random audits 
associated with these companies. As we all know, this process 
works at least relatively well as far as our IRS and our tax 
returns, and we feel that that is definitely necessary in order 
to get these disclosures much more accurately implemented.
    And last, the recommendation I would like to bring out is 
associated with new legislation that is implemented. We would 
like to see all new legislation questioned as far as 
determining if it may require IT modifications and systems. 
There is an awful lot of legislation that is launched that 
requires in many of these industries we are talking about being 
far behind--education, health care and many others--to go and 
make changes in their systems related to reports, related to 
regulations and other types of changes. We would like to see an 
evaluation be made or at least some kind of quick assessment be 
made on any of these pending legislations and that we would ask 
that these types of things as much as possible be put off or 
stopped because we are basically adding to the serious 
condition--the fact that they have to go out and spend critical 
time implementing those changes.
    Last, we would like to also recommend that we set correct 
expectations within the U.S. Government agencies and also any 
other awareness activities that comes out of the committee 
associated with the period of time that these failures will 
take place. We find even in reports and documents from our U.S. 
Federal agencies that there is a misnomer associated with the 
period of time that these failures are likely to take place. So 
we would hope that some effort be put in place to accurately 
make aware individuals and within our Federal agencies that we 
are talking about a much longer period of time for potential 
failure and risk.
    [The prepared statement of Mr. Marcoccio can be found in 
the appendix.]
    Chairman Bennett. Thank you very much. I have a whole 
series of questions I would like to sit down and discuss with 
you and we could take all of the rest of the morning with you. 
Unfortunately, we do not have that time. And the Senate vote 
has eaten up half an hour or more of our time in addition. Let 
me ask you if you would be willing to respond to questions in 
writing that would be made part of the record?
    Let me just pick out several of the things you have said in 
your testimony. You talked about 1 to 3 days being the duration 
of some of these problems. Thus, I think the implication in 
some people's minds is, OK, the problem will hit and we will 
have 3 days to solve it and then it will be over with. And that 
brings to mind the statement by one nuclear physicist in Russia 
who said we plan to do nothing about Y2K. We will just let it 
come. When it hits, we will see where the problems are, and 
then we will buy the fixes from the United States. So that is 
the easy way to deal with this.
    I want to give you the opportunity to correct the 
impression that no matter how bad it is, it can be fixed within 
3 days.
    Mr. Marcoccio. OK. Well, we do do a pretty thorough 
analytical analysis associated with that information, but one 
point I would make in regard to that would be that since we are 
talking about many millions of failures that will take place 
and even mission critical failures throughout the world, when 
we talk about all failures in the millions, 10 percent of those 
will last 3 days or longer. That is extremely substantial in 
our mind to have 10 percent of a very, very large number last 3 
days or longer. We are talking about business interruptions 
where a factory that runs three shifts a day may not be able to 
operate for 3 days or longer. We are talking about situations 
where goods that may have a very short shelf life not be able 
to be delivered within 3 days. We are talking about very, very 
substantial unfortunately ramifications associated with that 10 
percent.
    So I by no means meant to lighten the situation with the 10 
percent, but when we look at the real numbers, the likely 
number is in the millions throughout the world of total 
failures. Yes, 10 percent will last 3 days or longer is likely 
to occur and what we are predicting. We feel that is a very, 
very large number. We also feel a percentage of that will last 
15 days or longer as well. In many cases, if you are talking 
about extreme conditions, if you are talking about basic 
infrastructure, very large corporations, to have a failure and 
a business interruption and a large portion of a business 
actually shut down that operation for 15 days or longer we feel 
is a very, very serious and severe situation. So, yes, I did 
not mean to make that sound like a very light statement. We 
feel that is pretty severe.
    Chairman Bennett. Yes. No, I know you did not. And that is 
why I gave you the opportunity. I come back to this chart that 
says 4 years. We have to look at the macro world in terms of 
the lasting impact of this thing dragging out over that period 
of time.
    Now, back to your chart on the level of readiness in 
various countries. I have the feeling that some countries will 
simply drop off the radar screen and may be there. That is out 
of sight in terms of their ability to connect with the world 
for several years. Is that a correct?
    Mr. Marcoccio. I think that extreme situation is possible 
in some cases, yes.
    Chairman Bennett. And if that is a country where we are--
we, the Western world, not necessarily just we the United 
States--taking critical materials, the interruption of that 
supply chain will cause enormous repercussions. The Western 
world will not stand for an interruption for several years and 
will find alternative sources of supply. Therefore, the country 
that is just beginning to build itself up economically on the 
basis of whatever it is they produce suddenly finds themselves 
wiped out of its ability to compete. The desire of 
industrialized nations to have alternative supply sources turns 
them to their competitors. Even if they then get their Y2K 
problem solved, they are so far behind the market they cannot 
ever climb back into a competitive position. As a result we 
will have a serious humanitarian problem; CNN will go in with 
their cameras and show starving children. Last time CNN showed 
starving children in Somalia we sent in troops, and I think we 
are going to have other aspects of that in various countries 
around the world as a result of this problem.
    Now am I overstating it? Do not hesitate to disagree with 
me. I am not trying to make a political point here. I am trying 
to get information. If I am overstating it, tell me and tell me 
why.
    Mr. Marcoccio. No, I think that situation is definitely 
possible in some number of countries. Some of these companies 
basically that are in that fourth category have situations 
where they have dependency within their government agencies. 
Many of the countries in that category, basically the country 
owns the power company, the telecom company. In some cases, we 
are talking about food distribution being heavily owned or 
supported by the government. We are talking about situations 
where we already have close to or at starving situation of 
people and food. We are talking about countries where we 
already have some unrest occurring.
    Considerably, in many of those countries, we are talking 
about situations where they have threats between their country 
and others from a national security perspective. So we already 
have a pretty significant situation, even from a global economy 
perspective as well with those countries, and this is going to 
add considerable turmoil to those countries and in some cases 
may do exactly what they said and actually may shut them out of 
any type of global market opportunities.
    Chairman Bennett. OK. Thank you very much. I have many more 
questions I would love to discuss with you.
    Mr. Marcoccio. We would be glad to submit answers in 
writing or follow-on meetings or whatever.
    Chairman Bennett. All right. We will do that, but in the 
interest of time I will turn to Senator Smith.
    Senator Smith. In the interest of time, I will just submit 
written questions.
    Chairman Bennett. OK. Thank you again, and our apologies 
for the interruptions. It has been very useful.
    We would like now to hear from the Honorable Fred Hochberg, 
Deputy Administrator of the SBA. We had planned to have him on 
a panel with a number of other witnesses. Mr. Hochberg, given 
your time pressures, I think we will hear from you first and 
ask you your questions and then hear from the other members of 
the panel. Again, we apologize to you. I think you probably 
would learn from the questions and answers from the other 
members of the panel. So we invite you to stay as long as you 
can, but we do understand the pressures that are on you and we 
will hear from you now.

STATEMENT OF HON. FRED P. HOCHBERG, DEPUTY ADMINISTRATOR, SMALL 
                    BUSINESS ADMINISTRATION

    Mr. Hochberg. Thank you. Thank you, Mr. Chairman, for 
inviting the U.S. Small Business Administration to testify 
before your committee. My name is Fred P. Hochberg, Deputy 
Administrator of the SBA. I appreciate the opportunity to 
discuss the Year 2000 or Y2K problem facing the nation's 23.6 
million small businesses. Before I begin, I would like to 
applaud both you, Mr. Chairman and Vice Chairman Dodd, for your 
leadership on this issue. I would ask that my full statement be 
made part of the record.
    Chairman Bennett. Without objection.
    Mr. Hochberg. As someone who has run a small business and 
met a payroll, let me assure you I know firsthand how 
potentially disruptive the Y2K bug may be to a business. We at 
the SBA are committed to doing all we can to minimize the 
impact of the Y2K problem on America's small businesses. To 
some extent all small businesses may be affected since any 
firms with non-Y2K compliant hardware, software or equipment 
with time-dependent chips are potentially at risk.
    And small firms should not forget their dependence on 
outside entities. A business that has addressed its Y2K issues 
in-house could still suffer or fail because a key outside firm 
with its own Y2K problem fails to perform. However, it is clear 
that with foresight and preparation, the problem can be avoided 
or at very least minimized.
    In July of this year President Clinton issued a challenge 
to both the private and public sectors to work together to 
address this critical issue. The President's Council on the 
Year 2000 Conversion under the dynamic leadership of John 
Koskinen has spearheaded the administration's efforts in 
dealing with this problem. Let me briefly update you about what 
the SBA is doing to ensure that our own computer systems are 
Y2K compliant and what SBA is doing to help our customers.
    With regard to SBA's internal computer systems, I am 
pleased to inform you that as of today we have completed the 
renovation of the computer programs in all of SBA's mission 
critical systems ahead of the targeted goals for the Federal 
Government.
    Let me now turn to discussing how SBA is striving to help 
the nation's small businesses cope with the Y2K issue. Our goal 
from the beginning has been to bring the seriousness of this 
problem to the attention of the small business owners without 
creating undue panic. As a result of our work with industry 
experts, we have developed a common sense three-step program 
that anchors our Y2K outreach efforts.
    First, businesses are encouraged to conduct a self-
assessment to see if they may have defective computer hardware 
and software as well as any equipment using date sensitive 
embedded computer chips.
    Second, businesses are encouraged to take action 
immediately. Now is the time to begin evaluating and addressing 
one's vulnerability to the Year 2000.
    Third, businesses are encouraged to stay informed about 
this issue. Accurate Y2K compliance information could change 
and business owners need to keep abreast of any modifications 
they may need to make as a result of changes in their business 
operations.
    Part of this process also includes following up to ensure 
your suppliers and distributors are Y2K compliant and 
developing contingency plans to deal with problems that may 
arise or are beyond their control. These three steps form the 
basic message of our public awareness program. We have prepared 
a series of materials and services to notify small businesses 
about the Y2K issue. They include the posters you see in the 
room, fliers that we are putting in bill statement stuffers 
such as this one, a toll-free hotline, a special Y2K section of 
our website, the address of which is www.sba.gov. In fact, 
since its inception in February of 1998, this site has been hit 
or visited over 840,000 times.
    Our traditional resource partners have been a tremendous 
asset in helping us spread the word about Y2K. Since our Y2K 
kickoff in early June with you Chairman Bennett and Vice 
Chairman Dodd, the SBA has conducted Y2K training events 
throughout the country. Since June, we have distributed more 
than two million of these fliers through our private sector 
partners such as financial institutions, utility companies and 
newspapers.
    We are also very excited that recently we reached an 
agreement with the Internal Revenue Service to distribute 
nationwide 6.5 million of these fliers to small business 
owners.
    Before I conclude my testimony, let me tell you about an 
exciting activity we have planned for later this month. We will 
sponsor a nationwide Y2K action week during the week of October 
19 to focus government, business and media attention on the Y2K 
problem. We have nearly 340 events already scheduled across the 
country in conjunction with this effort. I am also happy to 
report that 47 of those events are in States that members of 
this committee represent. It is our hope that we can reach 
millions of small businesses and motivate them to take action 
now on this critical issue.
    Let me conclude by saying the bottom line is small 
businesses need to take action now and stay informed on this 
issue. It is too late to start early. The reaction to our 
efforts has been overwhelmingly positive. As you return to your 
respective States in the coming weeks, we urge you to carry 
forward the Year 2000 message. You are uniquely situated to 
bring the urgency of this message home to the small business 
community. We frankly need your help in this effort and would 
be happy to provide materials or help you communicate with your 
small business constituents.
    For most businesses, the Y2K issue can be managed if they 
take action now while there is still time. Thank you, Mr. 
Chairman, for inviting the SBA to testify. I look forward to 
working with you and would be happy to answer any questions.
    [The prepared statement of Mr. Hochberg can be found in the 
appendix.]
    Chairman Bennett. Thank you very much. We applaud what you 
have been doing. I note that John Koskinen has helped you in 
changing the title of Y2K Awareness Week to Y2K Action Week 
because if we are only dealing with awareness we are too late.
    Mr. Hochberg. Exactly.
    Chairman Bennett. You are aware, I am sure, of the study 
that was done by the NFIB in conjunction with Wells Fargo Bank, 
in June or July where 82 percent of small businesses said they 
had no Y2K plans and, more chilling for me, 40 percent or 
roughly half that number said they did not plan to get any Y2K 
plans. Now you have done yeoman work in trying to get the word 
out. Do you have any statistics that could be used to counter 
those summer numbers to say that the percentage of small 
businesses that are now going to try to deal with this might be 
going up or do we just have the number of hits on your web site 
and a general feel that things are better?
    Mr. Hochberg. We have not conducted research in terms on 
the extent of the problem. I believe NFIB has done so and has 
some updated information on that.
    Chairman Bennett. Good. We will hear from them next.
    Mr. Hochberg. But we are mounting this campaign and 
organizing many events the week of the 19th to make sure we do 
get this message out. I was a small businessman. I ran a 
catalog company, and I understand you deal with the upcoming 
season, how to get inventory in, and deal with payroll issues. 
It is harder to get a small business person to focus on 
something that seems like an eternity, 15 months away. We have 
mounted this effort because we know there is that potential 
problem.
    Chairman Bennett. I understand exactly having run several 
small businesses myself. May I inject a somewhat cautionary 
note? I am delighted that you are reporting that your mission 
critical systems are remediated and you are going to be in good 
shape. Here in the Senate, we have gone through the process of 
trying to make sure that the Senate computers are compliant, it 
would be very embarrassing for me if I am out here sounding the 
cry for all the rest of the world and my own computers do not 
work. I have found that the first reports of getting things 
under control are almost always more optimistic than the fact. 
And I would really be very stunned, very pleased obviously, if 
all the PC's on everybody's desk at the SBA were ready. I have 
a suspicion that maybe that is not the case.
    So I would just suggest to you as the top manager, now that 
you have gotten your optimistic report, go back and start 
asking some troublesome questions, and I think you will 
discover that some people said, oh, well, we did not mean that. 
And just as I want to avoid the embarrassment of having the 
Senate not be Y2K compliant all the way through, you want to 
avoid the embarrassment of having the SBA not be compliant. 
There are certain of our colleagues that I would just as soon 
not alert. [Laughter.]
    But we will let that one go by. Senator Smith.
    Senator Smith. Mr. Hochberg, thank you for your testimony. 
I understand the SBA will be guaranteeing 50 percent of the 
loan value up to $50,000 to help small businesses pay for Y2K 
fixes. Can you characterize or project how quickly the 
guaranteed funding will enable small businesses to complete 
remediation and testing efforts? Do you have a sense of timing 
on that?
    Mr. Hochberg. Senator Smith, all of SBA's loan programs 
currently are available for Y2K remediation--from our LowDoc 
and SBAExpress programs that were just expanded last month and 
through our regular 7(a) and 504 loan programs, which are for 
larger amounts, up to $750,000-$1 million respectively. They 
are all available to be used for these efforts. And our newly 
expanded programs, the LowDoc, standing for low documentation, 
and SBAExpress allow 36 hour approval times. They are very 
quickly available so that should not be an impediment to a 
company getting the funds, and those loans can be paid out 5, 
10, or 15 years to amortize the cost of those changes.
    Senator Smith. Are you getting many people seeking loans 
for this specific reason?
    Mr. Hochberg. Our loan programs are loan guarantees. So, in 
fact, we often do not see the precise nature of some of those 
loans. But our banks are alerted to that. In every forum that 
our district officers speak in, we make sure people are fully 
aware that these programs are available.
    Senator Smith. Do you notice banks pushing small businesses 
to make sure their customers are Y2K compliant?
    Mr. Hochberg. The banks have been some of our best 
partners. The American Banking Association, in fact, took our 
entire training and education program and incorporated it into 
their documents. Nations bank and Wells Fargo are actually 
distributing this to their customers and working with other 
banks to do so as well. So the banks have been, as the 
gentleman from the Gartner Group indicated, at the forefront 
and I believe small businesses do listen to their bankers.
    Senator Smith. Thank you very much. I guess bottom line 
there is really no reason people should not be doing this in 
small business. They just solve the problems if they are aware 
of it. I do not imagine that for most large companies the Y2K 
problem would be a large financial hit, but it potentially 
could be if they do nothing about it. So thank you for your 
efforts.
    Mr. Hochberg. Certainly.
    Chairman Bennett. Thank you. And you are more than welcome 
to stay or if you have to leave, we will understand.
    Mr. Hochberg. Thank you.
    Chairman Bennett. We will now have the other members of the 
panel on small business join us: William Dennis, senior 
research fellow at the National Federation of Independent 
Business; Mr. Rod Rodrigue, director, Manufacturers Extension 
Partnership from the State of Maine; and Mr. Harold Schild, 
president/CEO of Tillamook Cheese. And I have eaten Tillamook 
Cheese so I can endorse the comments of the Senator from Oregon 
with the caveat that Cash Valley cheese in Utah is of equal 
quality.
    All right. Mr. Dennis.

 STATEMENT OF WILLIAM J. DENNIS, JR., SENIOR RESEARCH FELLOW, 
          NATIONAL FEDERATION OF INDEPENDENT BUSINESS

    Mr. Dennis. Being originally from Wisconsin, I am going to 
have to argue with that. But thank you very much, Mr. Chairman. 
The bulk of my testimony today will be a report that was 
produced.
    Chairman Bennett. Yes, and it will be without objection 
included in the record.
    Mr. Dennis. Data for the report were collected in April, 
late April. We will update that report later this month. In 
fact, I had a conversation yesterday with the Gallup 
organization so we are about ready to go in and essentially 
repeat what we did earlier. My judgment is that the October-
November data will be much more optimistic or encouraging than 
was the spring's. However, I say that from experience rather 
than data. Many small business owners, as you are well aware, 
have immediate pressing problems and those tend to go right to 
the top of the list. So the current status is not totally 
unexpected although not always totally understandable either.
    Chairman Bennett. Can you pull the microphone a little 
closer to you?
    Mr. Dennis. Surely. Is this better?
    Chairman Bennett. Thank you. Yes.
    Mr. Dennis. The critical finding in the spring report was 
that over 80 percent of the small businesses in this country 
are potentially exposed directly to a Y2K problem. To take it a 
little bit further, think of dividing the small business 
population into fifths. A fifth of them does not understand 
that there is a Y2K problem. They are not aware of it. A fifth 
are currently taking action. A fifth have not taken action, but 
plan to take action. Two-fifths are aware of the problem and do 
not plan to take any action prior to the Year 2000.
    If we put together the people who do not have computers or 
embedded chips as well as those who have taken action and feel 
comfortable, we have approximately 40 percent of the small 
employer population. At the other extreme are those which plan 
to take no action, and who are computer dependent to the extent 
that if they lost their computers or the computers 
malfunctioned, would lose 85 percent or more of their 
production or sales. That effectively means they would have to 
close down for a period until they can fix it. About 330,000 
businesses fall into that category. If you cut the amount of 
computer dependence somewhat, then you about double the number. 
So we have a serious problem among a significant number of 
businesses.
    Aside from the general liability issues that you have 
talked about on other occasions and an assumption that the 
credit markets do not go south on us, it seems to me that the 
primary function or role of the Federal Government other than 
taking care of its own house is to serve as the village nag. It 
would be helpful quite frankly, and many of you are doing so, 
to----
    Chairman Bennett. I have been called a lot of things, but--
[Laughter.]
    Go ahead.
    Mr. Dennis. One of the critical points is to nag the right 
people. Let me refer you to a study conducted by the Small 
Business Administration in 1994 titled ``How Small Businesses 
Learn.'' That study focuses on how government can communicate 
with the small business population. There are two key groups. 
The first key group are trade associations, but specifically 
industry-specific trade associations. The reason that they are 
critical is not only because they have good contact with small 
business owners, but because they also are aware of the 
equipment that is used within those industries. It is the kind 
of information that someone interested in smaller firms or 
knowledgeable about smaller firms in general would not 
necessarily have. So industry-specific trade groups are very 
important because of what they know and because they have 
enormous credibility within the population itself.
    The second group that has enormous credibility within the 
population itself are colleagues and business associates. You 
spoke earlier about banks and their relationships and indeed 
they have been out in front from what we have seen. But there 
are other types of organizations as well, large and small, 
which would do well to impress upon their customers and 
suppliers the need to be Y2K compliant.
    The upshot is that government would do well to focus on its 
bloody pulpit function and this it can do quite well. Thank you 
very much, Mr. Chairman.
    [The prepared statement of Mr. Dennis can be found in the 
appendix.]
    Chairman Bennett. Thank you. Mr. Rodrigue.

 STATEMENT OF ROD RODRIGUE, DIRECTOR, MANUFACTURERS EXTENSION 
                  PARTNERSHIP, STATE OF MAINE

    Mr. Rodrigue. Thank you. Senator Bennett, Mr. Chairman, and 
Senator Smith, I am here today from the great State of Maine to 
hopefully bring across more solutions than problems. I am 
president of the Maine Manufacturing Extension Partnership, 
which is part of a national Manufacturing Extension 
Partnership, put together by NIST under the Department of 
Commerce. Our primary mission is to help small and medium-size 
manufacturers become more globally competitive by using the 
best available technologies.
    We are the folks in the trenches that talk to these 
manufacturers and try to find out what we can do to help them. 
What we have done in Maine and the reason we have been asked to 
come here today is to tell you a little bit about what we have 
done as a model program. When we saw all the great number of 
manufacturers that could potentially be affected by Y2K, we got 
very nervous about what would be happening to our manufacturing 
base in Maine. With 2,500 manufacturers in Maine, 88 percent of 
them hiring below 100 folks, we started to look at these 
manufactures as the ones that were the most at risk.
    A few months back NIST came out with a Y2K assessment tool. 
This tool is a mechanism you can hand to manufacturers enabling 
them to actually do an assessment of all of their inventories. 
It looks at the supply chain, and allows them to look at their 
embedded systems. For just 1 second, if you could, just 
visualize a manufacturing facility with 50 or 60 machines from 
a dozen different countries all with embedded chips networked 
together out of customized software, not knowing who put in the 
custom systems in some cases. It becomes very complicated. We 
have seen so much apathy with small manufacturers that we 
decided to call every manufacturer in the State of Maine. We 
estimate 500 to 600 will need help.
    We took this Y2K tool and linked up with SBDC's, SBA folks, 
business visitation folks and so forth, and will deliver this 
tool to every single manufacturer that needs it on a 
personalized basis. We have heard today about the apathy and it 
really is there, but once a manufacturer uses this tool and 
complete their system inventory, lights come on and the 
manufacturers understand the value in going through an 
assessment.
    The real back breaker in this whole process is proceeding 
from the awareness to the remediation phase. They cannot get 
their arms around the remediation problem. This process gives 
them a road map. At the end of this engineering road map, the 
mission criticals are identified and prioritized. We attach a 
SBA LowDoc loan application instruction sheet that gives them 
not only the means, but a mechanism. Then we take and help them 
through their remediation process.
    The real good news is that this document, this tool, sits 
in the hands of about 2,500 MEP folks all around the country. 
There are 400 offices in all 50 States and Puerto Rico. They 
are affiliated with 3,500 other agencies that can help 
distribute the tool. What we are doing in the State of Maine we 
think would be a good model. We will continue to talk about Y2k 
awareness and put the action together. We have handled about 50 
companies so far.
    In your letter you asked me what it is the Government could 
do to assist in the situation. In Maine we have begged and 
borrowed and tried to put this product out on limited 
resources. With the lack of funding we will probably stop at 
about 100 or 120 companies. MEP has yet 400 other companies to 
assess. The national NIST program, the MEP program has 
submitted a request for funding through the Department of 
Commerce. I am asking that Maine's Y2K model program and the 
budget request be used to put this tool in the hands of all of 
the States in the union, allowing immediate delivery of this 
tool. Remembering that this is an assessment tool, we need to 
be mindful that manufacturers are looking at a narrow window of 
opportunity to complete and start the remediation process to be 
Y2K compliant.
    What we are asking today, I guess, or what I am asking 
today is to have this committee reach out and plug in this 
system and let us go out and actually start to do the work. I 
did not want to bore you with more statistics of how bad it is 
going to be. I want to say that we can go out now and start to 
cure this problem. The tools are there. The people are there. I 
am reminded of my first job where my first boss said do not 
bring any more problems, just bring solutions. I am hoping that 
is what I am doing here today, bringing you some solutions that 
make some credible sense.
    The national MEP system over the last 6 years has really 
been at the forefront of giving technology to the small and 
medium-size manufacturers in battling this global competition. 
We are in place, we are ready to go. We have the tool to go out 
and implement it. The bottom line for me, is to ask you to 
expedite or help us get the resources, the financial resources, 
to go forward with this program.
    I want to point out that these resources we are asking for 
is not to pay for the remediation process. It is to help 
promote more awareness and alleviate the existing apathy. We 
are ready to go and I just hope that you will help me step on 
this millennium bug and finally get it out of our hair. I would 
be more than happy to answer any questions and I thank you for 
inviting me.
    [The prepared statement of Mr. Rodrigue can be found in the 
appendix.]
    Chairman Bennett. Thank you. Mr. Schild.

 STATEMENT OF HAROLD SCHILD, PRESIDENT/CEO, TILLAMOOK CHEESE, 
                              INC.

    Mr. Schild. Schild. That is fine. Thank you. Chairman 
Bennett and Senator Smith, I want to thank you for providing me 
an opportunity today to share our experience as a relatively 
small farmer-owned dairy cooperative in dealing with the Year 
2000 computer problem. We were first made aware of the problem 
back in February of 1996 during a routine annual audit by one 
of the Big Five firms, and at that point, we authorized 
Management Information Services to research the validity of the 
potential for problems in our computer systems. They reported 
that, indeed, there was a real danger of complete calamity when 
January 1, 2000 rolled around and that we should begin 
immediately toward correcting the problem.
    Now, Tillamook County Creamery Association is 150 member 
dairy cooperative. We are nestled between the Coast Range 
Mountains and the Pacific Ocean, about 75 miles west of the 
Portland, OR metro area. The association has about 400 
employees and we have sales of about $160 million per year. We 
are totally branded, value-added dairy products, primarily 
cheddar and premium ice cream.
    At the time we became aware of the Y2K problem, we had an 
MIS staff of two people. Despite our efforts, we have been 
unable to attract additional staff to our coastal area to cope 
with everyday programming demands plus deal with the Y2K bug in 
addition to their daily responsibilities. Many other companies 
in the metro area that are able to pay higher salaries have 
engaged most of the qualified programmers in the region.
    Our approach was to form teams that would think of all the 
potential problems in their areas. Some of our people were sent 
to seminars to gain better understanding in where to search for 
the Y2K bugs. A few of the potential problem areas they found, 
of course, were our accounting software, electronic data 
transfer between our order desk and our customers, member and 
employee payroll, quite an important area, point of sale 
programs. We have a visitors center that hosts about 900,000 
visitors each year, and that, of course, was a real critical 
area for us as well as our farm store and dealing with our 
members.
    A question about our suppliers--were they going to be 
compliant and able to continue to supply a regular flow of 
product to us? Were there legal issues? Questions we did not 
have answers for. Were we in jeopardy of defaulting on some of 
our contracts and agreements. Financial transactions. Were 
customers' payments going to come through in a timely manner? 
Was our order reception and processing going to be up to date? 
Were we going to be able to accept customer orders on a timely 
manner and get the product to them as expected?
    And, of course, our automated product processing. We have a 
fairly modern cheese plant and processing, and we are concerned 
with the program controllers that actually operate that system. 
To date, our accounting department estimates that our out-of-
pocket cash expenditures will exceed a million dollars to avoid 
a major Y2K problem. This does not include any of the internal 
costs of staff time or expense for training. The loss of 
productivity internally because our people are busy with Y2K 
issues is also not included in this cost estimate. These costs 
will be directly borne by our dairy members, many of whom are 
struggling to make ends meet already.
    At the present time, we are applying a test program to all 
of our software to determine just where the bugs are hiding. We 
are confident that TCCA will be Y2K ready before the fall of 
1999 if we do not experience delays in receiving software. We 
have contracted for the installation of this software by April 
1, 1999. And we expect no problems, but then I am sure there 
will be some surprises. There always seem to be.
    Looking at the rest of the industry, many of the CEO's of 
dairy companies that I talk to express a wide range of views on 
Y2K--from disbelief that it is more than a computer industry 
hype to stimulate business to a view that the electronic world 
as we know it today will cease to operate, leaving commerce 
stalled, utilities shut down, and only hand operated equipment 
functioning. Some project no additional costs to complying with 
Y2K while others estimate their costs like ours will run into 
the millions.
    As in many other industries, the large, well financed seem 
to be better prepared than those who are less sophisticated and 
more personally operated. I would rate the dairy industry 
generally to be at level II in the previous testimony for 
overall preparedness. Items that I would suggest perhaps 
Congress could help us on is that many persons still are not 
aware of the real potential for disaster that exists. This 
committee is an excellent vehicle toward a broader awareness 
level nationwide, and I compliment you for your efforts on this 
behalf.
    Some suggestions that could possibly help--Congress could 
act on--would be to establish a centralized government 
sponsored web page for all companies to log on to and to 
certify that they are completely compliant. Other companies 
then could access this page to verify if their suppliers and 
customers are prepared to function after January 1, 2000. This 
would reduce duplication of efforts.
    Also, immediate tax recovery of all program upgrade costs. 
I understand that IRS has stated that a portion of any new 
software or hardware needed for Y2K compliance could be 
expensed in the current year. However, much of the software and 
hardware needed to operate the new upgrades will not be 
immediately deductible because it is not used solely for Y2K 
but may incidentally improve other non-Y2K functions of the 
operating systems. This upgrade must be expensed over a long 
period of time under the current IRS guidelines.
    I would say at this point that we are probably doing about 
5 years worth of software and hardware upgrades, all within the 
fiscal year 1999, in order to cover the Y2K bug. We normally 
would spread this over a longer period of time.
    Third, if Congress could assure those of us in industry 
that government services will be fully compliant. I understand 
there is many Federal, State, and local public bodies such as 
utilities, emergency services, financial institutions, and 
transportation services that are not Y2K compliant and claim 
they do not have the resources to become compliant by January 
2000. I thank you for this opportunity to express the Y2K 
status of our cooperative in Oregon and hopefully it will help 
others avoid a major crisis just 65 weeks from now.
    [The prepared statement of Mr. Schild can be found in the 
appendix.]
    Chairman Bennett. Thank you very much. This has been useful 
to get this range of information. Unfortunately a pattern is 
being repeated here that we have seen in other hearings which 
is that the witnesses we get before us are the witnesses who 
know what they are doing. And they give a false impression that 
things are better than they really are because the witnesses 
that do not know what they are doing refuse to come forward. So 
the good ones are here and we recognize you as being 
representative of the good ones. The others raise great concern 
for us.
    Mr. Dennis, you have talked about trade associations and 
other colleagues and associates and you highlighted banks. Do 
you have the sense that banks, credit unions and so on, those 
gatekeepers of credit, are starting to make this a loan issue? 
That they are beginning to say you cannot get a loan because we 
think you will not be able to pay it back because you are not 
going to be Y2K compliant?
    Mr. Dennis. Let me separate those two, Senator.
    Chairman Bennett. Yes.
    Mr. Dennis. In terms of obtaining loan money to become 
compliant, my sense is that is not an issue right now.
    Chairman Bennett. Yes.
    Mr. Dennis. We are in a situation now where credit is 
probably as easy to get for a small business owner as any time 
in the 23-24 years that I have been researching small firms. So 
I do not see that as an issue. The other portion of your 
question, are banks requiring Y2K compliance before they are 
issuing loans, I do not have a sense that that is a requirement 
at this juncture. I do have a sense that they are sending out 
letters to their--well, I do not have a sense--I know they are. 
A lot of banks are--are sending out letters to their loan 
customers which very specifically asks them about their Y2K 
activities and infers that it would be well if they took 
immediate action to remedy this problem. They are couching the 
inquiries in terms of having to do business back and forth over 
the wire, not necessarily with you, but with other people. 
Therefore, it should have all of its customers in compliance.
    Chairman Bennett. Mr. Rodrigue, your body language said you 
had an answer to that question.
    Mr. Rodrigue. Well, like I said, we are in the trenches, 
Senator, and they are starting to get very nervous. The bankers 
are sending letters inquiring about Y2K compliance. Credit 
terms and availability could potentially be affected.
    I should mention that by the use of the Y2K tool, gives 
them a due diligence document so they can show the banks that 
they have gone through an assessment. It is another big plus. 
This tool not only gives them a due diligence at the end of it, 
it allows them to move forward because it gives them a document 
that tells them how much resources they need to go through 
remediation. But the banking portion, Senator, is a very big 
concern, and I think that we are going to see a little more of 
a panic as the months roll by.
    Chairman Bennett. I am privy to the actions inside a major 
bank where the credit officers are saying we did not think this 
was a credit issue. We now decide that it is a credit issue, we 
think we are going to lose between 5 and 20 percent of our 
customers by our action. That is we will cut them off as bad 
credit risks on the basis that they do not have sufficient 
remediation in place. Therefore they are going to start holding 
credit and loan officers within the bank, accountable for the 
kinds of loans they make with respect to this issue. This is 
just one bank. However, I think it is a fairly significant 
signal to send to small business people when they go in for a 
loan in May or June 1999 and be told by the bank I know we have 
served you for 10 years, but we are not going to make this loan 
because we do not think you are going to be able to pay it 
back.
    And that raises an issue I will say here and probably 
repeat later on: One of the results of the Year 2000 problem is 
going to be a flight to quality. The banks will move to the 
quality loans, let other people fall by the wayside. Suppliers 
will move or companies will move to quality suppliers; the ones 
that are more marginal, they are willing to take a chance on, 
will be in difficulty. And as I indicated with the testimony 
from the Gartner Group, whole countries will be affected 
because people will move to quality and they will go to 
reliable sources of supply. It can be for a small business an 
opportunity to become a source of quality and thereby step up 
over competitors who are not paying attention to this. It can 
be an opportunity rather than a disaster.
    One quick question for you, Mr. Dennis. NFIB, as I 
understand it, does not have Y2K as a mandate yet. Are you 
planning to take a more aggressive stand on this in terms of 
leadership for your members on this issue?
    Mr. Dennis. It has been featured in our magazine, websites, 
links to other websites, and that sort of thing. I am not 
exactly sure what you mean by a mandate. I am a little bit 
confused by that. I am sorry. We clearly have done several 
things on the communication side and plan to do more, but----
    Chairman Bennett. Yes. I am told NFIB members vote to put 
an issue on the top priority list or priority attention 
mandating what the staff will do and that has not yet happened.
    Mr. Dennis. Yes. No.
    Chairman Bennett. I am encouraging you to have that happen.
    Mr. Dennis. Thank you, yes. The liability issue has already 
been out.
    Chairman Bennett. OK.
    Mr. Dennis. And I would expect if that is on the voting 
side, yeah.
    Chairman Bennett. OK. Fine. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman. Harold, we actually 
had considerable difficulty getting other food processors here 
and I wonder if you can conjecture with me why that might be. 
Is there a lack of awareness of it, not just the dairy industry 
but generally vertically and horizontally in the food 
processing industry? What do you think the awareness is?
    Mr. Schild. I think probably the food processing industry, 
especially your smaller ones, are more manual and they do not 
recognize outside of their own daily operations the impact that 
it could have on them when it comes to customer suppliers. We 
feel that we are moving into becoming a little more 
sophisticated with our customers in electronic data transfer 
and so on, and I think our customers have probably been 
encouraging us. In fact, we are getting letters regularly now 
that demand that we acknowledge that we are compliant and or 
when we will be, and if that does not happen, then they 
threaten to go to another supplier for their cheese.
    So I think maybe some in the agricultural arena are not 
perhaps as connected electronically with some of their 
customers and may not be feeling the pinch. I think in Oregon 
especially we have many commodity producers. I believe only 
about 15 percent of our agricultural sales in Oregon are 
actually to the end user. And therefore being more commodity 
driven, they are not likely to be dealing with the end users 
that are really demanding this level of compliance.
    Senator Smith. Could a component of it be fear of being 
associated with bad news?
    Mr. Schild. Well, there is probably some of that.
    Senator Smith. Is legal liability part of it?
    Mr. Schild. I guess that has not bothered us.
    Senator Smith. Well, actually I think there is a 
competitive advantage to be marketed in some way to let your 
customers know you are Y2K compliant and you are on the bridge 
of the 21st century.
    Mr. Schild. Well, we are certainly working that way and we 
are confident that we will be ready. But we still have 
questions. In fact, we are preparing the same compliance 
letters with many of our suppliers to make sure they will be 
able to serve us after Year 2000. So it goes around.
    Senator Smith. I thank you for coming and for sharing with 
us and I hope that all of you will continue to do what you are 
doing. We appreciate it. Thank you, Mr. Chairman.
    Mr. Schild. Thank you.
    Chairman Bennett. Thank you very much. We appreciate your 
being here. I will make this comment following up on Senator 
Smith's comment. I have been in touch with some of the trade 
associations in the food industry and made it as courteously 
clear as I can that we will have representatives of the food 
industry testifying next year. We have the subpoena power on 
this committee. We have not had to use it up until now and I 
hope that the time never comes when we do, but one of the main 
concerns that the public has, particularly in some of the more 
alarmist websites with respect to Y2K, is whether or not there 
will be food on supermarket shelves. Many people are saying 
there will not be, and I have said to representatives of the 
food industry if you wish to allay this suspicion and convince 
people that food will, in fact, be on the shelves in 
supermarkets on January 2 or 3 and it will be freshly delivered 
food, you had better come before the committee in making your 
case. Your unwillingness to come and share information with us 
only feeds the people who are pushing the panic button.
    So we will have representatives of the food industry before 
us at hearings next year. Another reason, Mr. Schild, why we 
are grateful for your coming. You are willing to go whether 
others never dared to go before. [Laughter.]
    We are glad to have you here. Thank you, all.
    Mr. Rodrigue. Thank you, Mr. Chairman.
    Chairman Bennett. We will go now to the final panel. This 
panel is flying two missions. They represent big business. We 
have had the representatives of small business. Now we are 
going to hear from the representatives of big business. And at 
the same time they are all concentrated in the pharmaceutical 
industry. So we will be able to get the kind of sense of 
availability and Y2K compliance in that key industry as well as 
get a sense of what large companies are doing.
    I think it is fitting that we started out with Ms. West who 
gave us the very graphic and moving description of how 
important this industry is, and now we finish up with the 
pharmaceutical industry. I am sure you all heard her testimony 
and we look forward to learning how you intend to address the 
problems that she raised, at least from your part of this 
particular supply chain.
    We have with us Dr. Charles Popper, who is the chief 
information officer of Merck & Co.; Mr. Keith Mallonee, who is 
vice president of Information Technology at McKesson Corp.; Mr. 
Ronald J. Streck, who is the president and CEO of the National 
Druggists' Association; and Mr. Richard Carbray, who is the 
general manager of a small pharmacy, Pelton's Pharmacy an Home 
Health Centers.
    Let me make one other comment. Senator Dodd was involved in 
a fender bender on his way in this morning and while there is 
nothing dramatic about it, he has got a sore neck. He is trying 
to get a little bit of relief and that is the only reason he is 
not here. Senator Dodd is usually the most faithful of all 
members and please do not misinterpret his absence as any kind 
of lack of interest. His written statement will be included in 
the record.
    [The prepared statement of Senator Dodd follows:]
    Chairman Bennett. So I see you have seated yourselves 
differently from the way I have it listed. Let us go in the 
order that you are seated. We will start with you, Dr. Popper, 
and then Mr. Streck, Mr. Mallonee, and Mr. Carbray.

  STATEMENT OF DR. CHARLES POPPER, CHIEF INFORMATION OFFICER, 
                          MERCK & CO.

    Dr. Popper. Thank you, Senator Bennett. Good morning, Mr. 
Chairman and members of the committee. My name is Charles 
Popper and I am Vice President of Corporate Computer Resources 
at Merck. In that position I serve as the chief information 
officer of Merck. Merck is a global, research-driven 
pharmaceutical company that discovers, develops, manufacturers 
and markets a broad range of medicines. Thank you for inviting 
me to participate in today's hearing. I applaud this 
committee's efforts in both investigating and publicizing the 
potential effect of the Y2K computer problem.
    I would like to discuss what my company, Merck, is doing to 
deal with the problem. I would also like to provide a broader 
context that you may find useful. Our task at Merck has been to 
ensure that all computer programs that are in use anywhere 
within Merck's worldwide operations will operate correctly 
throughout the transition into the next millennium, but our 
objective all along has been a more important one consistent 
with Merck's company mission. As George W. Merck stated many 
years ago, we try never to forget that medicine is for people, 
people just like Ms. West, I might add.
    Merck is solving its Y2K problem in order to ensure that we 
can continue to discover, develop, manufacture and distribute 
medicines that treat important human diseases. Our paramount 
goal is to ensure the continuity of the supply of medicines to 
our patients. At Merck we are doing so by following a simple 
strategy.
    First, we have inventoried all computer systems, 
applications and devices with embedded microprocessors. Second, 
we have assessed each of these systems to determine whether it 
includes any date processing and whether its correct operation 
is of serious concern to our business. As an example of a 
system where we are less concerned about a possible Y2K bug, 
consider a program that reports monthly sales and organizes the 
columns of the report in chronological order. While we prefer 
to have the report continue to show the most recent results 
from right to left, if the Y2k were to merely cause the columns 
to print in a different order, this would only be a minor 
concern to us. We are deferring the repair of that kind of bug 
to the final stages of the Y2K project.
    Third, we have developed a compliance strategy for each 
system. Fourth, we are executing that strategy for the many 
thousands of systems in our inventory. This is obviously a 
daunting task because of its magnitude and its geographic 
diversity. We have to deal with systems in the many hundreds of 
Merck locations worldwide.
    The fifth and final step is to thoroughly test all of our 
systems. Our attitude is to trust no one but ourselves. If a 
system vendor tells us that their application is Y2K compliant, 
we will insist on testing it ourselves or at least auditing in 
detail the test results provided by the vendor. We have already 
found instances of applications certified compliant by the 
vendor that, in fact, did not pass our test initially.
    As you can imagine, Merck's Y2K project is a very 
significant effort. We began reasonably early in 1996. There 
are now in excess of several hundred people involved. We are 
spending many tens of millions of dollars to plan, execute, and 
manage this work. Our goal has been to achieve Y2K compliance 
by the end of this year, thus allowing all of a 1999 for 
dealing with the inevitable glitches and inconsistencies among 
systems.
    However, Mr. Chairman, fixing our internal systems is only 
part of the problem. Merck just as any global company works 
with many thousands of business partners, suppliers, customers, 
and government agencies. Our ability to continue our company's 
operations successfully in January 2000 depends just as much as 
on the Y2K programs of these companies and agencies as on our 
own internal systems. Hence, we have organized two other major 
sets of activity.
    First, each business area is examining its business 
partners to assess its Y2K risk. If the proper operation of 
that entity's systems is essential for Merck's operations, we 
are both working with that entity to better understand its Y2K 
remediation plans and also developing internal contingency 
plans just in case that entity that fails to achieve Y2K 
compliance on time.
    Second, we are working with the Vital Signs 2000 Project, 
which is a health system-wide effort organized by the Odin 
Group to gather important information about the Y2K compliance 
of the entire health care industry in which we participate. The 
Vital Signs 2000 team has developed a survey instrument for the 
five groups of entities comprising the health care industry: 
payers, providers, suppliers, distributors and government 
agencies. By understanding the cross-industry processes and 
their Y2K vulnerabilities, we together with the rest of the 
industry can develop the detailed contingency plans that can 
assure the continuity of high quality patient care.
    What about the broader American pharmaceutical industry? 
While I obviously cannot testify about the detailed plans and 
projects of Merck's competitors, I have had the opportunity to 
discuss the Y2K problem with my colleagues in other 
pharmaceutical companies. These companies have all followed a 
methodology similar to Merck's and are applying the level of 
resources needed to deal with the problem. They have also 
recognized the broader issues of the readiness of business 
partners and are developing appropriate contingency plans.
    Let me close with some broader context. I read periodically 
that companies and agencies are now just waking up to the 
severity of the problem--we have heard about that this morning. 
Worse, I still read and hear about entities that still do not 
believe that there is a serious problem. They may be right in 
their local situation but only an organized testing program 
will allow them to be sure. So I do worry about what will 
happen as the clock strikes midnight on December 31, 1999.
    Again, I thank the committee for the opportunity to be here 
today and look forward to your questions.
    [The prepared statement of Dr. Popper can be found in the 
appendix.]
    Chairman Bennett. Thank you very much. Mr. Streck.

  STATEMENT OF RONALD J. STRECK, PRESIDENT AND CEO, NATIONAL 
                WHOLESALE DRUGGISTS' ASSOCIATION

    Mr. Streck. Thank you, Chairman Bennett. The National 
Wholesale Druggists' Association, or NWDA, appreciates the 
invitation to testify today before the committee about the 
applications of Y2K. And I ask my written statement be entered 
into the record.
    Chairman Bennett. Without objection.
    Mr. Streck. NWDA is the national trade association 
representing distributors of pharmaceutical and related health 
care products. Our active member companies operate 215 
distribution centers throughout the country that service every 
State, the District of Columbia, and U.S. territories. NWDA's 
active members provide distribution services to over 130,000 
pharmacy outlets in the country including 21,000 independent 
pharmacies, 18,000 chain pharmacies, 7,500 hospital pharmacies, 
220 mail order pharmacies, 7,000 food stores, 5,000 mass 
merchandisers, 4,000 long-term care and home health care 
facilities, 56,000 clinics and 1,000 HMO's.
    Our most recent data indicates NWDA member wholesale 
distributors on average obtain products from over 750 
manufacturer suppliers. Typically, a single wholesale 
distribution center stocks an average of 24,000 items and will 
process over 13,000 order lines per day. Virtually, all orders 
placed by pharmacy customers to their wholesale distributors 
are transmitted electronically and more and more electronic 
picking devices are used to fill these orders.
    To service an increasingly demanding and integrated health 
care market, practically all wholesalers provide daily 
deliveries with a growing number of wholesalers providing twice 
a day deliveries to their customers. However, today's 
wholesalers do so much more than just deliver product in a 
timely manner. Some of the value added services NWDA members 
provide to their customers include marketing and advertising 
support, product sourcing programs and special handling 
services.
    Other services provided that are especially relevant to the 
Y2K discussion are the computer and information programs that 
include third party claims processing and receivable services, 
inventory management, pharmacy computer systems for dispensing 
and care, and point of sale systems.
    Wholesalers have been innovators and leaders in information 
technology. They continue to use information technology to 
integrate suppliers and customers. These programs and systems 
rely on automation, connectivity, information systems, 
electronic linkages, and network building that allow for the 
prompt and efficient delivery of lifesaving health care 
products.
    Our members have been methodologically working to ensure 
their systems and those of their customers are compliant. You 
will hear more about exactly what wholesalers have been doing 
from Keith Mallonee of the McKesson Corp. in just a few 
minutes. Based on a number of suppliers, customers and orders, 
it does not take long to speculate on what would happen if 
there were an interruption of an electronic transfer of 
information. Many of these transmissions are reliant on 
commercial and government telecommunication networks, systems 
over which the pharmaceutical industry has no control.
    NWDA and its members need to know that these vital 
communication networks are Y2K compliant and ready to support 
the delivery of health care services to the patient. This 
constant electronic transfer of information is the reason I am 
here today. As we have developed our association's web page, 
NWDA has devoted a separate section just for dissemination of 
general Y2K information. We endorse the notion of common 
solutions for common process problems and we are ready to move 
ahead with an industry clearinghouse for Y2K technical fixes 
that would allow drug wholesale trading partners to freely 
share such technical information.
    We have been reluctant to proceed with this project due to 
liability and antitrust concerns. However, with the passage of 
the Year 2000 Information Readiness Disclosure Act, S. 2392, we 
understand that we will now be able to move ahead. We commend 
Congress for its approval of this important legislation and 
urge the president to move swiftly to sign the bill into law.
    We are greatly concerned that Federal, State, and local 
governments are quickly running out of time to adequately test 
and correct all public service and infrastructure systems. It 
is disturbing to read reports from Congress and the GAO 
indicating that there are serious concerns, that many Federal 
agencies will just not be ready. The July 1998 report by the 
GAO entitled Year 2000 Computing Crisis concluded that quote 
``federal agencies and state governments suggest that the full 
extent of the managerial and operational challenges posed by 
the heavy reliance on others for data needed to sustain 
government activity is not yet known.''
    Congressman Steve Horn in his role as chairman of the House 
Subcommittee on Government Management, Information and 
Technology, has issued another report card on Federal agencies 
with HCFA once again receiving an F grade. We fear that Federal 
and State government agencies will not survive the changeover 
to Year 2000 without interruptions in health care 
reimbursements. Government reimbursement is only one area that 
could disrupt the flow of life sustaining prescription drugs to 
patients. Even if all parts of the prescription drug supply 
chain are compliant and ready, if there are failures in other 
links, it would be irrelevant that we are ready. We need 
assurances that government agencies will be Y2K ready so they 
can seamlessly carry out their important functions.
    Wholesalers are making contingency plans to make sure that 
there is not a disruption in the availability of product. I 
want to emphasize that wholesalers are just one link in the 
chain. If the government agencies that play such a vital role 
in the health care system are not going to be Y2K compliant, 
contingency plans must quickly be completed and this 
information passed on to the public. How a business or industry 
develops its own backup plan depends on what government 
services will be available.
    NWDA and our member companies stand ready to work with 
government at all levels to address these issues to ensure that 
lifesaving medicines continue to get to those who need them 
when they need them. Time is of the essence, and I thank the 
committee for holding this hearing today to address this 
momentous issue.
    [The prepared statement of Mr. Streck can be found in the 
appendix.]
    Chairman Bennett. Thank you. The buzzer has just gone off. 
There is another vote on the Senate floor. This time I think I 
will go immediately and come back instead of run the clock the 
other way. Mr. Mallonee, I apologize for mispronouncing your 
name. We will hear from you as soon as we come back. The 
committee will stand in recess.
    [Recess.]
    Chairman Bennett. The committee will come to order. Mr. 
Mallonee, thank you for your patience. We will now hear from 
you.

     STATEMENT OF KEITH MALLONEE, VICE PRESIDENT, SYSTEMS 
                  DEVELOPMENT, McKESSON CORP.

    Mr. Mallonee. Mr. Chairman, thank you for inviting McKesson 
to participate today. I know you are all busy so I will keep my 
remarks to about 3 minutes. My name is Keith Mallonee. I am 
vice president of Systems Development at McKesson. McKesson is 
the largest distributor of pharmaceuticals, health care 
products, medical and surgical supplies in the United States 
with over $20 billion in annual revenue. We serve customers in 
all 50 States through a network, a national network of 
distribution centers.
    Our customers include independent pharmacies, hospitals, 
drug chain stores, food stores, clinics, nursing homes. We view 
the Year 2000 as a critical business issue at McKesson. We are 
in the health care industry. We understand the importance in 
ensuring that a critical and potentially lifesaving product 
gets into the hands of our customers on time. We are also 
heavily involved in electronic commerce. On a daily basis, we 
receive over 60,000 orders from our customers. We will fill 
over a million and a half order lines from our distribution 
centers. Over 99 percent of those orders come into us 
electronically.
    So we are approaching Year 2000 at McKesson like we 
approach any major business issue or initiative and that is 
with a dedicated team of personnel, resources, dollars, and 
senior management involvement and oversight. We began the 
project, the Year 2000 product at McKesson, in 1996. We 
established a central Year 2000 project office for all of 
McKesson, which I head. It is my full-time job; it is my only 
job. It has been that way for 2 years and it will be that way 
for the next 18 months at least.
    And we did the right steps, as you have heard before. We 
did the assessment. We inventoried our systems. We identified 
our key business processes. We developed detailed project 
plans, and then we sort of divided the Year 2000 project into 
what I call manageable chunks of work. We now have over 30 
active Year 2000 project teams at McKesson. The majority of our 
systems have already been made compliant and we are in the 
final stages of taking care of the remaining software and 
hardware.
    We intend to devote next year to intensive integrated 
testing, and that testing will include customers and suppliers. 
In addition, we have instituted a very rigorous project control 
methodology at McKesson for Year 2000 with regular review 
meetings with senior management that goes right up to the board 
of directors. While we are pleased with the progress that 
McKesson is making, we understand we are heavily interdependent 
with other industries, industries such as telecommunications, 
electric utilities, and transportation. We do need for them to 
be ready as well so that we can get product to our customer.
    However, we are developing contingency plans. We are 
developing plans that will ensure that we can get product to 
our customers in the event that there is a disruption in 
business due to Year 2000. McKesson has been in business since 
1833. During that time, we have faced numerous challenges in 
getting product to our customer. Hurricane Georges is a recent 
example of that situation for us. One of our distribution 
centers was closed because of the hurricane. But we have in 
place a backup system among our distribution centers. So we 
were able to reroute those orders from that distribution center 
to other distribution centers to get the product to our 
customers. That is the sort of contingency planning we will 
leverage as we go forward.
    Year 2000 is a serious issue and it needs to be taken 
seriously and McKesson does. We think we know what we need to 
do. We have got the steps in place necessary to get it done and 
to achieve what we consider our primary objective in all this 
which really is no impact, no disruption to the customer. I 
would like to thank again the committee for inviting McKesson 
to participate in having discussions on this vital issue. Thank 
you.
    [The prepared statement of Mr. Mallonee can be found in the 
appendix.]
    Chairman Bennett. Thank you very much. Mr. Carbray, you get 
to be the cleanup hitter.

STATEMENT OF RICHARD T. CARBRAY, Jr., GENERAL MANAGER, PELTON'S 
                PHARMACY AND HOME HEALTH CENTERS

    Mr. Carbray. I would like to commend whoever put this 
lineup together because as you can see you have got a 
manufacturer down to wholesalers to the end product, the 
dispensers of the medication. Good morning, Mr. Chairman. My 
name is Rick Carbray and I am representing actually three 
groups this morning. I am representing the American 
Pharmaceutical Association as well as the Connecticut 
Pharmacists Association and individually as a small business in 
Connecticut of three pharmacies in the central part of 
Connecticut.
    And basically what I would like to talk about today is how 
it affects us pharmacists at the local level. You have heard 
some comments certainly from the manufacturers. McKesson is a 
wholesaler for our company, a very fine wholesaler, and we have 
done some due diligence with a lot of our companies to ask them 
if they are ready for this problem, and McKesson has responded 
very favorably. So we feel fairly confident and in talking to 
Ms. West regarding her testimony and how this might affect us 
and her as far as delivery of medications. I feel more 
confident today now talking strictly to McKesson and to the 
NDWA and to Merck that we do have in the pharmaceutical 
industry many of these situations readily taken care of.
    What I do see, though, as far as a problem for some of us 
in the pharmacy industry is some of our systems where we in-
house have already worked to get this compliance done. There 
are some systems, not necessarily related to the dispensing of 
a prescription which is obviously our most important function, 
those systems I can honestly say to you right now from our 
vendors, they are saying that they will be compliant. We have 
checked our pharmacy system as of last month and we were able 
to fill a prescription dated February 1, 1999 with a refill 
date of 2/1/00. So that prescription would have gone through 
that computer so we feel confident there.
    We also are very involved in the whole home health area and 
obviously have concerns with those computers because now we 
also are tracking besides record keeping for pharmacy patients 
and medications and drug interactions, we are also tracking 
medical equipment and trying to do inventory control and 
billing. So we are looking to get compliance from those 
computer vendors also. An interesting situation that has just 
developed for us--it is more from a business standpoint, maybe 
not quite as much from the pharmaceutical standpoint--is our 
point of sale computer for our registers.
    If we fill the prescriptions and we cannot collect for 
those prescriptions, obviously we will not be in business very 
long. Currently we have a vendor, a software vendor, who has 
provided us with a point of sale system who is going out of 
business, and it is interesting to note that they are going out 
of business because of the Year 2000 problem. They have decided 
that it is too cost prohibitive to address that problem as a 
company for their customers and they are going to get out of 
that part of the business. So we have roughly a $100,000 piece 
of equipment that is going to be relegated to some hardware 
very shortly.
    We are in the process of working with other software 
vendors to hopefully assure us that we can upgrade that system 
to the tune of probably $40 to $50,000 in expense to become 
compliant. So again the pressures of a small business trying to 
stay viable and having to spend that kind of money.
    In summary, again I feel fairly confident in the 
pharmaceutical end. Our big brothers have come to the table and 
I am very confident that we will continue to be able to deliver 
the products. If I can just comment, Ms. West and I talked 
about having medication available. A suggestion possibly to 
avoid some of the over stockpiling on a huge basis which I 
could see happening if a scare like this were to come out, 
pharmacists have generally been able to take care of individual 
clients with extra amounts of medication at our expense 
inventorying those medications and keeping them on hand to 
ensure that those patients that critically need lifesaving 
medication can have them. So as a general rule, I do not think 
we should go towards across-the-board overstocking or 
oversupplying but try to focus on those critical areas and help 
patients like Ms. West have that medication available. And with 
this group here, I think you have a group that is committed to 
doing that. Thank you.
    [The prepared statement of Mr. Carbray can be found in the 
appendix.]
    Chairman Bennett. So if I understand what you are saying 
about the overstocking, you are saying that at the pharmacy 
level, you identify critical substances and have an adequate 
supply of that instead of having to have each individual 
patient have an unusual supply?
    Mr. Carbray. Correct. We can identify groups of patients 
through our system and whether it be an AIDS patient or be a 
kidney transplant patient to make sure that we have plenty of 
supply on hand for that particular group. If it happens to be a 
kidney transplant patient as opposed to--and it can be specific 
to a patient also certainly. You may only have one kidney 
transplant patient that needs that medication so we would 
ensure that that medication is in ample supply although to be 
honest with you in most cases our wholesalers have an adequate 
supply.
    I think what we are trying to avoid is a scare that forces 
the supply to change drastically and that people get an excess 
supply who do not necessarily need that excess supply and I 
think that could happen.
    Chairman Bennett. Dr. Popper, do you want to comment on 
this issue? I know pharmaceutical companies are concerned about 
the stockpiling challenge. One of the reasons for this hearing 
is to deal with what makes the most sense for consumers like 
Ms. West.
    Dr. Popper. Yes, I concur with the last comment that just 
stockpiling out of almost a panic situation is likely to create 
more harm than good, that it really distorts our ability to 
distribute product. Our position at Merck, actually even 
upstream of us, the companies that we get our raw materials 
from, the supply chain is very well engineered today and it is 
based on a certain expectation in terms of what supply is 
necessary in the marketplace and that ripples all the way back 
through the chain. If supply were to double or triple in the 
short-term, that kind of disruption to the supply chain could 
really, as I say, do more harm than good.
    What I think we need to do is study the problem a little 
more. As I mentioned in the testimony, the Vital Signs 2000 
survey will give us some good data on where we may see 
sensitivities in the supply chain and where we may see some 
risk. And I think on more of a rifle shot approach, we can 
understand where we want to take steps. So whether it is in 
certain cases at the local pharmacy, in certain cases at the 
distributors, in certain cases at our warehouses, we can make 
sure that we have the situation covered, but rather than take 
an across-the-board solution, which could be counterproductive, 
I think we need to work from facts which we have to gather over 
these next couple of months and then work out a plan that may 
entail some government help to make sure that we can get the 
cooperation together.
    This now moves us perhaps away from the standard 
marketplace forces and I do not know where that may lead quite 
frankly. I just want to make sure that we do is based on a real 
analysis of data as opposed to just fear and panic.
    Chairman Bennett. One of the functions of this committee is 
to see to it that accurate information about all aspects of Y2K 
replaces some of the myths that are out there and the myths go 
all the way from the article in Time magazine that was 
headlined ``Apocalypse Not'' that basically said there is no 
problem to the folks that are digging up their backyards and 
putting in propane tanks because they assume they will not have 
any power for 5 years. And the best way to deal with both of 
those extremes of misinformation is hearings like this and 
witnesses like you that can give us that detail.
    Mr. Popper or Dr. Popper, Merck & Co. is probably about as 
international as an American company is going to get, both in 
terms of your supply chain coming in and your distribution 
chain going out. I assume you sat here and listened to the 
Gartner Group presentation. Do you have any reactions or 
comments on Gartner's view of what is going to happen around 
the world?
    Dr. Popper. From a Merck perspective, we continually review 
the risks on a worldwide basis. In fact, last week I spent 2 
days with my senior staff devoted to yet another exhaustive 
review of all of our Y2K programs including the business 
continuity planning. And we have pushed down into each of the 
geographies beyond the United States, Europe, Mideast, Africa, 
Far East, Asia, and each of the countries is engaging in a 
similar activity.
    So we are looking at the supply chain within each country 
and at our customer base in each country, the distribution 
chains, and doing what we need to in terms of contingency 
planning. So from a strictly health care perspective, we think 
we are engaged in the right level of planning to deal with the 
problem.
    What I cannot really comment on is whether there will be 
systematic failures in some countries of the infrastructure. 
Our planning assumption is that the more advanced countries 
that are more heavily computerized are typically further along 
in the planning stage. I think Gartner had some countries that 
I want to go back and double-check on because it sort of goes 
counter to that assumption, and then some of the countries 
where they are less developed there is actually less reliance 
on that infrastructure and that I think mitigates the risk. So 
that has been our approach to it and as I say, we will look at 
their data very carefully and make sure that there are no 
surprises there that we have to worry about.
    Chairman Bennett. Well, let me put on my CEO hat that I 
wore and say, all right, we are sitting in my corner office now 
and we are 6 months away from New Year's Eve in 1999. I am 
saying to you, OK, doctor, it looks like Country X--I will not 
fill in the name here lest anybody get excited--is going to 
have insoluble Y2K problems. You have been developing plans and 
I assume that means we start buying whatever someplace else. Is 
that, in fact, the kind of conversation you are going to have 
with your CEO? If it is, do you have a list of someplace else?
    Dr. Popper. On the supply side, we have that covered on a 
worldwide basis. We have looked at every single supplier. We 
have categorized them in terms of criticality of the supply, 
uniqueness of the supply, and are dealing with that. Most of 
our production is focused in a small number of countries. We 
have 30 plants worldwide including I think about 8 in the 
United States. So it is on the order of 20, 25 plants outside 
of the United States and those are situated in places where we 
are pretty confident that the infrastructure will survive and 
we will not have any problem with that. So I think the bigger 
risk in the smaller countries is on our ability to supply 
downstream and the ability to distribute through the network 
then.
    Chairman Bennett. I see. You are concerned more about your 
customer chain that your supply chain?
    Dr. Popper. Exactly.
    Chairman Bennett. Well, I am coming back to the theme that 
I mentioned when I was talking to the small business group. The 
more this unfolds, the more convinced I am that we are going to 
see a flight to quality with corresponding dislocations on the 
part of marginal producers, marginal companies, marginal 
countries. Every one of these hearings teaches me something. I 
have now sat through I do not know how many with the 
combination in this committee and the subcommittee that I chair 
on banking for financial services and technology. I guess we 
are approaching 20 hearings total; are we not? 18. All right. 
Well, in Washington-speak, that is 20. And I learn something 
from each one.
    Sometimes I am reassured by what I learn. There are some 
things we have heard today that are quite reassuring. Sometimes 
I am more frightened by what I learn and there are some things 
we have learned today that are frightening. But I recently have 
come to the conclusion that as a result of Y2K, we are going to 
see significant shifts in where people go for materials, where 
people go for markets, and it will produce some very 
challenging social problems all over the world. Then those 
countries and companies that survive and thrive as a result of 
the long-range planning that they have done will be called upon 
to provide aid and assistance in those parts of the world where 
challenges exist. I think the social impact of this is beyond 
anything we had previously thought it might be.

                            Closing Remarks

    I would like to thank today's witnesses for their valuable 
contribution to our growing understanding of Year 2000 issues.
    Let me take just a moment before we close to quickly 
summarize the committee's activities this session. In the 6 
months of our existence, we have accomplished a great deal. The 
committee has held nine hearings on critical infrastructure and 
industry sectors including energy utilities, health care, 
telecommunications, transportation, financial institutions, 
general government, and today--general business. And against 
impossible odds, we also managed a bi-partisan effort that 
passed the Year 2000 Information Disclosure Act (S. 2392). In 
addition, our CRASH protection legislation (S. 1518) forced the 
SEC to require meaningful Y2K corporate disclosure to 
shareholders. This disclosure will help maintain faith in our 
markets, and ensure the availability of accurate Y2K 
information from publicly traded companies.
    Raising awareness, highlighting potential Y2K problems and 
prompting action on Y2K have been of central concern to the 
committee. We have maintained a bipartisan approach to the 
committee's activities, and worked closely with the President's 
Council on Year 2000 Conversion, as well as numerous industry 
groups. All of us have a common goal--to minimize the impact of 
this potentially devastating problem.
    While awareness of the Year 2000 problem is growing, we 
still have much work to do. Our research indicates that many 
organizations critical to our safety and well being are not 
fully engaged in solving the problem. For example, over 90 
percent of the doctor's offices and 50 percent of the small and 
medium sized businesses have yet to address the problem. Like 
ostriches, they are burying their heads in the sand--unwilling 
to believe that the problem is real, or content to think that 
someone else will solve it. This complacency is very dangerous. 
While larger firms have to some extent grasped how a Y2K 
failure could severely impact their future, smaller firms seem 
to be more focused on their immediate problems.
    The findings of our committee do not just indicate a 
division between small and large organizations. First, nearly 
all affected industries and organizations started too late. As 
a result, most organizations must exercise triage--focusing on 
what is critical to sustain the life of the enterprise as 
opposed to finding long-term solutions. Second, there are still 
no overall assessments of infrastructure or industry sectors. 
Consequently, we still cannot answer the fundamental questions 
that everyone is asking--How bad will it be? Which systems are 
most at risk? And, what should I do personally to be prepared? 
Third, this is a global problem. That means that any business, 
government agency, or other organization that has international 
operations must pay attention to the affects of Y2K in other 
countries. If the United States is the leader in addressing the 
Y2K problem, and the situation is as gloomy as it is here, then 
the prospects for the rest of the world are positively 
frightening. Fourth, if it becomes increasingly evident next 
year that we cannot finish the job, contingency planning will 
become even more criticalessential. Finally, the fear of legal 
liability, while it has stirred some to action, has discouraged 
organizations from openly sharing information. As a result, 
those trying to address the problem have found themselves 
inventing their version of the wheel instead of collaborating 
with their industry counterparts.
    Just last Thursday the Congress passed the Year 2000 
Information Disclosure Act. Having received the 
administration's proposal with only 25 legislative days 
remaining in this Congress, there were those that doubted our 
ability to pass this bill. It was a pleasure to prove them 
wrong! We are convinced that the Year 2000 Information 
Disclosure Act will encourage the exchange of Y2K information 
and, thus, give organizations invaluable access to information 
that they would not otherwise have had. This information should 
save companies precious time in their Y2K remediation efforts, 
and greatly aid those companies who are grossly behind on their 
Y2K planning.
    While we are out of session and back in our home States, we 
will continue to work closely with our staff investigating 
potential Year 2000 problems, pushing for assessments of our 
critical infrastructures and researching the implications of 
international Y2K failures. I look with guarded optimism toward 
1999. We all must be relentless in our pursuit of the Y2K bug. 
We end this congressional session hoping for the best, but 
preparing for the worst.
    Thank you all very much. Again, I apologize for the 
somewhat disjointed fashion of this particular hearing, but it 
has been very useful and I am particularly grateful to those of 
you who are willing to come forward and share your information. 
The committee is adjourned.
    [Whereupon, at 12:38 p.m., the committee adjourned.]
                            A P P E N D I X

                                ------                                


              ALPHABETICAL LISTING AND MATERIAL SUBMITTED

                                 ______
                                 

            Prepared Statement of Chairman Robert F. Bennett

    Today marks the Committee's ninth and final hearing this year. In 
all of our hearings we have strived to increase awareness, disseminate 
reliable preparedness information, and help facilitate solutions. This 
Committee has spent the last 6 months trying to raise public awareness 
of this oncoming challenge. Despite our best efforts, recent polls tell 
us that only 30 percent of our fellow Americans have heard about the 
year 2000 problem. Only 450 days stand between us and the new century. 
Our work--the work of everyone participating in this hearing today--
becomes more urgent with each passing day.
    General business--the subject of today's hearing--is a term that 
encompasses the spectrum of American commerce ranging from over 5 
million small firms at one end of the spectrum to global corporations 
at the other end. All of these companies face Year 2000 challenges--
from the PC's and networks automating their offices to their dependence 
on credit card transactions, just-in-time inventory supply systems, 
Electronic Data Interchange (EDI) transactions, and other technologies. 
One of today's witnesses warns that over 700,000 small firms are at 
risk of either closing their doors or being severely crippled by Y2K 
problems.
    Global corporations face complex problems because of their 
dependence on thousands of suppliers, distributors, and customers, both 
domestically and internationally. They must be concerned not only about 
the Y2K readiness of these business partners, but the infrastructure of 
the countries where they reside. Today, the Gartner Group is releasing 
some alarming new research data which shows that 66 percent of the 
companies in critical industries such as healthcare and food processing 
will likely experience at least one mission critical systems failure. 
In addition, 50 percent of the companies in critical trading partner 
countries such as Germany, Japan, Saudi Arabia, and Venezuela will 
experience similar failures. If these predictions are correct, Y2K 
could deliver a devastating blow to an already troubled global economy.
    I would like to relay an example that shows how even the smallest 
of businesses are completely reliant on technology, and, thus, highly 
susceptible to Y2K risks. Recently, an acquaintance cracked his car 
windshield. He replaced it by calling his insurance company whose 
national computer directory located a local glass installer for him. 
This two-employee business received an electronic purchase order from 
the insurance company authorizing the replacement of the windshield. 
The glass installer in turn compared the year and model number of the 
car to his database in order to place the appropriate EDI purchase with 
a large supplier of windshields. When the windshield was installed on 
site at my friend's home, less than 24 hours later, my friend marveled 
at the efficiency of the process. The small businessman replied that 
his company, like most others is striving to improve service and reduce 
costs.
    For exactly that reason, small businesses, like the one in this 
example, depend heavily on EDI to eliminate paperwork and reduce 
transaction time. Electronic purchase orders, inventory control and 
payments processing are greatly facilitated by EDI. This story also 
highlights the critical role that just-in-time inventories play in many 
small businesses. Unlike their large, corporate counterparts, small 
businesses cannot afford to store and maintain the thousands of non-
standard parts and supplies. While EDI makes just-in-time inventories 
possible, the use of this and other technologies heightens our concern 
about the impact of Y2K, and, thus, the viability of America's 
businesses. One recent study estimates that over 600,000 firms are at 
risk of either close their doors or be severely crippled by Y2K 
problems.
    This micro example of modern commerce demonstrates not only the 
central role that technology plays in today's commercial world, but 
also the mutual dependency of large and small businesses. To small 
businesses, we offer this caution from the editor of CIO magazine, a 
witness at our recent Telecommunications hearing. He stated, ``Large 
companies are starting to perform Y2K triage work with their partners 
connected in massive EDI or other telecommunications networks where 
they are abandoning entirely those companies not essential to their 
critical business processes that may not be Y2K compliant.'' This is a 
real and present danger that small firms must address. When the first 
EDI transaction is placed on January 3rd of the year 2000 the small 
business on the receiving end may only have one opportunity to respond. 
If it fails to do so, the competitive environment will quickly force 
that small firm out of business.
    As we examine each industry in detail we are discovering that 
inter-connectivity among businesses is one of the most difficult Y2K 
issues to address. You can be ready for the Year 2000, but your key 
business partners may not. In addition, any break in the electronic 
link between you and your partners both here or abroad could be equally 
disruptive. Companies must assess these issues and find alternative 
partners if they are to remain viable after the Year 2000.
    The frustration that Vice Chairman Dodd and I share along with the 
other members of this Special Committee, is that many of those who are 
dragging their feet on the Y2K issue defend their lack of activity on 
the perception that we lack adequate information to justify serious 
action. Perhaps 6 months ago we were flying blindly into the year 2000, 
but thanks to the many publicly-spirited Americans who have testified 
before this Committee, patterns are emerging. We do not need absolute, 
100 percent certain evidence for us to recognize that we have a serious 
Y2K problem any more than a citizen of Key West or Mobile needed the 
National Weather Service to tell them that they were in the middle of a 
hurricane. The Weather Service did, however, provide an absolutely 
invaluable function by warning of the oncoming danger. Like the Weather 
Service, this Committee cannot provide an absolute prediction of the 
future. We cannot know what will happen on January 1, 2000. We can, 
however, provide a real and useful warning for individuals and 
industries, and that, after all, is one of the most important aspects 
of our work.
    Our hearing today is intended to be a catch-all for general 
business Y2K issues--from small businesses to global corporations. We 
have a panel to represent small business concerns, and a pharmaceutical 
industry panel to represent articulate the Y2K problems facing global 
corporations. We welcome today's witnesses and thank them in advance 
for their contribution to this extremely important issue.
                               __________

             Prepared Statement of Richard T. Carbray, Jr.

    Good morning. Mr. Chairman and Members of the Committee, thank you 
for the opportunity to present the views of pharmacist caregivers 
across the country on the impact of the ``Year Two Thousand'' (Y2K) 
problem on the pharmacy profession and the patients we serve. I am 
Richard Carbray, a pharmacist, and I am speaking today on behalf of the 
American Pharmaceutical Association (APhA), the national professional 
society of pharmacists, and the Connecticut Pharmacists Association. 
This topic is important to me and my profession for one central reason: 
perhaps more than any other part of the health care industry, pharmacy 
is the most reliant on computers for nearly every component of day-to-
day activity.
    Pharmacists rely on computer technology to maintain patient drug 
therapy records, identify potential drug interactions, and provide 
clinical information about medication use. Computers are used to print 
out relevant patient information about prescription medications at the 
time of dispensing in community pharmacies, used to track drug therapy 
within the hospital and long-term care facility, and to submit claims 
for third party payment. Nearly every one of the more than two billion 
prescriptions dispensed in the United States is prepared with the 
assistance and support of a computer. Pharmacists will directly feel 
the impact of any failure in these systems due to the Y2K problem. The 
issue this Committee addresses today will have some relevance for 
nearly every one of the 118,000 pharmacies located in communities, 
hospitals, and home health clinics in the United States, including more 
than 40,000 retail pharmacies.
                     use of computers in pharmacies
    Pharmacy is likely the most computerized segment of the health care 
industry, with an estimated 99 percent of prescriptions dispensed using 
computers. Let me quantify this for you: in 1995, prescriptions filled 
in retail, long term care and mail service pharmacies totaled more than 
2.3 billion. This does not include prescription medications dispensed 
in hospitals and other settings. With advancements in medication 
therapy and increasing reliance on these agents, these numbers will 
only increase and increase the use of computers in these settings. Most 
pharmacies use computers for virtually every aspect of day-to-day 
operation. For example, in any given pharmacy there may be different 
systems to track sales and inventory and maintain patient profiles, 
check for drug interactions, track prescription refills and maintain 
patient records.
    In addition to this use within the pharmacy, on-line, real-time 
transmission of claims for third-party coverage of prescription drugs 
is a normal component of pharmacy practice. The claim for third party 
coverage of the prescription is transmitted to a claims processor, such 
as a State Medicaid agency, for on-line, real-time review of the 
prescription to confirm eligibility of the patient for coverage and 
conduct some drug utilization review activities. In 1996, more than one 
billion prescription claims were processed in this manner, supported by 
the industry telecommunication standard as developed by the National 
Council for Prescription Drug Programs.
                  challenges with year 2000 compliance
    Like many other health professions, pharmacists rely on outside 
software vendors to develop and maintain the various operating systems 
used by the pharmacy. Many vendors have indicated that their products 
are Year 2000 compliant, but what assurance does the pharmacist have? 
This uncertainty, likely typical of many approaching this daunting 
problem, places the pharmacist in a somewhat vulnerable position--he or 
she must trust that the software is compliant, but will not know for 
sure until the first prescription is entered that could trigger a 
problem. An error in the in-store system or in the third-party 
processing system will likely stop progress on preparing that patient's 
medication, and likely cause delays for other patients. At a minimum, 
concern about these problems and dealing with them as they arise will 
distract these health care professionals from their core function--
working with patients to make the best use of their medications--to 
focus on challenges with the systems designed to support that practice.
    The problems for pharmacy will not wait for January 1, 2000, 
either. Many pharmacists will confirm or discover their challenges with 
Y2K compliance in early January of 1999. Let me explain. Most 
prescriptions for chronic medications, like a drug to control high 
cholesterol or blood pressure, are valid for one year. In entering a 
new prescription into the pharmacy operating system, an expiration date 
for the prescription is also entered. When Mrs. Smith brings in her 
prescriptions on Saturday January 2, 1999, I will know pretty quickly 
if the system is compliant. If it is not, the expiration date of 
January 2, 2000, will cause an error and reject the prescription.
    This is not, however, the first time the profession of pharmacy has 
faced date-related challenges. In the early stages of computerization 
end expansion of clinical systems to support pharmacy practice, the 
inclusion of patient birth dates provided necessary information to 
confirm patient identity and focus clinical information provided to the 
pharmacist. Communicating the birth date of patients born in the late 
1800's created a preview of the expiration date problem we expect. 
Obviously, a birth year reflected by ``87'' and interpreted as a birth 
year of 1987 will yield different clinical recommendations than the 
more accurate birth year: 1887. This problem was addressed at that time 
for the birth year, and we hope all Y2K problems will also be 
addressed. Pharmacists may have varying comfort levels that the systems 
have dealt with the problem before, but are concerned about the impact 
on other data fields, such as the expiration date.
                       external computer systems
    Beyond the operating systems within a pharmacy, pharmacists must 
also rely on the compliance efforts of a number of systems involved in 
processing claims and third party payments. To secure third party 
payment for prescription medications, the information is transmitted 
from the pharmacy system to the system of the third party payer--often 
through a ``switch'' to direct the information. Some of this 
information stays within the originating state, for processing by the 
State Medicaid program, for example, but other information may pass 
through a company located in a city hundreds of miles away, and then 
onto its final destination in yet another system located in yet another 
state. The claim is then processed at the remote location--verifying 
patient eligibility, coverage for the specific product, and some 
utilization review procedures conducted. Approval for payment and/or 
relevant clinical or administrative information is then transmitted 
back to the pharmacy.
    This process occurs on-line, in real-time at the pharmacy--
literally while the patient is waiting for their prescription. Any 
glitches in the system from the third party processors or the switch 
company will create problems in my pharmacy--and delays for my 
patients. Again, this diverts my attention from clinical activities and 
patient education to trying to release the prescription and verify 
coverage and payment. I communicate with a number of third party 
processors every day, and must rely on those companies to ensure Y2K 
compliance.
    In this overview, I have not even begun to address the additional 
challenges created in other areas of my pharmacy outside of the 
prescription dispensing area. Similar to other small businesses, I must 
also be concerned about challenges with credit card processing, 
inventory control systems, and the myriad of other computers with which 
I work every day.
                               conclusion
    The impact of Year 2000 compliance will be felt in many areas of 
pharmacy practice--the retail side with the cash registers and 
inventory programs, in the home health care and durable medical 
equipment area, and for prescription processing and record-keeping. 
Beyond the challenges in one's own pharmacy, there is interaction with 
other computers constantly--and pharmacists must trust that those 
systems will be compliant.
    Pharmacy will experience the impact of glitches in Year 2000 
compliance sooner than other health care providers, with January 1 of 
1999 the first date for potential problems. We are working to alert 
pharmacists to check on the compliance of their systems--and take 
action to avoid problems. Thank you for conducting this hearing, and 
for listening to the concerns of the nation's pharmacists.
                                 ______
                                 

     Responses of Richard T. Carbray, Jr. to Questions Submitted by

                            Chairman Bennett

    Question 1. The monitoring of expiration dates is an important 
safety control in the pharmaceutical business. What are the Y2K 
vulnerabilities of your business in the area of inventory control?
    Answer. The absence or delay in providing expiration dates on drug 
products would certainly affect inventory levels in that drug products 
with slower movement would require additional re-order processing to 
ensure full potency. Although this would not necessarily require more 
amounts of drug product in stock at one time, the frequency of ordering 
would certainly increase.
    Question 2. Drug interaction information and patient drug 
sensitivity information are an important part of pharmaceutical 
records. What is the potential impact of Y2K in this area?
    Answer. If the clinical information regarding patient drug therapy 
is restricted or unavailable, there will be significant impact on the 
pharmacists' ability to not only dispense medication, but also to 
consult with patients as to the proper use of that medication, 
particularly if potential drug interactions exist. If these systems are 
not in place it would be virtually impossible to provide drug products 
to a patient in a timely and precise manner. The checks and balances of 
the information available in the data base is critical to proper 
medication dispensing.
    Question 3. What are the electronic data interchanges do you rely 
on for the receipt and transmittal of information in your business? 
What vulnerabilities do you see in this area?
    Answer. Currently almost 65-70 percent of all prescriptions 
dispensed are covered under some form of insurance company (private, 
Medicare, Medicaid, HMO). Since 99 percent of the prescriptions filled 
are done through computer, pharmacies must rely on third party claims 
processors for on-line, real-time review of the prescriptions filled. 
In 1996 over 1 billion prescriptions were processed in this manner, 
supported by telecommunications systems. the vulnerability is that the 
pharmacist must trust that these vendors have complied with the Y2K 
requirements. The result of non-compliance leaves the pharmacist with 
no adjudication of the claim and the patient without the medication.
    Question 4. As a customer, what are your main concerns regarding 
the Y2K readiness of pharmaceutical manufacturers?
    Answer. The overall concern would be that manufacturers would not 
be able to supply pharmacies with the needed drug product for our 
patients. A huge potential for stockpiling by larger chains and mass 
merchandisers could cause a supply shortage and impact the ability of 
smaller pharmacies to get the needed products for their patients.
    Question 5. What is your reliance on foreign produced 
pharmaceutical products? How does this reliance factor into your risk 
assessment related to your Y2K exposure?
    Answer. Currently our company has a very small volume of foreign 
produced pharmaceutical products. However, there are some manufacturers 
who have foreign subsidiaries which could affect some product flow if a 
problem arose. Although we have some concern we will rely heavily on 
the U.S. manufacturers to ensure that product is available.
    Question 6. We've heard earlier today that one effective way of 
reaching small businesses is through their trade associations. The web 
page for the American Pharmaceutical Association (APhA) states that 
APhA represents 50,000 pharmacists, pharmaceutical scientists, etc. 
However, we could not find any reference on this web site to Y2K or 
Millennium Bug. What can Congress or the government do to increase Y2K 
awareness and encourage greater outreach on the part of trade 
associations?
    Answer. I think that trade associations are an excellent way of 
disseminating information regarding issues like the Y2K problem. I have 
received information from APhA on this issue and feel that they have 
been diligent in notifying members of this situation. Congress should 
continue to contact trade associations for their input on these issues. 
The associations in turn will filter down the information to its 
constituents. Requests from Congress to associations for individuals to 
present testimony certainly is valuable. The lines of communication 
must flow in both directions to be sure.
                               __________

             Prepared Statement of Senator Susan M. Collins

    I wanted to first thank you Mr. Chairman for your continued 
leadership on this critical issue facing our nation. Over the past four 
months, this Committee has examined vital areas of our country's 
technology infrastructure.
    We started in June with our utilities hearing, and since that time 
the Committee has focused on telecommunications, banking/finance, 
transportation, and emergency preparedness. But of all the hearings we 
have held, today's hearing, with its focus on Y2K's impact on business, 
and especially small business, might be our most important.
    Our nation's 23 million small businesses create two out of every 
three new jobs, represent over 99 percent of all employers, and are 
responsible for more than half of the nation's technological 
innovation. In my home State of Maine, they are the backbone of our 
economy.
    While we have received assurances of other industry sectors' 
preparedness for Y2K, there is great concern about small business. Many 
small businesses are having difficulty in determining how they will be 
affected by Y2K and what they should do about it. Many of them face not 
only technological but also financial challenges in becoming Y2K-
compliant. Most of all, they need practical information about what to 
do.
    The good news is that information resources are available for small 
businesses to assist them in figuring out what to do. In fact, I wanted 
to welcome two people who know how to help small businesses and are 
working every day to tackle the Y2K problem. First of all, I wanted to 
welcome Fred Hochberg, Deputy Administrator of the Small Business 
Administration, an organization I am very familiar with having served 
as its New England Administrator during the Bush Administration.
    Mr. Hochberg joined Senator Snowe in Maine in August rolling out 
his agency's ``Are You Y2K OK?'' program, encouraging the small 
businesses in my State to identify potential Y2K problems, take action 
on them, and stay informed about new developments. This is an excellent 
outreach program, and I commend the SBA for its leadership role on Y2K.
    I also wanted to welcome Rod Rodrigue from Maine. I had the 
opportunity to meet with Rod last month in my of floe and was impressed 
by the tremendous amount of knowledge and energy he brings to this 
issue. Thanks to his leadership, the Maine Manufacturing Extension 
Partnership has taken the initiative in reaching out to small 
businesses to help them cope with the Y2K challenge.
    The Maine MEP uses a diagnostic software tool to assist businesses 
in identifying specific Y2K problem areas and then provides a road map 
for businesses to find further information in their Y2K remediation 
process, including links to SBA loans if necessary. Congress should 
take a very close look at this model program funded through the 
National Institute of Standards and Technology and the Department of 
Commerce.
    Mr. Chairman, by their very definition, entrepreneurs are risk 
managers. In the years that I have been working with small businesses, 
I am aware of countless experiences where the entrepreneurial spirit 
has propelled business owners to overcome major obstacles to succeed.
    While we will hear about reasons for concern about small businesses 
and Y2K in today's hearing, we should not lose sight of their ability 
to adapt. Coupled with tools and resources from organizations like the 
SBA and Maine MEP, it is my expectation that small businesses will 
succeed in solving their Y2K problem. I look forward to learning more 
from today's witnesses about how the federal government can assist in 
achieving this goal.
                               __________

              Prepared Statement of William J. Dennis, Jr.

    Thank you, Mr. Chairman, for the opportunity to present evidence on 
the preparedness of small business owners for the Y2K problem. The bulk 
of my testimony consists of the attached report. It outlines and 
quantifies the status of small business owner preparedness as of late 
April. These data will be updated later this month meaning that new 
numbers will be available around the first of December, perhaps sooner.
    My judgement is that the late October/early November update will be 
more encouraging than last spring's baseline. A year and one-half, 
i.e., the time between the baseline survey and January 1, 2000, can be 
an eternity to a small business owner. Immediate problems are usually 
those tackled first. As we near the critical date, I anticipate Y2K 
will begin to move up the priority scale. However, this is speculation 
based on experience rather than the statistical evidence NFIB will soon 
be collecting again.
    The critical finding from the April survey is that just over 80 
percent of small employers in the United States are exposed to a 
possible Y2K problem through their computers. A non-mutually exclusive 
35 percent believe that they have devices with embedded chips. Despite 
this extensive exposure, a majority of small business owners plan no 
action.
    Think of the small employer population as divided into fifths. One-
fifth has taken action or is in the processing of taking action on Y2K. 
One-fifth plans to take action prior to January 1, 2000, but has not 
yet done so. Two-fifths have not taken action and do not plan to do so. 
And, the final fifth has not heard of Y2K.
    At one extreme are the one in five small employers who do not need 
to take direct action. No equipment in their businesses exposes them. 
Their concern rests with others, e.g., their suppliers, their financial 
institutions, their utilities, etc. Joining them are another one in 
five who are in the process of resolving any problems they may have. 
The result is that about 40 percent of the population now appears to be 
clear of direct problems.
    Should nothing change, approximately 330,000 businesses will 
inhabit the other extreme. They will have to shut down for all intents 
and purposes on January 1, 2000, and stay closed until their Y2K 
problem is fixed. These firms are exposed, would suffer an 85 percent 
or more loss of production or sales should their computers malfunction, 
and whose owners in April planned no action. The severity of the 
individual impact will depend the speed and the cost of rectifying the 
problems, and/or the costs of alternative production or sales systems. 
Small employers in this situation must understand, however, that the 
supply of people who can correct Y2K problems are limited and that on 
January 1, 2000, the demand for their services (and their fees) will be 
great leaving these business owners at the end of the line. I must 
emphasize that this is a worst case scenario. It means that serious 
malfunctions occur in all of the firms possessing the characteristics 
outlined above. That almost assuredly will not happen, but it clearly 
suggests the potential impacts are not trivial.
    A majority of small businesses fall in the middle. They may be 
impacted and if they are, some damage will ensue. But, the damage will 
not cripple the operation. Still, this group, too, will require people 
who can solve Y2K problems. And, they too will have to wait in line and 
pay dearly to get them.
    Aside from liability and an assumption that the credit markets 
don't suddenly ``go into the tank,'' the Federal government's role 
toward small business should principally be one of the village nag. 
Washington should use its pulpit and encourage others to do so as well. 
Let me point out that the SBA's Office of Advocacy sponsored research 
(How Small Businesses Learn) in 1994 that outlines the most effective 
means for government to communicate with small business owners. I can 
find no evidence that anyone outside Advocacy and a handful of others 
have ever read the report. But it offers useful insights useful for the 
present situation.
    ``How Small Businesses Learn'' documents that government isn't 
particularly credible with small business owners nor are it 
communications. However, industry-specific trade associations are and 
their literature is read. Moreover, industry-specific trade 
associations have some knowledge of the specific equipment used by 
businesses in the industry. Many of these groups can, therefore, 
identify and offer suggestions on embedded chip problems that those 
outside the industry almost certainly cannot. Suppliers and business 
associates are another source of credible information. Larger firms and 
financial institution are now often asking their customers about Y2K 
``compliance.'' The certain effect of these actions by business 
associates is to make small business owners increasingly aware of the 
problem and the seriousness with which their peers people take the 
problem.
    The upshot is that government might do well to focus its pulpit 
activities on leaders of trade groups and larger businesses with large 
supplier networks. They reach deeply into the small business community 
are have notable credibility. While they do not reach everyone 
directly, they do reach a critical mass.
    I would be remiss in failing to explicitly mention the contribution 
of the Wells Fargo Bank in the Y2K activities outlined. Wells Fargo has 
underwritten NFIB's small business Y2K surveys and has prepared a Y2K 
booklet for small business owners. Copies of the booklet are available 
for the committee and staff.
                                 ______
                                 

                   Small Business and the Y2K Problem

   [William J. Dennis, Jr., NFIB Education Foundation, May 26, 1998]

    Key Words:
  --Automated Processes
  --Computers
  --Liability
  --Microchips
  --Size of Business
  --Small Business
  --Small Employer
  --Timing/Dating Mechanism
  --Urban/Rural
  --Y2K (Year 2000) Problem
    The Wells Fargo Bank sponsored the research on which this report is 
based.
                            1. introduction
    More than eight of 10 (82 percent) small businesses face direct 
exposure to a Year 2000 (Y2K) problem. Eighty-one (81 percent) of their 
owners say that they are aware of it. However, fewer than one in four 
(23 percent) consider Y2K a serious problem. This gap between exposure 
and perceived problem severity is not necessarily inconsistent. A 
timely, measured response to a looming problem is the optimal method of 
resolving difficulties. Yet, just 41 percent have taken action or plan 
to take action to address the potential Y2K problem. The resulting 
interval between exposure and plans to address the potential problem 
has adverse implications for small business owners. If the experts are 
correct about the consequences of Y2K and small business owners are not 
prepared, many could face significant repercussions that, at a minimum, 
will make their business lives uncomfortable.
                2. most small businesses exposed to y2k
    The Y2K problem is located in computers--hardware and software, 
timing/dating mechanisms, and various types of automated equipment. Not 
every computer in operation nor every piece of software, nor every 
timing/dating mechanism will yield a Y2K problem. However, it is not 
always possible to easily determine which devices contain the problem 
and which don't. The small business population that will be (or would 
be) impacted--in contrast to the potentially impacted or exposed 
population--is not obvious.
    The same is true for the organizations with which a small business 
transacts its affairs. These business partners may be large or small, 
profit or non-profit, public or private. But since these entities face 
the same Y2K problem, and since it takes at least two to conduct a 
business transaction, the effect of Y2K on any individual business is a 
function of the individual business's problem as well as the problems 
of its partners.
2.1   Direct impacts
    Eighty-two (82) percent of small business owners \1\ are exposed 
directly to the Y2K problem. Exhibit 1 presents the sources of 
exposure. It includes the percent of small business owners who use at 
least one computer in their businesses (78 percent), the percent using 
other equipment or devices that might be impacted (34 percent), and the 
percentage selling, leasing, or installing equipment that could be 
affected (11 percent). These categories are not mutually exclusive. 
Exposure overlaps in many organizations. The ``Not Exposed'' category 
on Exhibit 1 quantifies the percentage of firms which appear to have no 
direct exposure. This 18 percent of firms possess none of the suspect 
equipment nor do they sell/lease/install any of it.
---------------------------------------------------------------------------
    \1\ The survey covers only those who employ other people. It does 
not include self-employed individuals who employ no others. The Y2K 
problem of the six million full-time self-employed without employees 
probably resembles that of the smallest employers, and is in addition 
to it.
---------------------------------------------------------------------------
    The large majority of small employers, an estimated 4\3/4\ million, 
are exposed to the Y2K problem. Computers are the primary reason. 
Virtually every firm facing Y2K has an exposure through its computers. 
Other devices and equipment increase the total exposed by only four 
percentage points.\2\ The final exposure category comes in those firms 
which sell devices and products that may contain the Y2K problem. These 
firms appear liable for their products and services, not just for 
replacement or repair, but for the damage a malfunctioning product 
might cause. Virtually all the firms in this category fall in at least 
one of the other two categories as well.
---------------------------------------------------------------------------
    \2\ The other equipment and devices category presents definitional 
problems for those de signing the questionnaire as well as for 
respondents, and therefore is the response most likely to contain bias 
(though in which direction we do not know). The difficulty probably has 
little impact on the estimate of total firms exposed since computers 
make most firms exposed in any event. The difficulty arises in 
quantifying the nature of exposure.
---------------------------------------------------------------------------
  exhibit 1.--percent of small businesses with direct y2k exposure by 
                           source of exposure
[GRAPHIC] [TIFF OMITTED] T7OC98G.001

    Larger small firms are those most likely to be exposed. Businesses 
employing 25 or more people use computers almost universally. They are 
also more likely to possess other timing/dating devices (46 percent) 
and to sell, lease or install products with potential exposure (19 
percent). Small business owners employing 1-4 people lie at the other 
extreme. Only 70 percent of this group use computers in their 
businesses, and their potential exposure in other ways is 
proportionately less as well. Still, 2\1/4\ million of these small 
employers face a potential impact. The same phenomenon appears when 
substituting annual gross sales as the measure of size (Exhibit 2). 
About \2/3\'s of those grossing less than $250,000 are exposed. Once 
revenues reach $500,000, everyone is exposed for all intents and 
purposes.
    Exposed small businesses are also more likely to be located in 
metropolitan areas than in rural areas (Exhibit 2). Just, eight percent 
of firms in metropolitan areas (defined as city and surrounding suburbs 
with 500,000 or more) are without computers in their businesses 
compared to 37 percent in rural areas (defined as community of less 
than 5,000 or a rural area). The survey contains four geographic size 
measures. The frequency of computer use grows in every category as the 
resident population becomes larger.
    Other demographic characteristics of the business and/or the owner 
show no relationship to the Y2K problem.

             EXHIBIT 2.--EXPOSED SMALL BUSINESSES BY ANNUAL GROSS SALES AND URBAN/RURAL DESIGNATION
----------------------------------------------------------------------------------------------------------------
                                                Exposed  to                                          Exposed  to
              Annual gross sales                    Y2K                    Urban/Rural                   Y2K
                                                 (percent)                                            (percent)
----------------------------------------------------------------------------------------------------------------
<$250,000.....................................           67  Metropolitan
$250,000-$499,999.............................           87    (500,000+)..........................           92
$500,000-$999,999.............................           96  Large city (50,000-
                                                               500,000)............................           86
$1,000,000-$1,999,999.........................           95  Small city (5,000-
$2,000,000+...................................          100      49,999)...........................           76
No Answer.....................................           96  Rural (<5,000)........................           67
                                                             No answer.............................          100
All Businesses................................           82  All businesses........................           82
----------------------------------------------------------------------------------------------------------------


2.1.1  Size of the direct impact
    Exposure to a Y2K problem does not necessarily translate into 
serious problems. A piece of equipment lost for a day or two may be 
more of an inconvenience than a serious liability. Exposed small 
business owners on average estimate that one-quarter (24 percent) of 
their sales or production would be lost for the period that affected 
equipment or devices did not operate. That impact estimate is 
consistent across size and geographic area, with the production 
industries, i.e., construction and manufacturing, impacted marginally 
less than services. An affected business, grossing $750,000 annually, 
could expect to lose $3600 or 0.5 percent of sales directly if a Y2K 
problem took one week to resolve. Indirect losses, such as good-will, 
are more difficult to calculate, but would add to the total.
    The impact estimates diverge wildly among firms. Seven percent 
would have to virtually shut down if, as forecast, these small business 
owners experience impacts at 91 to 100 percent of sales or production. 
Another eight percent gauge impacts between 71 and 90 percent. Those 
figures translate into over 330,000 businesses shut down and a slightly 
larger number crippled. But 330,000 is the worst case and assumes that 
everyone exposed is impacted. Everyone exposed will not be impacted as 
many in the group will take preventive measures and others will prove 
to have non-affected equipment. Yet, only one-quarter of the group who 
believe that their sales or production would be down by 71 percent or 
more if their systems malfunction have taken action though another 40 
percent plan it. These latter figures are based on a very small n 
(n=52) and therefore must be used with considerable caution. But the 
numbers do suggest that far from all who attach significant dependence 
to their computer and automated systems are convinced that Y2K is worth 
addressing.
    Forty (40) percent of the directly exposed owners estimate their 
sales or production would be impacted by less than one percent. This 
group will bear any impact of Y2K through the cost side only, at least 
initially. Handwork will substitute for computers or other automated 
processes. For example, payroll checks may have to be individually 
handwritten rather than produced automatically. Such substitution will 
add to costs. (The survey captured no data on the size of these costs, 
though they obviously could range substantially.) Added costs at some 
point must be passed on in the form of higher prices. Higher prices 
make affected businesses less competitive which can subsequently impact 
sales or production.
    The unknown variable is the length of time impacted businesses will 
``be down.'' Affected devices will malfunction 9/9/99 or 1/1/00. 
Unfortunately, everyone's Y2K problem will occur at the same time. A 
limited number of people will be capable of detecting and fixing the 
conditions, at least the more serious ones. Demand for these experts 
will exceed supply. Their fees will rise sharply. Even then these 
experts may not be available for some time. The alternative is to have 
the owner or an employee do the work. The success of this latter 
strategy will vary enormously.
    The more businesses impacted by the Y2K problem, the greater the 
number of small business owners who will face ``down-time.'' Small 
business owners, therefore, have an interest in having as many 
businesses as possible resolve their Y2K problems early.
2.1.2  Types of activities affected
    Several business functions could be adversely affected by a Y2K 
malfunction. For example, 21 percent of small business owners report 
that their business is ``very dependent'' on automated processes. 
Another 27 percent say they are ``somewhat dependent'' on them. Many of 
these processes require timing/dating devices or computers. Automated 
processes are now spread throughout the economy and their 
malfunctioning would have wide repercussions. These processes are 
commonly associated with the manufacturing industry. The survey sample 
included too few manufacturers to report separately. However, the 
production industry of which manufacturing is an important component 
was the industry least likely to be dependent on automated processes. 
Both the distribution and service industries appear more dependent on 
them.
    Malfunctioning computers also could severely impact small 
businesses. Exhibit 3 presents the frequency with which small business 
owners use computers for selected functions. The striking point of 
Exhibit 3 is the dependence on computers to perform multiple functions 
within the firm. In fact, small businesses with computers use them to 
perform an average of 5\1/2\ functions. Administration, record-keeping, 
and word processing is the most common application; operating machinery 
or equipment is the least.

    EXHIBIT 3.--USE OF COMPUTERS FOR SELECTED BUSINESS FUNCTIONS AS A
  PERCENT OF SMALL EMPLOYERS WHO OWN COMPUTERS AND ALL SMALL EMPLOYERS
------------------------------------------------------------------------
                                                           All small
            Function                Computer Owners        employers
                                       (percent)           (percent)
------------------------------------------------------------------------
Billing/Accounts Receivable.....                 74                  57
Inventory Control...............                 41                  32
Accounting/Gen. Ledger..........                 76                  59
Payroll.........................                 45                  35
Admin/Record-Keeping/Word                        84                  65
 Processing.....................
E-Mail/Internet Access..........                 61                  47
Customer--Prospect Lists/Sales                   70                  54
 Tracking.......................
Design/Product Development......                 28                  22
Operating Machinery/Equip.......                 20                  15
Check Reconciliation............                 51                  40
------------------------------------------------------------------------

    Software makes a computer run. It is generally believed that 
standard, off-the-shelf software packages are more likely to be free of 
Y2K problems than is custom software. A potentially important 
consideration and area for small employers to investigate then, is the 
kind of software they are using. Almost two of five owners who employ 
computers (39 percent) claim that at least half of their software is 
custom; 55 percent say that they use at least some custom products. 
Just 38 percent report that they use off-the-shelf software 
exclusively. The significant use of custom software in the mix 
magnifies small business exposure.
    It is highly likely that more problems are buried in older 
software. In this sense, small business owners are in good position. 
Eighty-one (81) percent have updated their most critical software in 
the last two years. Only a handful have not updated in more than five. 
Owners of larger, small firms are more likely to have modernized than 
are the others.
2.2  Indirect Impacts
    It takes two separate entities to make a business deal. Even if a 
small business does not have a Y2K problem, the other partner in the 
transaction may. The partner's problem may, therefore, force 
interruption or cancellation of a deal. Exhibit 4 examines some of 
these linkages and their subsequent problems. It shows that 75 percent 
of those with a computer (59 percent of small business owners) deal 
electronically with important business partners. Fifty-four (54) 
percent of small business owners with a computer (42 percent of the 
small business population) interact electronically with their 
suppliers. Eighteen (18) percent interact with them a lot. Thirty-five 
(35) percent of those using a computer electronically interact with 
their primary financial institution. Fourteen (14) percent interact a 
lot. Finally, 49 percent of small business owners with a computer 
interact electronically with their customers. Seventeen (17) percent do 
so frequently. Each of these are points of exposure to the Y2K problem 
could doom a potential transaction.
 exhibit 4.--percent of small businesses with indirect y2k exposure by 
                      source of indirect exposure
[GRAPHIC] [TIFF OMITTED] T7OC98G.002


    The indirect exposure to Y2K problems is broader than the numbers 
presented here. Survey figures only include fully electronic 
transactions. A number of business transactions occur which are 
electronic on one end but not on the other. An example might involve a 
small business owner placing a telephone order and the distributor 
processing it electronically. The primary implication is that the 75 
percent noted earlier does not represent the full scope of indirect 
exposure of small business owners to Y2K. It must be amplified by 
partially electronic transactions which affect small business owners 
beyond those directly exposed and include practically everyone.
                    3. awareness of the y2k problem
    Most small business owners claim to be aware of the Y2K problem. 
Fifty-three (53) percent say that they are ``very aware'' of it and 
another 28 percent say they are ``somewhat aware.'' Just 8 percent are 
``not very aware'' and 10 percent are ``not at all aware.'' That means 
more than one million employers have limited or no awareness of Y2K.
    One hopes that those most at risk (and with the capacity to take 
corrective action) are the same people who are most aware of the 
problem. The correlation between the two proves high, but not perfect. 
Eighty-six (86) percent of small business owners exposed directly are 
aware of Y2K, 59 percent are ``very aware.'' Just 56 percent of those 
not exposed to direct risk are equally well aware. Thus, even if 
everyone is not aware, at least the overwhelming majority of the most 
vulnerable appear to be.
    Though considerable awareness of the Y2K problem exists among small 
business owners, comparatively few of those aware believe the problem 
is serious for their business. Just six percent of those aware term Y2K 
a ``very serious'' problem and 23 percent of those aware call it 
``somewhat serious.'' Most see Y2K as a rather minor affair with modest 
or non-existent consequences. One respondent used the phrase, ``blown 
out of proportion.'' In fact, 70 percent of aware small business owners 
term Y2K either ``not very serious'' or ``not at all serious.'' 
Incorporating those not aware of Y2K, the number of small employers who 
believe the looming problem is negligible or non-existent approximates 
77 percent of the small employer population or about 4\1/2\ million 
business.
    Awareness of the Y2K problem does not necessarily translate into 
alarm or even concern. Those who claim to be ``very aware'' are no more 
or less likely than are others to believe Y2K is a serious problem. 
Efforts to increase general awareness of Y2K, therefore, will probably 
have little impact on a small business owner's level of concern over 
its impact. Instead, those wishing to stimulate action should shift the 
focus to the consequences for unprepared firms.
                     4. addressing the y2k problem
    The number of owners who are taking action to address Y2K 
approximates the number who believe the problem is ``very serious'' or 
``somewhat serious.'' Twenty-three (23) percent of those who are aware 
of the problem report action taken or in progress. Another 27 percent 
say that they plan to take action before 2000, though they have yet to 
initiate any. If this latter group follows through on its plans, one-
half of small business owners who are aware of the problem will have 
taken steps to address Y2K in advance. That figure represents 41 
percent of the entire small business population.
    The relationship between the level of action and perceived severity 
of the problem suggests that perceptions change once action is taken. 
Exhibit 4 shows, as expected, that those who plan no action generally 
regard Y2K as ``not at all serious'' or ``not very serious.'' Again, as 
expected, those who plan action, but have not yet taken, any consider 
the problem more serious than do those not planning any. The 
interesting group, however, is the one whose members either have taken 
action or are in the process of doing so. Owners taking action should 
be the group who consider the Y2K problem most severe, and indeed it 
produces the greatest percentage (15 percent) reporting the problem, 
``very serious.'' But, Exhibit 5 shows that the most frequent response 
(34 percent) from this action-oriented group is ``not at all serious.'' 
One-third of those taking action think they have no Y2K problem to 
speak of. The remainder of responses among those taking action are 
distributed across the other possible answers. An explanation for this 
unexpected distribution is that action influenced their assessments. 
Once they acted, some owners learned the Y2K problem was very serious 
for their firms while other found it inconsequential. If that opinion 
occurs among those who acted, one could argue that a similar division 
of opinion will arise among those who have not yet moved but are 
exposed. A likely result is that some who take no action will not even 
notice 9/9/99 or 1/1/00 while others will be very unhappy.

            EXHIBIT 5.--PERCEIVED SERIOUSNESS OF THE Y2K PROBLEM BY ACTION TO RESOLVE THE Y2K PROBLEM
----------------------------------------------------------------------------------------------------------------
                                               Problem seriousness
-----------------------------------------------------------------------------------------------------------------
                                              Not at all    Not very      Somewhat        Very
               Action level                    serious       serious       serious       serious        Total
                                              (percent)     (percent)     (percent)     (percent)
----------------------------------------------------------------------------------------------------------------
Not serious enough to worry about.........           70            25             3             2           100
No action taken/planned...................           46            34            18             2           100
Action planned............................           13            41            40             6           100
Action taken..............................           34            24            27            15           100
                                           ---------------------------------------------------------------------
      Total...............................           39            31            23             6           100
----------------------------------------------------------------------------------------------------------------

4.1  Expenditures on Y2K
    The money spent by small employers taking action on the Y2K problem 
is comparatively modest. Twenty-nine (29) percent have made no outlays 
to date and another 27 percent have spent less than $1,000. (``No 
outlays'' might consist of an inspection taken by in-house personnel.) 
Twelve (12) percent reported spending between $1,000 and $4,999. Thus, 
over \2/3\'s of those taking action have expended less than $5,000. 
Another 13 percent don't know how much they have invested. These sums 
do not necessarily represent the entire cost, however. Thirty-nine (39) 
percent report plans for future outlays, though these investments will 
be generally small as well. Their expected median value is about 
$2,000.
    The amounts spent on Y2K by owners taking action are notably less 
than their annual expenditures for computer equipment, software and 
maintenance. The annual median expenditure for these items is $7,500. 
Thus, much of their Y2K investment appears to have been made part of 
routine maintenance and upgrades.
    Those planning action before the year 2000 intend to spend even 
less. Virtually none in this group (5 percent) have reported any 
expenditures to date. Their plans include 12 percent who anticipate 
spending nothing, 27 percent who plan to spend less than $1,000, and 20 
percent who will spend between $1,000 and $4,999. One in three still 
doesn't know how much they will spend, leaving just eight percent of 
this group planning expenditures of more than $5,000. That is about the 
median annual expenditure among the group for computers, software and 
maintenance.
4.2  Plans to address Y2K
    Plans to address Y2K often appear fragmented. The group taking 
action exhibits somewhat more structure in its approach to Y2K than 
those still planning it. The most notable differences between the two 
groups occurs in the areas of budgeting and verification of key vendor 
Y2K prevention steps. Small business owners taking action more 
frequently include a budget. Forty (40) percent of the action-oriented 
group have a budget for Y2K compared to 27 percent of the planning 
group. The planning group is more likely to check with key venders (49 
percent compared to 32 percent). However, a majority do not have either 
element as part of their plans. Infrequent budgeting might be explained 
by the relatively small expenditures as well as the possible use of 
monies previously budgeted for computer maintenance and upgrades. The 
failure to check with key vendors can only be attributed to oversight 
or hesitancy to ``interfere'' in the internal affairs of another. Three 
of four from each group have designated a person to be in charge and 
somewhat fewer intend to test all changes made in response to Y2K.
    Small business owners are about evenly split among those who will 
tackle the problem in-house and those who will contract it out. The 
ones who have taken action tilt toward keeping the task in-house. It is 
logical that those with expertise within their firms would be more 
likely to address the problem before others.
              5. information to help small business owners
    Over half (58 percent) of the small employers who are aware of the 
Y2K problem believe that they have adequate information concerning the 
problem, its potential impact on their business, and how to protect 
themselves from any adverse consequences. At the same time, 47 percent 
indicate that additional information would be helpful.
    Those most likely to feel that they have adequate information are 
found on both ends of the action continuum. Almost four of five (79 
percent) owners who have taken action feel that additional information 
would not be helpful. Meanwhile, 62 percent of the small employers who 
aren't worried about Y2K feel the same. Those in the middle of the 
action continuum, particularly those planning action before 2000, are 
most likely to believe that they need more information.
    Small employers say that the most helpful information would be a 
general description of the problem and the difficulties it may cause as 
well as information on specific remedies for the most common ailments. 
Previously, it was noted that there was a general feeling that the 
problem lacks importance. Therefore, information describing the problem 
needs to address consequences of inaction if it is to stimulate action. 
Few express interested in obtaining information containing the names 
and addresses of people or organizations that can help them resolve 
problems, or a detailed check-list of potential problem areas.
                             6. conclusion
    Virtually all save a healthy minority of the smallest, small 
businesses face direct exposure to a Y2K problem. Should their computer 
systems or other equipment/devices operated by a timing/dating 
mechanism malfunction, the consequences for about one in seven of those 
exposed are severe by the owners' own assessment. Though more than 80 
percent are aware of the Y2K problem including most of those with the 
most serious exposure, just 23 percent of them have taken action to 
determine and correct the problem. Another 27 percent plan to do so 
prior to the year 2000. Thus, half of those aware of Y2K currently 
appear ready to leave their fate to the forethought (or lack thereof) 
of computer programmers.
    The primary circumstance intervening between awareness of the Y2K 
problem and action appears to be the pervasive belief among small 
businessmen and women that Y2K is not a serious problem for their 
firms. Less than 30 percent believe the problem is ``very'' (6 percent) 
or ``somewhat'' (23 percent) serious. If the situation is not serious, 
the need to take action soon, if ever, is not a priority. Those 
attempting to help small business owners avoid Y2K problems, therefore, 
need to worry less about general awareness and focus on the likelihood 
and consequences of Y2K affecting their firms.
    The survey data cannot yield an estimated Y2K impact for the small 
business population. Issues like the cost of substituting handwork for 
automation, average ``downtime'' during a malfunction, and the percent 
of firms exposed but not impacted are just three of the primary 
outstanding issues which are essential to the estimate and for which 
respondents could not provide reliable data. Still, the number of small 
businesses adversely impacted, if only modestly, will likely be very 
large. The survey shows that 4\3/4\ million small employers are 
directly exposed with additional owners indirectly (and often 
unknowingly) exposed as well. It also shows that only half of the those 
aware of Y2K have taken or plan to take action in response. Thus even 
if all of those planning to take action follow-through and another 
million (about one in five of the exposed population) eventually make 
plans and carry-out preventive measures, over one million small, 
employing businesses will be directly exposed to the Y2K problem having 
taken no precautions.
                         7. survey methodology
    The telephone survey on which this report is based was conducted 
during the latter part of April, 1998, by The Gallup Organization. The 
Dun & Bradstreet file constituted the survey's sampling frame. The 
sample itself was a stratified random design. Half was drawn randomly 
from owners of small businesses employing between one and 9 people 
(n=250); the other half was drawn randomly from those employing between 
10 and 99 employees (n=250). Sampling error for the population is --4.4 
percent. Unless otherwise noted, the data presented in the report are 
weighted to reflect the distribution of the entire small employer 
population.
                                 ______
                                 

                        Year 2000 (Y2K) Problem

                            (Survey Results)

[Sponsored by Wells Fargo Bank, Conducted by The Gallup Organization in 
late April, 1998. Sample included small business owners employing from 
              1 to 99 people not including owners.  n=500]

    1. How dependent is the operation of your business on the use of 
computers? Would you say that your business is very dependent, somewhat 
dependent, not dependent, or you don't use computers in your business?

                                                                 Percent
Very dependent....................................................    44
Somewhat dependent................................................    29
Not dependent.....................................................     5
Don't use computers...............................................    22
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    2. Do you have any equipment or devices in your business other than 
a computer that operate on an internal timing/dating mechanism or a 
micro-chip? Examples of such equipment might include automatic lighting 
and watering systems, elevators, scanning devices and card-readers. Do 
you have any?

                                                                 Percent
Yes...............................................................    34
No................................................................    65
Dont know.........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    3. Do you sell, lease, or install as part of your business any 
devices that operate with an internal electronic timing/dating 
mechanism or a micro-chip?

                                                                 Percent
Yes...............................................................    11
No................................................................    89
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    3a. What portion of your sales involve those kinds of devices?

                                                                 Percent
All...............................................................    10
More than half....................................................    29
About half........................................................     3
Less than half....................................................    38
Almost none.......................................................    19
N/A...............................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=53

    4. How dependent is your business on automated processes? Would you 
say that your core business operation is very dependent, somewhat 
dependent, or not dependent?

                                                                 Percent
Very dependent....................................................    21
Somewhat dependent................................................    27
Not dependent.....................................................    49
Not applicable....................................................     1
Don't know........................................................     2
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    5. If your computers, the devices operating on an internal timing/
dating mechanism, automated processes, in your business were to 
malfunction, about what percent of your business sales or production 
would be lost for the period you were down?

        Percent                                                  Percent
                                                                 Percent
Less than 1.......................................................    40
1-10..............................................................    14
11-20.............................................................     5
21-30.............................................................     5
31-40.............................................................     3
41-50.............................................................     8
51-60.............................................................     1
61-70.............................................................     1
71-80.............................................................     5
81-90.............................................................     3
91-100............................................................     7
Don't know/refused................................................     3
Not applicable....................................................     6
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=408

    6. Does your business use its computers for . . .?

                                                                 Percent
Billing and accounts receivable:
    Yes...........................................................    74
    No............................................................    26
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Inventory control:
    Yes...........................................................    41
    No............................................................    59
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Accounting and general ledger:
    Yes...........................................................    76
    No............................................................    24
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Payroll:
    Yes...........................................................    45
    No............................................................    55
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Administration, record-keeping, and word processing:
    Yes...........................................................    84
    No............................................................    16
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
E-mail and/or Internet access:
    Yes...........................................................    61
    No............................................................    39
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Maintaining customer and prospect lists and/or sales tracking:
    Yes...........................................................    70
    No............................................................    30
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Design and product development:
    Yes...........................................................    28
    No............................................................    72
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Operating machinery and/or equipment:
    Yes...........................................................    20
    No............................................................    80
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Check reconciliation:
    Yes...........................................................    51
    No............................................................     8
    Don't Know..........-----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
n=385

    7. In a mix of custom and off-the-shelf software, would you say 
that your business uses all custom software, mainly custom software, 
50/50 custom and off-the-shelf, mainly off-the-shelf, all off-the-shelf 
software?

                                                                 Percent
All custom........................................................    10
Mainly custom.....................................................     7
50/50 custom and off-the-shelf....................................    22
Mainly off-the-shelf..............................................    16
All off-the-shelf.................................................    38
Don't Know........................................................     7
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=385

    8. When was the last time your business updated its most critical 
software? Was it within the last 2 years, 2-5 years ago, 6-10 years 
ago, more than 10 years ago?

                                                                 Percent
Within the last 2 years...........................................    81
2-5 years ago.....................................................    12
6-10 years ago....................................................     2
More than 10 years ago............................................     1
Don't know........................................................     4
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=385

    9. What does your business spend annually for computer equipment, 
software and maintenance?

                                                                 Percent
Nothing...........................................................     8
$1 to less than $1,000............................................    26
$1,000 to $4,999..................................................    27
$5,000 to $9,999..................................................    14
$10,000 to $24,999................................................    11
$25,000 to $99,999................................................     4
$100,000 or more..................................................     2
Don't know........................................................     7
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=408

    10. How frequently do you interact electronically with your 
suppliers: a lot (frequently), a little (from time to time), not at all 
(never)?

                                                                 Percent
A lot (frequently)................................................    18
A little (from time to time)......................................    36
Not at all (never)................................................    45
Don't know........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=408

    10a. How critical is the use of computers to your SUPPLIERS' 
operation? Is it critical, somewhat critical, not very critical, not at 
all critical?

                                                                 Percent
Critical..........................................................    30
Somewhat critical.................................................    15
Not very critical.................................................    18
Not at all critical...............................................    28
Don't know........................................................    10
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=408

    11. How frequently do you interact electronically with your primary 
financial institution: a lot (frequently), a little (from time to 
time), not at all (never)?

                                                                 Percent
A lot (frequently)................................................    14
A little (from time to time)......................................    21
Not at all (never)................................................    64
Don't know........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=408

    12. How frequently do you interact electronically with your 
customers: a lot (frequently), a little (from time to time), not at all 
(never)?

                                                                 Percent
A lot (frequently)................................................    17
A little (from time to time)......................................    32
Not at all (never)................................................    51
Don't know........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=408

    13. Are your sales PRIMARILY to private individuals or to other 
businesses and organizations?

                                                                 Percent
Private individuals...............................................    52
Businesses/organizations..........................................    40
Don't know........................................................     8
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=408

    13a. How critical is the use of computers to your customers' 
operations? Is it critical, somewhat critical, not very critical, not 
at all critical?

                                                                 Percent
Critical..........................................................    40
Somewhat critical.................................................    28
Not very critical.................................................    10
Not at all critical...............................................    11
Don't know........................................................    10
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=164

    14. Are you aware of something called the ``Year 2000 Problem,'' 
often called the ``Millennium Bug''? The problem involves a possible 
malfunction of some computer systems and similar devices on January 1, 
2000. Would you say that you are very aware, somewhat aware, not very 
aware, or not at all aware with the year 2000 problem?

                                                                 Percent
Very aware........................................................    53
Somewhat aware....................................................    28
Not very aware....................................................     8
Not at all aware..................................................    10
Don't know........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    15. How serious do you feel the Year 2000 Problem is for your 
business? Would you say that it is very serious, somewhat serious, not 
very serious, not at all serious?

                                                                 Percent
Very serious......................................................     6
Somewhat serious..................................................    23
Not very serious..................................................    31
Not at all serious................................................    39
Don't know........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=405

    16. How do you intend to address the problem? Would you say it's 
not serious enough to worry about, no action has been taken and none is 
now planned, you plan to take action before the year 2000 but haven't 
yet, you have taken or are now taking action to address the problem?

                                                                 Percent
Not serious enough to worry about.................................    22
No action taken and none is planned...............................    24
Plan to take action, but haven't yet..............................    27
Taken or are now taking action....................................    23
Don't know........................................................     4
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=405

    16a. (Are you/will you) initially (addressing/address) the problem 
on your own or (are you/will you) (bringing/bring) in someone from the 
outside to help?

                                                                 Percent
In-house..........................................................    47
Contract out......................................................    42
Don't know........................................................    11
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=202

    16b. Does your plan include . . . ?

                                                                 Percent
A budget:
    Yes...........................................................    33
    No............................................................    64
    Don't know....................................................     3
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
A designated person in charge:
    Yes...........................................................    73
    No............................................................    26
    Don't know....................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Testing any changes you make:
    Yes...........................................................    70
    No............................................................    24
    Don't know....................................................     6
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
                        =================================================================
                        ________________________________________________
Checking on your key vendors to be certain they don't have a 
  problem that affects you:
    Yes...........................................................    41
    No............................................................    56
    Don't know....................................................     3
                        -----------------------------------------------------------------
                        ________________________________________________
        Total.....................................................   100
n=202

    17. How much money has your business already spent addressing the 
Year 2000 problem?
                                                                 Percent
Nothing...........................................................    64
$1 to less than $1,000............................................    13
$1,000 to $4,999..................................................     7
$5,000 to $9,999..................................................     4
$10,000 to $24,999................................................     3
$25,000 to $99,999................................................     1
$100,000 or more..................................................     0
Don't know........................................................     8
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=202

    18. How much money does your business plan to spend, beyond what 
you have already spent, addressing the year 2000 Problem?
                                                                 Percent
Nothing...........................................................    25
$1 to less than $1,000............................................    21
$1,000 to $4,999..................................................    17
$5,000 to $9,999..................................................     5
$10,000 to $24,999................................................     2
$25,000 to $99,999................................................     2
$100,000 or more..................................................     1
Don't know........................................................    29
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=202

    19. How will your Year 2000 plans impact your sales? Do you think 
it will increase, decrease, or have no impact on them?

                                                                 Percent
Increase..........................................................    10
Decrease..........................................................     3
No impact.........................................................    84
Don't know........................................................     3
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=202

    20. How will your Year 2000 plans impact your employment level? Do 
you think it will increase the number of people working for you, 
decrease the number, or have no impact?

                                                                 Percent
Increase..........................................................     7
Decrease..........................................................     1
No impact.........................................................    90
Don't know........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=202

    21. Have you verified that your suppliers and financial 
institutions are taking steps to prepare for the Year 2000?

                                                                 Percent
Yes...............................................................    32
No................................................................    65
Don't Know........................................................     3
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=405

    22. Have you verified that your customers are taking steps to 
prepare for the Year 2000?

                                                                 Percent
Yes...............................................................    13
No................................................................    83
Don't know                                                             3
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=405

    23. Do you believe that you have adequate information about the 
Year 2000 Problem, its impact on your business, and how to protect 
yourself from any adverse impact?

                                                                 Percent
Yes...............................................................    58
No................................................................    39
Don't know........................................................     4
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=405

    24. Would you be very interested, somewhat interested, not very 
interested, not at all interested in learning more about the Year 2000 
Problem and how it might affect your business?

                                                                 Percent
Very interested...................................................    12
Somewhat interested...............................................    35
Not very interested...............................................    14
Not at all interested.............................................    39
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=405

    25. What type of information about the Year 2000 Problem would you 
find most helpful?

                                                                 Percent
A general description of the problem and the difficulties it may 
    cause.........................................................    31
Specific remedies for the most common possible problems...........    22
How it would affect financial institutions (volunteered)..........     5
Names and addresses of people or organizations that can locate or 
    help resolve possible problems in your business...............     4
How it would affect my business (volunteered).....................     4
A detailed check list of possible problem areas...................     3
Other.............................................................     6
Don't know........................................................    20
Nothing...........................................................     5
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=247

                   demographic profile of respondents
    D1. Which best describes the majority of your business activity? Do 
you make, construct, extract or grow something to sell; sell goods or 
products; sell services?

                                                                 Percent
Make, construct, extract or grow something to sell................    12
Sell goods or products............................................    29
Sell services.....................................................    56
Don't know........................................................     3
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    D2. Which BEST describes the area in which your business is located 
(main headquarters)? Is it located in a city and surrounding suburbs 
with more than 500,000 people, city and surrounding suburbs with 50,000 
to 500,000 people, city of less than 50,000 but more than 5,000, 
community of less than 5,000 or a rural area?

                                                                 Percent
City and surrounding suburbs with more than 500,000 people            29
City and surrounding suburbs with 50,000 to 500,000 people........    28
City of less than 50,000 but more than 5,000......................    20
Community of less than 5,000 or a rural area......................    20
Don't know........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    D3. How many people do you employ?

----------------------------------------------------------------------------------------------------------------
                                                                               Weighted           Unweighted
                                                                               (percent)           (percent)
----------------------------------------------------------------------------------------------------------------
1-4.....................................................................                 57                  35
5-9.....................................................................                 20                  12
10-24...................................................................                 14                  28
5-99....................................................................                  8                  23
Don't know..............................................................                  2                   2
                                                                         ---------------------------------------
    Total...............................................................                100                 100

n=500
----------------------------------------------------------------------------------------------------------------

    D4. During your last fiscal year, were your sales less than 
$250,000; $250,000 to less than $500,000; $500,000 to less than $1 
million; $1 million to less than $2 million; $2 million to less than $5 
million; $5 million to less than $10 million; $10 million or more?

                                                                 Percent
Less than $250,000................................................    42
$250,000 to $499,999..............................................    18
$500,000 to $999,999..............................................    10
$1 million to $1,999,999..........................................    12
1$2 million to $4,999,999.........................................     4
$5 million to $9,999,999..........................................     3
$10 million or more...............................................     2
Don't know........................................................     9
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    D5. How long have you owned or operated this business?

                                                                 Percent
Less than 6 years.................................................    27
6-10 years........................................................    23
11-20 years.......................................................    28
21+ years.........................................................    20
Don't know........................................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    D6. Please tell me your age?

                                                                 Percent
Under 30..........................................................     4
30-39.............................................................    18
40-49.............................................................    31
50+...............................................................    45
Don't know........................................................     2
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500

    D7. Gender?

                                                                 Percent
Male..............................................................    74
Female............................................................    26
                        -----------------------------------------------------------------
                        ________________________________________________
    Total.........................................................   100

n=500
                                 ______
                                 

        Responses of William J. Dennis to Questions Submitted by

                            Chairman Bennett

    Question. Mr. Dennis, I find your testimony is unnecessarily 
leaning to the optimistic side. The Wells-Fargo sponsored survey, which 
samples approximately 4.8 million small employers, brings out these 
facts, and correct me if I'm wrong:
  --almost \1/3\ of small employers reported that they would lose over 
        30 percent of their sales or production for the period their 
        computers and automated processes were down. That translates to 
        well over 1 million small employers who are doing at best 70 
        percent of the business they were doing before Y2K problems 
        hit.
    Do you think it is appropriate to focus only on the extreme cases 
which is the 330,000 or so businesses you refer to in your testimony? 
Wouldn't most small employers consider losing over 30 percent of sales 
or production significant? For instance, in this city, a large number 
of small vendors and eateries folded just due to the three week 
Government furlough in 1995.
    Answer. Your point is well-taken. Small businesses do not have to 
be completely shut-down in order to experience significant adverse 
impacts. This is particularly true if the loss of sales/production 
occurs over an extended period. In fact, the length of the loss may be 
more critical than the daily percentage of loss. For example, if a 
small business owner lost 100 percent of sales or production for a day, 
he would be unhappy. If he lost 30 percent for a month, he could be in 
serious trouble. Unfortunately, we could not ask a question on the 
survey about duration of downtime and expect an informed response.
    The report specifically notes that the difficulty with waiting 
until January 1, 2000, to resolve a Y2K incident is that a small 
business owner probably will not be able to get anyone to fix the 
problem right away. Other customers, probably large businesses and 
governments, will have all the qualified locked-in. The small business 
will have to hobble along. When it finally does get someone in, the 
cost will be significantly higher than it would have been. The unknown 
length of downtime is, I believe, one of the strongest arguments for 
action.
    Your one-third calculation is not quite correct. That figure covers 
the population with direct exposure including those who have and have 
not taken action. Including only those who have taken no action and who 
do not plan any, the number directly impacted is under one million. 
Still, that is a very large number, large enough to create considerable 
concern.
    Question. You state that over 80 percent of small employers are 
exposed to Y2K problems though their computers, but a majority of them 
plan no action as of the survey done in April of this year. You also 
say that "government isn't particularly credible with small business 
owners nor are its communications." You do suggest working with trade 
associations to spread the Y2K message, but I'm wondering if this alone 
is sufficient. Can you provide the Senate with any suggestions that the 
Congress can take action on?
    Your written statement astutely points out that small employers 
have indirect exposure to Y2K problems as well as direct exposures, for 
instance with a customer or supplier whose computers the small employer 
must access. You estimate that this may extend to practically all small 
employers. Yet we learn from other parts of your statement that this 
group is particularly in the dark on the Y2K issue and is likely to 
remain so. This is very troubling. What can be done to get this very 
important part of our economy to pay more attention to this issue that 
may cripple them in just 450 days from now?
    Answer. The two most influential groups for small business owners 
are industry-specific trade associations and peers. Small businessmen 
and women are most likely to listen to and respond to these two groups.
    I have no doubt that the Committee could exert considerable 
influence on industry-specific associations through direct 
communication. The same would be true for local organizations whether 
as large as the Washington Board of Trade or neighborhood business 
organizations. This is no mean task. The Encyclopedia of Associations 
lists thousands of them. But I think it would be a useful endeavor. 
Further, small business owners will probably be more receptive to the 
message as January 1, 2000 approaches. They usually face a myriad of 
business problems. Y2K is just one of them. So as the deadline nears, 
owners will be paying more attention.
    The second thing that you can do is to encourage larger firms and 
state and local governments to use their pulpits. They do business with 
millions of small firms. They could certainly provide a public service 
by doing as little as enclosing a letter about Y2K to their customers 
and suppliers.
    I would not expend my resources on media events or national 
campaigns in the traditional sense. Who has enough credibility and 
visibility to be taken seriously? Y2K is a business problem and 
political leaders lack credibility with Main Street on such matters.
    It is also important that the Committee or any other group make a 
credible case. As the survey shows, a large number of owners simply do 
not believe either that a problem exists or that the Y2K problem is 
serious enough to warrant attention. That means they need information 
clearly outlining the costs and consequences of not taking preventive 
action. For example, if I believe that I can replace an infected 
computer and software for $2,000 and that a consultant will cost $1,000 
to tell me I have a problem, then why shouldn't I adopt a wait and see 
attitude? That is a reasonable risk. But if you tell me, the problem 
will screw-up my records, perhaps irretrievably, and that I probably 
won't be able to get anyone to come in and fix what I have left for a 
month, you have my attention.
    Though the data do not show it, I personally believe that a 
substantial number also simply don't know where to begin. Many owners 
are not comfortable with the technology. To draw an analogy, they can 
drive it productively but don't ask them what's under the hood or how 
it can be fixed.
                               __________

           Prepared Statement of Senator Christopher J. Dodd

    Thank you, Mr. Chairman, for holding this hearing. As you 
mentioned, this is the ninth hearing that this Committee has held. You 
have frequently compared your role in the Y2K issue to that of Paul 
Revere, but you, Senator Bennet, have logged far more hours than that 
legendary patriot. We know that the Y2K threat is coming. We know the 
time remaining between now and the turning of the millennium to the 
second. We know we must alert our citizenry. If the polls are correct, 
and if only a small percentage of Americans have heard of the year 2000 
computer problem, then we have an extraordinary task at hand.
    This Committee has held eight hearings, covering such wide ranging 
subjects as electricity grids, health care, financial markets, 
telecommunications, emergency services, pensions and mutual funds, and 
now we come together to examine small and large businesses.
    Perhaps the single most important message coming out of these 
hearings is that the hour is late and the vast majority of the planet 
is not prepared. That the United States leads the world in Y2K 
remediation is a thin silver lining when our hearings indicate that 
many sectors within the United States are not prepared, or just 
starting their Y2K planning. Just one of many areas that deeply 
concerns me is the small business sector. Many small businesses are 
either unaware or unconcerned about the Y2K problem. Yet they are 
crucial to the welfare of the American economy. They employ nearly 18 
million American workers. They provide 51 percent of the private sector 
output. Despite the label ``small business,'' they are by no means 
small in their importance. Whether they realize their role in our Y2K 
challenge is, unfortunately, another matter. Small businesses seem to 
think that they can hide from the Y2K problem. In a recent Wells Fargo 
Bank survey of small business Y2K preparedness, 81 percent of small 
businesses surveyed knew of the problem, but no more than 25 percent 
had acted on that information. This is unacceptable.
    I would like to borrow one of Senator Bennett's metaphors which 
compares this committee to the National Weather Service. We have a 
worldwide Y2K storm brewing which, unlike the tropical storms and other 
disasters that the National Weather Service tracks, is at least 
partially controllable. We still have more than a year to identify the 
most critical systems and fix them. Unfortunately, we still lack the 
kind of international storm warning and response system that this issue 
requires. We need an international focus that can identify the global 
risk and take appropriate action to protect our interests in energy, 
food supplies, critical commodities and manufactured products. Until we 
see this kind of joint domestic and international participation, the 
Year 2000 technology problem will continue to pose a significant 
physical and financial risk to American and international citizens 
alike.
    Interconnectivity is another appropriate theme for this hearings. 
Almost all business sectors have some common Y2K factors such as 
computers, software and microprocessors. As we examine each industry in 
detail we are discovering that interconnectivity between businesses is 
one of the greatest issues we face. Most businesses are dependent on 
their suppliers, distributors, and customers through some means of 
electronic data interchange. The digital device that sends and receives 
these messages is connected to some kind of computer or microprocessor 
that is run by software, any part of which may not be Y2K compliant. It 
only takes one part of the link to break for the exchange of data to 
come to an abrupt halt. Thus the hard work of many internally Y2K 
compliant companies could be for naught if their suppliers and 
distributors are not in synch with their respective Y2K remediation 
efforts. We look forward to today's witnesses discussing this issue 
with the committee.
    The Senate as well as the American public have a keen interest in 
monitoring the response levels that public and private organizations 
have displayed with respect to the Y2K problem. Most are aware of their 
civic duties, and have volunteered to tell the Y2K story, recognizing 
that their experiences will be useful to others. But there are other 
companies and industries that willfully and knowingly chose not to 
cooperate with our efforts. In many cases, these are companies whose 
products are essential for the day-to-day existence of the average 
American. For example, many major representatives of the food industry 
have decided that it is not in their best interest to tell the public 
the Y2K status of their industry. Their industry associations were 
equally unsupportive.
    Based on the eight hearings that preceded this one, we have arrived 
at a fairly clear picture of our Y2K strengths and weaknesses. In 
general, all those affected with the Y2K bug have arrived at the party 
well beyond ``fashionably late.'' However, today's hearing provides us 
with one more opportunity to improve our response time for the ultimate 
deadline, the one just 450 days away. The pharmaceutical industry will 
give us a complete picture of what it means when we talk about Y2K 
readiness. Their testimony highlights the extremely complicated and 
interconnected supply lines that provide millions of Americans with 
essential prescription drugs.
    The pharmaceutical industry includes a large international 
component. For example, diabetics can live long and healthy lives with 
the help of regular doses of insulin, a substance that is mainly 
produced in Denmark. If Denmark's insulin production is affected by the 
Y2K bug or any other disaster, the thousands of Americans that depend 
on this drug to control their diabetes will find themselves in grave 
danger. Insulin is just one product that embodies the interdependent 
nature of the world in terms of business and economics, as well as 
health and social welfare. We hope the Danes, and the rest of the 
international community are as concerned about Y2K as we are. Steps 
must be taken to insure that the factories that produce insulin, and 
other such life-saving drugs can function properly after January 1, 
2000.
    The spectrum of American business centers around major producers, 
much as it has since the invention of commerce. If business history 
teaches us anything, its is the symbiotic relationship between large 
and small businesses. Large corporations need small companies to tailor 
the delivery of goods and services to meet consumer needs. This morning 
we will see Y2K issues from both ends of the business spectrum. 
Representatives of the 5 million small businesses, most with less than 
500 employees, have the unique challenge of meeting Y2K obligations 
which, in some cases, may be just as large as the ones facing companies 
with tens of thousands of employees.
    Again, thank you Mr. Chairman for your leadership, and thank you to 
our witnesses for their cooperation.
                               __________

              Prepared Statement of Hon. Fred P. Hochberg

    Thank you, Mr. Chairman, for inviting the U. S. Small Business 
Administration (SBA) to testify before the Senate Special Committee on 
the Year 2000 Technology Problem. My name is Fred P. Hochberg, Deputy 
Administrator of the SBA, and I am here today on behalf of 
Administrator Alvarez, who joins me in welcoming the opportunity to 
discuss the so-called ``Year 2000'' or ``Y2K'' problem facing the 
nation's 23.6 million small businesses and their customers. We also 
look forward to providing information to the Committee on SBA's efforts 
to improve awareness of this problem and to minimize its impact on 
small businesses.
    We at the SBA take the Year 2000 issue very seriously and the 
President has directed SBA to take a lead role in addressing this 
concern as it affects small business. The full extent to which the Year 
2000 bug may affect businesses is unknown. However, it is clear that 
the damage can be minimized with foresight and preparation. My 
testimony consists of two parts--what SBA is doing to insure that our 
own computer systems are Y2K compliant and what SBA is doing to help 
our customers understand the problem and have some information on how 
to address it in their own businesses.
                         sba's computer systems
    The SBA's Year 2000 awareness efforts actually began in 1996 when 
we realized that, in order to better serve small businesses, we should 
improve our own internal computer protections. I am pleased to inform 
you that as of September 1998, we have completed the renovation of the 
computer programs in all of SBA's mission critical systems. By the end 
of October we will have completed the validation and implementation of 
these programs--well ahead of targeted goals for the federal 
government. Our non-mission critical systems also have been identified 
and, currently, we are working with our field offices to continue 
corrections of local systems in these offices.
    We are quite proud of the fact that the SBA was one of only three 
agencies to earn an ``A'' for our Y2K work when the House Committee on 
Government Reform and Oversight's Subcommittee on Government 
Management, Information and Technology issued its report card last 
month on the Federal Government's progress in addressing the Y2K issue.
    Because we are ahead of schedule, we plan to conduct additional 
systems integration and data exchange testing during the first quarter 
of fiscal year 1999. We will correct any identified problems by the end 
of the second quarter.
    To avoid taking anything for granted, we have established a 
Business Continuity and Contingency Planning Committee. I chair this 
committee and it is composed of the SBA's top managers. Our goal is to 
ensure that SBA is prepared to deliver its services regardless of 
whatever problems we may encounter as a result of the Y2K issue.
               sba is seeking ways to help our customers
    Once our internal improvement efforts were underway, we turned our 
efforts towards the private sector. We wanted to bring the seriousness 
of this problem to the attention of small business owners without 
creating undue panic. In addition, by educating small businesses that 
they could have a problem, we sought to prevent them from making any 
unnecessary expenditures toward fixing this problem.
    Initially, many people--including the SBA--believed users of new 
desktop hardware with off-the-shelf or ``shrink-wrapped'' software 
would be protected from the Year 2000 problem. SBA convened two 
separate industry review groups. The first consisted of the mainframe 
computer and independent software industries and the second represented 
desktop computer manufacturers and ``shrink-wrapped'' software 
producers. They helped correct our perceptions of the Y2K problem and 
gave us suggestions on how to present the problem to the small business 
community (Participants listed in Attachment 1). These review groups 
were instrumental in helping the SBA develop steps businesses can take 
to better prepare themselves to address the Y2K problem.
    The experts told us that even recently purchased equipment could be 
threatened by the Y2K problem. Validated systems may not actually be 
Year 2000-compliant if users have modified them by entering non-
compliant data.
    In addition, there may be telecommunications problems associated 
with the failure of microprocessors or ``embedded chips'' that are 
date-sensitive. This could affect credit card readers, automatic teller 
machines, fax machines, pager and e-mail service. Other items of 
concern to small businesses could be the possible chip-related failures 
of heating and ventilation systems, security alarms, and even 
elevators.
                  year 2000 awareness program message
    As a result of our work with the industry experts, we developed the 
following advice that anchors our Y2K outreach efforts.
    First, businesses are encouraged to conduct a self-assessment to 
see if they may have affected computer hardware and software, as well 
as any electronic equipment using date-sensitive embedded computer 
chips. Operating systems, like DOS or Windows, should be evaluated for 
their vulnerability to the Year 2000 bug. Products like Lotus 1-2-3, 
Oracle, or Excel, which may contain date-reliant data, should also be 
reviewed.
    We are aware that it is not enough for small businesses just to 
take care of their own Y2K problems. They need to assure themselves 
that the companies in their supply and distribution network are also 
Y2K compliant. As we continue to revise and enhance our message to the 
small business community, we will encourage them to develop contingency 
plans for keeping their businesses operating. We believe this a very 
prudent action to take for ensuring business continuity in the event 
their normal suppliers or other supporting vendors are unable to 
provide the products and services they need.
    This is not just a computer problem, however, as other equipment 
with embedded computer chips could also be at risk. Anything that uses 
a calendar or date record should be assessed. Thorough assessment of 
elevators, machinery and other mechanized systems is key. The theme of 
this message is that it is not too soon to begin evaluating one'*s 
vulnerability to the Year 2000 threat.
    Second, businesses are encouraged to take action immediately. 
Corrective actions could range from a change in software to hiring a 
consultant to repair any problems. Repairs may not necessarily be 
expensive and we are encouraging businesses to contact their computer 
hardware and software vendors first. Fixing any Y2K problems discovered 
in the self-assessment is a must, and testing the repairs is vital. 
Upon completion of repairs, businesses must test and re-test to assure 
they won't have any problems. Having a contingency plan is also 
necessary because businesses can never be sure if their vendors and 
other contacts are themselves compliant.
    Third, businesses are encouraged to stay informed about this issue. 
Accurate Y2K compliance information could change and business owners 
should keep abreast of any modifications they may need to make in their 
equipment or operations. A change in Year 2000 compliance by one 
business, regardless of size, could have a ripple effect for smaller 
businesses that rely upon its services or supply inventory. Visiting 
various Internet Y2K websites is a great way to stay current.
    These steps form the basic context of our public awareness program. 
We have prepared materials and media to notify small businesses about 
the Y2K issue. They include posters, flyers, a fact sheet, a public 
service announcement (PSA) and phone hotline. Each of these provides 
basic information and refers people to the SBA website (www.sba.gov). 
The website features information on how businesses can protect 
themselves from the Year 2000 problem (Attachment 2). The website also 
provides ``hyperlinks'' to major computer hardware and software 
manufacturers and distributors to aid individuals in safeguarding their 
equipment and software from the Y2K Problem. Since its inception in 
February 1998, the site has been ``hit,'' or visited, over 840,000 
times.
    Additionally, the SBA is making information available through a new 
toll-free phone number, 1-877-RUY2KOK. Started on June 23, 1998, the 
phone line is an automated ``fax-back'' system which allows callers to 
have Year 2000 information faxed back to them at the conclusion of the 
call.
                  year 2000 awareness program outreach
    Our coordinated national awareness program asks small businesses 
``Are You Y2K OK?'' Our traditional resource partners, such as our 
lending partners, Small Business Development Centers, SCORE volunteers 
and small business trade associations, in addition to our private 
sector supporters, have agreed to help spread our message. For example 
the American Bankers Association included all of our materials in their 
Year 2000 member resource guide. We look forward to working with the 
private sector to leverage our resources, experience and knowledge with 
the Y2K issue to help small businesses become compliant. Since our Year 
2000 kick-off in early June, SBA's efforts have resulted in numerous 
public forums with SBA representatives reaching a broad radio and TV 
audience.
    In addition, the SBA has conducted Y2K training events across the 
country. Together with IBM and the U.S. Chamber of Commerce, the SBA 
has developed a full-page advertisement on Y2K preparedness, to be 
published in Nation's Business Magazine this month. As a result of the 
emphasis we have placed on this issue with our district offices, the 
SBA's Y2K awareness campaign has been featured in more than 200 
metropolitan and local newspapers since June. Administrator Alvarez was 
recently featured in a Y2K piece by Fortune magazine.
    Since June, we have distributed more than 2 million Y2K flyers 
through our private sector partners, such as financial institutions, 
power companies and newspapers. We are also very excited that we 
recently reached an agreement with the Internal Revenue Service to 
distribute nationwide, through their next mailing to small business 
owners, 6.5 million copies of our ``Are You Y2K OK?'' flyers. Requests 
for our ``Are You Y2K OK?'' materials, as well as for public service 
announcements and general Year 2000 information, continue to pour in. 
We are committed to meeting these requests and have plans to update our 
material later this year.
    The SBA continues to work hard to build alliances with trade and 
industry associations. We believe it is important to have as much help 
as possible in carrying our Year 2000 message.
                            y2k action week
    Before I conclude my testimony, let me tell you about an exciting 
activity we have planned for later this month. We will sponsor a 
nationwide initiative during the week of October 19th to focus 
government, business and media attention on the Y2K problem. During 
that week, we are asking all of SBA's district offices and resource 
partners to sponsor at least one major Y2K awareness event. It is our 
hope that we can reach literally tens of thousands of small businesses 
during this week and motivate them to take action now on this serious 
management issue.
    We have received strong support from John Koskinen and his staff at 
the White House Y2K Office and will be joined in this effort by the 
Departments of Commerce, Agriculture, Interior, Transportation, the 
Social Security Administration, Internal Revenue Service and the U.S. 
Postal Service. Attendees at these events will then take the message 
back into their local communities. We hope that this issue will then be 
raised at local chambers of commerce and other business organization's 
meetings to assist us in getting the work out to the small business 
community.
                               conclusion
    As we update both our material and our messages, we plan to 
continue encouraging small businesses to stay informed on this issue. 
Business owners can get up-to-date information by reading the 
newspapers, watching the nightly news, visiting the SBA website 
(www.sba.gov) and other websites and contacting their vendors. The best 
defense is staying informed and taking action accordingly. And most 
important, everyone needs to take action now; it is too late to start 
early. We recognize that some businesses may be Year 2000 compliant 
already. However, the risks are too great not to check. Small business 
owners need to make informed decisions about this issue.
    The reaction to our efforts has been overwhelmingly positive. We 
both need and appreciate the support we've enjoyed from Congress as 
well as the businesses and trade groups who have allied themselves with 
our effort. As you return to your respective states in the coming weeks 
for town hall meetings and other public gatherings, we urge you to 
carry forward the Year 2000 message. We are happy to provide materials 
or help you communicate with your small business constituents any way 
we can. The Year 2000 issue can be managed if businesses take 
responsible action now while there is still time.
    Thank you, Mr. Chairman, for inviting the SBA to testify. I look 
forward to working with you. I will be happy to answer any questions.
                             [attachment 1]

      Participants in SBA Year 2000 Focus Group I, March 30, 1998

Mr. John Koskinen, Assistant to the President, Chair, President's 
            Council on Y2K Conversion
Mr. Jim Morrison, Senior Analyst, National Association for the Self-
            Employed
Ms. Heidi Hooper, Y2K Program Manager, Information Technology 
            Association of America
Mr. Anthony W. Powell, President, Anthony W. Powell, Inc.
Mr. Alton Turner, Next Millennium Consultant. Inc.
Mr. A. Nayab Siddiqui, President, Scientific Systems & Software 
            International Corporation
Mr. Jim Berish, Government Affairs, Hewlett Packard
Dr. Kam F. Tse, Contemporary Technology, Inc.
Mr. Andrew Pegalis, Next Millennium Consultant
Mr. Scott Davies, Y2K Executive, Global Government Industry, IBM 
            Corporation
Mr. Bob Cohen, Vice President of Communications, Information Technology 
            Association of America
Mr. Bob Price, Corporate Y2K Manager, Digital Equipment Corporation
Mr. Robert Wagman, Executive Editor, Millennium Information Service
Mr. David Voight Director, Small Business Center, Chamber of Commerce
Mr. Mike Roush, Small Business Technology Coalition
Ms. Susan Tuttle, Program Manager, IBM
Mr. David Y. Peyton, Director, Technology Policy, National Association 
            of Manufacturers

      Participants in SBA Year 2000 Focus Group II, April 23, 1998

Ms. Moira Praxedes, Systems Analyst, Gateway 2000
Ms. Lynn Silver, Senior Education Policy Manager, Apple Computer, Inc.
Ms. Deborah Morse, Y2K Coordinator for Corel Products, Corel 
            Corporation
Mr. Dave Cunningham, Program Manager for Y2K, Dell Computer Corporation
Ms. Beth Land, Corporate Strategist, Novell Corporation
Mr. Rolin Hua, Vice President, Corporate Development SMAC Data Systems
Mr. Ted Graig, Government Account Representative, Microsoft Corporation
Mr. Roger Geides, Business Development Manager, Microsoft Corporation
Mr. Scott Davies, Y2K Executive, Global Government Industry, IBM 
            Corporation
Mr. Mike Roush, Small Business Technology Coalition
Ms. Heidi Hooper, Y2K Program Manager, Information Technology 
            Association of America
Ms. Nancy Peters, Information Technology Association of America
Mr. David Voight, Director, Small Business Center, U. S. Chamber of 
            Commerce
Ms. Deborah Spencer, Technical Account Manager, Lotus Development 
            Corporation
Mr. Bernie McKay, Intuit Corporation
                             [attachment 2]

                         The Year 2000 Problem

             are you ready to do business in the year 2000?
    If you think you are, have you completely tested all your systems 
to make sure you won't have problems? Have you talked to your business 
suppliers and other business partners to ensure that they are ready? 
Whether or not you are ready, we invite you to reviewthis document on 
year 2000 readiness.
                  what is the year 2000 problem * * *
    The year 2000 problem started decades ago when earlycomputers had 
very limited memory and storage space. Programmers saved space where 
they could by storing the absolute minimum amount of data necessary for 
business functions. One place they saved space was the date, in which 
years were represented by their last two digits. So, 1946 was 
represented and stored as 46, 1967 was stored as 67, and so forth.
    Reducing years to two digits works well as long as the century does 
not change. As the next century approaches, however, computers that 
still maintain years as two digits may not recognize that the year 2000 
is greater than the previous year. Although a computer may recognize 
that 99 is greater than 98 (as in 1999 and 1998), it may not recognize 
that 00 is greater than 99 (as in 2000 and 1999) and may consider it 
1900.
                      and why is it so important?
    Data processing systems used in all types of businesses rely 
heavily on dates and date processing. If the computer code does not 
recognize that one date is greater than another, it may not be able 
toprocess properly and may produce erroneous results. For example, if a 
loan is entered into a program with a start date of 1998 and a payoff 
date of 2005 (98 and 05), the program may subtract 98 from 05 resulting 
in a term of -93 years, rather than 7 years. This problem may put a 
business at risk because it could effect its cash flow, inventory, 
taxes, interest calculations, financial forecasting,customer relations, 
and many other areas.
                           how big a problem?
    This worldwide problem not only affects mainframe computers and 
their programs, but also personal computers and every piece of hardware 
that contains a microchip, including:
  --manufacturing control systems
  --telecommunications
  --money transfer and other financial systems
  --gas, water, and electrical utilities
  --stock markets
  --transportation
  --national defense
  --home computers, security systems, and appliances
    Beyond your own business computer systems, there is also the 
``business supply chain.'' You buy goods and services from some 
businesses, and you sell goods and services to others. If your trading 
partners fail, your cash flow can suffer critically.
    In 1996, the Gartner Group estimated that the year 2000 problem 
would cost $600 billion to fix. Later estimates by Lloyds of London 
have been as high as $1 trillion. Economist Ed Yardeni has estimated 
that there is a 35 percent chance of a global recession because some 
businesses will be unable to deal with their year 2000 problems. And, 
unlike most projects, the final due date can not be changed with the 
year 2000 problem--the year 2000 will arrive whether we areready or 
not.
                          no ``silver bullet''
    According to Peter de Jager, an internationally recognized expert 
in the year 2000 problem, there is no single solution, no so-called 
``silver bullet.'' Because each system processes dates in different 
ways, each system must be assessed and corrected.
                          you can't do nothing
    If you do nothing to fix this problem, your business may fail. 
Worse, because the year 2000 problem is a foreseeable problem, the 
officers and directors of your organization could be held personally 
liable in shareholder suits.
    The Federal Reserve recognizes that small businesses are the 
backbone of the economy and wants to ensure your business's continued 
good health. With estimates predicting that 1 percent to 7 percent of 
U.S. businesses will fail because of the year 2000 problem, the Federal 
Reserve is encouraging all businesses to address the problem as early 
as possible.
                       your business is at stake
    Imagine if you were unable to retrieve your accounts receivable 
records, or if one of your customers placed an order with you in late 
1999 for delivery in early 2000, and that order was lost. Imagine if 
you could not correctly calculate the taxes or insurance premiums to be 
withheld for your employees, or if your inventory records were lost.
    The year 2000 problem may affect your business in countless ways. 
Your personal computers may reset themselves to the year 1980 or 1900 
because the microchip that maintains the clock/calendar does 
notrecognize 2000 as a valid year. A photocopier that records the count 
of the number of copies made in a day may stop working in the year 2000 
because the microchip may fail to recognize that ``00'' is a valid 
year. A security system may fail to operate properly and might allow 
unauthorized access to your buildings. A preprogrammed fax machine used 
to send announcements to your customers may stop working after 12/31/
1999. A voice mail phone system may fail to record messages from 
customers or suppliers. A preprogrammed money transfer from a savings 
into a checking account to cover checks to your creditors may not take 
place.
    Reports of year 2000 problems are already surfacing in the media. 
In early August 1997, the owners of a grocery store chain in Michigan 
sued the manufacturer of their cash registers because the terminals 
would not recognize credit or debit cards with an expiration date of 
00. The owners claimed they had lost thousands of dollars worth of 
business because the terminals rejected customers with valid debit/
credit cards.
                it's not just a data processing problem
    The year 2000 problem is a business problem. The decisions to spend 
the money, time, and resources are business decisions. The costs of 
making your organization compliant may be substantial, so the decisions 
on what to fix and what to risk not fixing need to be made at the 
highest levels.
                    managing to year 2000 readiness
    Correcting the year 2000 problem in your organization will require 
senior management involvement. The Board of Directors should be 
involved. You may want to form a year 2000 team, and include legal and 
audit representatives. If appropriate to your business, you may want to 
designate one person as your year 2000 project manager with 
responsibility for making your entire business ready for the century 
date change. You may also want to designate one person in 
eachfunctional area as a year 2000 coordinator or representative with 
responsibility for tracking that area's readiness activities. Year 2000 
readiness must be made a priority from the top down.
    An overall project plan with milestones and deadlines will be 
critical to your efforts. Each functional area should be encouraged to 
develop its own plans.
    Hint--A project planning and tracking tool, such as 
Timeline<Register> or Microsoft<Register> Project, will help you track 
tasks that are due to start, past due, or are on the critical path.
                           y2k steps to take 
[GRAPHIC] [TIFF OMITTED] T7OC98G.003

                                 ______
                                 

                   Y2K Checklists for Small Business

    No single Y2K checklist fits everyone's needs since businesses have 
a wide variety of services and technologies. We are offering several 
that focus on small business needs, starting with the one below from 
the Federal Reserve Board. Links to additional checklists, definitions, 
and resources are provided as well. This page is a ``work in progress'' 
and will grow as we come across more information. Keep in mind, there 
are many excellent checklists on the Internet. Browse the internet and 
if you find one you like, let us know!
                      suggested steps to readiness
    The most important first step is to develop a strategy to make your 
business ready for the year 2000. Many consulting firms have developed 
different strategies with 3 to 15 steps to take to help companies deal 
with the year 2000 problem. Information about these different plans can 
be found on the Internet or in trade journals.
    Here is a simple five-step plan to achieve year 2000 readiness.
(1) Awareness--educating and involving all levels of your organization 
        in solving the problem
    A crucial step in awareness is creating a communication strategy to 
make certain that everyone is informed and that management has the 
information it needs to make decisions. Holding seminars or meetings to 
educate people and bringing in outside speakers are two ways to 
increase awareness.
    A critical aspect of awareness is to develop an internal standard 
for year 2000 readiness. The Federal Reserve uses the following 
definition: ``Systems (e.g., software, hardware, firmware) are defined 
as ready if they can demonstrate correct management and manipulation of 
data involving dates, including single-century and multi-century 
formulas, without causing an abnormally ended scenario within the 
system or generating incorrect values involving such dates.''
    The awareness phase never ends. As people move to other jobs, and 
new people are hired, they must be educated. There is also an ongoing 
need to keep your staff and business partners informed.
(2) Inventory--creating your checklist toward year 2000 readiness
    In this phase, you should identify and list all of the different 
computer-based systems, components (such as in-house developed systems, 
purchased software, computers and associated hardware), service 
providers, and hardware that contain microchips that support your 
business. Each entry on your list should be ranked by how critical it 
is to your business.
    Indicate on your inventory whether the component is hardware, 
software, or a service. It may be useful to note which components 
support your telephone or data communications networks. If a computer-
based system uses a vendor-supplied package, record the name of the 
vendor and the release number, if known.
    Hints--Keeping your inventory on a spreadsheet or database makes it 
easier to sort and report on items that are not ready. It is also 
helpful to develop an identification system to help track components. 
For each item on the inventory, assign a person who will be responsible 
for assessing that item and preparing for the year 2000.
    Reminder--Some systems will begin failing before the century date 
changes because they perform forecasting or future processing. This is 
called ``time horizon to failure'' and should be considered during 
inventory and assessment. The ``time horizon to failure'' should be 
listed on your inventory if it is known.
(3) Assessment--examining how severe and widespread the problem is in 
        your business and what needs to be fixed
    Starting with the most critical items on the inventory, determine 
which systems are date-sensitive and if they will fail when the century 
changes. Systems with an imminent ``time horizon to failure'' should 
also be assessed first. A date-sensitive system is one that manipulates 
or works with dates in some way, or a system that operates differently 
based upon the date. Please refer to the questions later in this 
brochure to keep in mind when assessing your systems.
    Examples of date-sensitive systems include ones that perform any 
kind of forecasting or projections through time, such as calculating 
interest on a loan or projecting inventory levels. Other examples of 
date-sensitive systems are those which retrieve records based on a date 
(such as invoices), or systems that sort items by date (such as 
accounting or inventory systems). Examples of date-sensitive hardware 
include lighting systems that switch on automatically on weekdays, 
manufacturing control systems, and scanners or card readers that read 
ID badges or credit/debit cards.
    One way to assess a system is to look at the computer code and 
follow the logic. If this is not possible because the system is based 
on a purchased package, you should contact the vendor.
    Another way to assess a system is to run it as if it were already 
the year 2000. Running the system with dates other than the current 
date may require resetting the system date. There are risks involved in 
resetting system dates. Each organization should evaluate the impact of 
resetting system dates. This testing may require that your test data be 
``aged'' properly so it contains the correct internal dates.
    Hint--There are risks involved in rolling the dates on your 
computer systems forward. Make sure you understand what these risks are 
for your organization.
    For some specialized systems, such as building or manufacturing 
control systems, or systems with embedded microchips, you may need to 
have the vendor work with your staff to test and assess the system.
    Once you have determined the state of readiness for each system and 
component listed in your inventory, you should develop a strategy for 
dealing with those systems that have to be fixed. There are only three 
possible strategies: repair, replace, or retire the system.
    If you decide to repair a system, there are two possible repair 
strategies or approaches: windowing or date expansion. The date 
expansion strategy involves expanding all 2-digit year fields in your 
system's data files and in the programs that process those files so 
they can hold the century as well as the 2-digit year. For example, a 
2-digit year field YY might be expanded to a 4-digit CCYY field, where 
CC is the century. The date expansion may involve increasing the size 
of files that hold your data.
    The windowing approach involves inserting logic into your programs 
that interprets year fields to determine what century the year falls 
into before the date field is used in calculations, comparisons or 
sorting. An example of this logic: if the year is between 00 and 49, 
the century is 20, otherwise the century is 19. This is called the 50 
year window. There are other windows. You need to determine which one 
is appropriate for your particular system. Whatever windowing logic is 
selected, we recommend consistency throughout your organization to 
avoid later errors and confusion.
    Most businesses are taking a mixed approach, fixing some systems 
using windowing logic and others with date expansion. Some are using 
such a mixed approach to fix even large systems. Your choice depends on 
your own individual needs.
    If your strategy is to replace a non-ready system, you have several 
choices. You can build the replacement in-house (or hire contractors to 
work with your staff to build it), you can purchase a replacement 
system from a vendor, or you can outsource that particular line of 
business to a service bureau or other outside service provider. It is 
very important to determine when the replacement will be ready. If the 
replacement won't be tested and installed until after the ``time 
horizon to failure,'' you may be forced into a repair strategy.
    A business system that operates in isolation is very rare. Most 
interface with other business systems to exchange data, and some 
interface with systems outside your organization. Your strategy to 
replace or repair non-ready systems should take into account those 
systems' interfaces with other systems, both within and outside your 
organization. For example, if you opt for date expansion, you must 
consider the impact of sending larger files to all interfaces. If you 
opt for windowing, all interfaces must be informed what the windowing 
scheme is.
    Hint--We recommend that you develop a chart that shows the systems 
that have interfaces, what those interfaces are, and when they occur.
    Different systems that interface with each other may have different 
schedules for assessment, correction, and implementation. It may be 
necessary to build ``bridges'' between systems that are ready for the 
year 2000 and those that are not. These bridges, which are usually 
temporary programs, take data from one system and modify it to make the 
format correct for the interfacing system. Careful, detailed planning 
will be required to handle these situations.
    When you find that a system is not year 2000 ready, determine how 
critical that system is to your business. For example, if the system 
prints an invalid date on an internally used report, you may decide 
that this problem is not significant enough to address. If, however, 
the system loses track of inventory data or fails to forecast properly, 
it should be fixed.
    Hint--As you purchase new computers, packages, and other hardware, 
upgrade existing packages, and develop new lines of business, remember 
that this new equipment needs to be checked to ensure it is year 2000 
ready. Upgraded packages also need to be checked for readiness after 
upgrading.
(4) Correction and Testing--implementing the readiness strategy you 
        have chosen and testing the fix
    Testing is a critical aspect of any year 2000 project. Testing 
verifies that the repaired or replaced system operates properly when 
the date changes and that existing business functions (such as 
accounting, inventory control, and order tracking) continue to operate 
as expected. Testing also verifies that interfacing systems are not 
adversely affected. You should not confine your testing efforts solely 
to computer programs. Other systems (including network operating 
systems, vendor-supplied software, building infrastructure systems, 
PCs, and components with embedded microchips) should be tested to 
ensure they will not fail when the century changes.
    There are several critical tests you should perform once you've 
changed or replaced a system. The best way to see if a system is ready 
for the year 2000 is to test the system as if it were already the year 
2000. Test that the system will operate correctly after the date has 
rolled over from 12/31/1999 to 1/1/2000. Because the year 2000 is a 
leap year, you should test that your system will recognize 2/29/2000 as 
a valid date and that it will roll over from 2/28/2000 to 2/29/2000, 
and from 2/29/2000 to 3/1/2000. You should also test your fixed system 
with a date before 2000 to insure that it works. See the attachment for 
other suggested dates to test on your system.
    Warning--There are risks involved in rolling dates forward on 
computers. Some computer security systems keep track of the last time a 
user accessed a system and will revoke or inactivate that user's 
password if it has not accessed the system for a period of time. 
Rolling the date forward may cause user passwords to be inactivated by 
the security system.
    Datasets that should be retained may be marked as expired and could 
be written over. Some software packages may be leased and you may be 
paying an annual fee to the vendor. Rolling the date past the end of 
the lease may cause the software package to freeze up or generate error 
messages.
    There are several other tests that you may want to carry out, 
depending on the functions your system supports. If your system does 
end-of-week, end-of-month, end-of-quarter and/or end-of-year 
processing, these should be tested. You should test that the system 
will forecast and retrieve data properly. Set the date to a date in 
1999 and check that the system will forecast into the next century. Set 
the system to a date in the 21st century (any date after 12/31/1999) 
and test that the system will retrieve historical data from some period 
before 12/31/1999.
    Hint--Whenever possible, testing should be carried out in a test 
environment to minimize the chance of corrupting the production 
systems. Also, be careful changing historical or backup files if you 
choose date expansion. You may lose an important audit trail. We 
suggest you consult with your auditors and legal staff before changing 
historical or backup files.
    Definition--The term ``production environment'' refers to the set 
of hardware and software that supports your day-by-day operations. 
``Test environment'' refers to the hardware and software where new or 
changed systems can be tested without disturbing your day-to-day 
operations.
    Hint--Testing of changed systems should be carried out in an 
environment that is ready for the year 2000. You should work with your 
vendors to determine when their hardware platforms will be compliant 
and use those dates to build your test plans. If your vendor cannot 
supply the platform in time to meet your schedule, you should be aware 
of the risks involved and be prepared to retest your changed systems 
once the platform is ready.
(5) Implementation--moving your repaired or replaced system into your 
        production environment
    Before you install your replacement or repaired system, you should 
develop an installation plan and contingency plans. The installation 
plan lists all the files and programs that need to be moved into 
production, and all the steps to make your changed system work. Your 
installation plan may include testing in production to insure that the 
installed systems are working as expected. Contingency plans list the 
possible problems that you can foresee and what steps you will take if 
these problems occur.
    Hint--You may want to make backups of the production files from the 
old system. If possible, you may want to install the ready system and 
run it in parallel with the old system and compare results.
    Reminder--Your contingency plans should not include reverting to 
the old system. The old system is not ready for the year 2000, 
otherwise you would not be replacing or repairing it.
    Warning--In planning to replace a system, make certain that you 
allow enough time to replace all of the necessary pieces of that 
system.
                         don't get contaminated
    Once you have repaired your systems and made them year 2000 
compliant, you should take steps to make sure that subsequent changes 
do not contaminate those systems with year 2000 bugs. A system might 
get contaminated if a programmer makes changes to a repaired system and 
inadvertently changes the logic that handles the century change. A 
vendor-supplied package might also become contaminated if subsequent 
releases of the package don't include the year 2000 changes.
    Retest the year 2000 changes as part of any subsequent system 
modification effort. We recommend that you save the test data and test 
cases that were used to test the original changes and use them whenever 
you are testing other changes to that system. This is called regression 
testing. We also suggest that any new releases of vendor-supplied 
packages also be year 2000 tested.
                           personal computers
    Today personal computers are widely used in many businesses. All 
personal computers have an internal clock/calendar that maintains and 
reports the date and time. In some computers, the year is stored and 
processed as two rather than four digits. The year 2000 will affect 
these computers just as it affects other systems. If you are running 
systems on your computers that access that PC's date, these systems may 
fail or produce bad results. All PCs should be tested, regardless of 
how they are used.
    An insert in this brochure lists the steps you can follow to test 
your personal computer. You can also run PC test software that is 
available on the Internet.
    Take an organized approach to this problem. List all your PC's, 
test them for readiness, and mark those that are not ready for later 
attention. Bright fluorescent labels can be used to mark PCs as ready 
or not.
    There are several possible ways to correct this PC date problem. 
You may contact a computer retailer to investigate purchasing a new 
Basic Input/Output System (BIOS) chip that is year 2000 ready, download 
software solutions from the Internet, or replace the non-ready PC with 
a model that is.
    Hint--Anytime you reset the date on a PC, you run the risk of 
corrupting your system. You can minimize that risk either by backing up 
all of the critical files or by resetting the date in a test 
environment. Don't forget to reset the date to the correct date/time 
after you have tested the system. If you are testing a LAN file server, 
power off all of the workstations connected to that LAN before going 
through the date test procedure.
    Warning--Even a brand-new state-of-the-art PC may not be ready for 
the year 2000. New PC's should be tested before they are installed.
                       your business is not alone
    No business exists in a vacuum. Yours is part of a chain of 
customers, suppliers, utilities, and vendors. Year 2000 failures in any 
of these can impact your business. Here are some tips to protect your 
business within this chain.
    Vendor-supplied products--Many software vendors were caught by 
surprise by the year 2000 problem and some will not be able to make 
their products ready. Others may make their products ready but may not 
be able to deliver the ready software until late 1999. Some vendors may 
no longer support a particular product that you may be running, and 
other vendors may have gone out of business.
    For date-sensitive systems, contact the vendors to find out their 
readiness plans. If a vendor will not give you information about the 
readiness status of a package, or if a ready version will not be 
available until late in 1999, you should investigate an alternate 
system. Even if a vendor insists its product can handle the century 
date change, you still should test and certify it to your satisfaction. 
If the vendor insists that an upgraded version of a program package is 
ready, that package still must be tested since the vendor may have a 
different definition of readiness.
    Data processing service bureaus--If you use a service bureau for 
your data processing needs, contact it to discuss its plans for year 
2000 readiness.
    Make a list of all the services provided by your service bureau, 
ranking them according to how critical they are to your business, and 
then contact the service bureau in writing about each service. If a 
service bureau says it is ready for the year 2000, ask it to provide 
test results demonstrating this. If possible, test the service for 
yourself. If it is ready for certain services but not for others, you 
should determine what this means to your business. Decide if there is a 
``work around'' you can implement. If the service bureau says it will 
have a year 2000 version in the future, you need to assess what that 
means to your business. A date late in 1999 may be too risky.
    Utilities and services--If your local utility fails to provide you 
with water, gas, or electricity, your buildings will not be usable and 
your business will suffer. You should also contact other companies that 
provide essential services such as janitorial, repair, delivery, etc. 
You should contact all of your suppliers to discuss the state of their 
year 2000 readiness and make contingency plans.
    Record storage/retention firms--You may use such a firm to store 
critical legal documents and backup tapes offsite. These firms should 
be contacted to determine their state of readiness. It could be 
disastrous if you have an emergency and discover that your offsite 
storage firm can't find your backups.
                         other sources of help
    There are many helpful sources you can turn to for making your 
business ready for the century date change. The Internet has thousands 
of web sites dedicated to the year 2000 problem. Many sites have links 
to sources of freeware, planning tools, discussion groups, and so 
forth.
    Here is a short list of useful Web sites.
  http://www.year2000.com--Peter de Jager's Web site--a good source of 
        links to other sites
  http://www.compinfo.co.uk/y2k/manufpos.htm--contains links to 
        computer manufacturer's home pages where you can find Year 2000 
        compliance information
  http://www.software.ibm.com/year2000/--IBM's Year 2000 page
  http://www.microsoft.com/smallbiz/edge/yr2000/default.htm--
        Microsoft's Year 2000 page
  http://www.gmt-2000.com/gmt-2000/homepage--frameset.html--the link to 
        Greenwich Mean Time's home page with evaluations of PC testers 
        and BIOS chips--useful for PC evaluation
  http://pw2.netcom.com/helliott/00.htm--The so-called ``Mother of all 
        Y2K link sites'' contains many links to other sites
  http://www.jks.co.uk/y2ki/confer/notices/dtisme01.htm--link to a 
        report ``Helping the Small Business Tackle Year 2000''
  http://www.isquare.com/y2k.htm--The Small Business Advisor Web site
  http://www.bog.frb.fed.us/y2k/--The Year 2000 page of the Board of 
        Governors of the Federal Reserve Bank
  http://www.ffiec.gov/y2k/--The Year 2000 page of the Federal 
        Financial Institutions Examination Council
  http://www.frbsf.org/fiservices/cdc--The Federal Reserve Bank of San 
        Francisco's year 2000 page
    Professional organizations or trade associations may be able to 
provide you with support and advice. There are many consulting firms 
and independent consultants who can help you get your business ready 
for the century date change. Many data processing and business 
magazines have articles about the year 2000 problem and most large 
cities now have year 2000 user groups that meet to discuss the problem. 
One magazine that is dedicated solely to the year 2000 problem is 
called The Year 2000 Journal. The Journal can be reached at (214)-340-
2147; its Internet address is http://www.y2kjournal.com.
    If you can't find a year 2000 user group in your area, form one. It 
can become your support group and someone in your group may have 
already solved problems that you are facing. If you form, or join, a 
year 2000 user group, invite local political officials to become 
involved. They will have to work with their local government agencies 
to ensure that police and fire services, water, electricity, and other 
utilities are uninterrupted.
             some questions to help assess system readiness
    1. Can the system perform projections through time? For example, 
can it calculate interest or payments or make inventory projections?
    2. Does the system allow for entering dates? If yes, is the year 2 
or 4 digits? What happens if you enter ``00'' or ``01?''
    3. Will the system operate differently depending on the day of the 
week? Will it operate differently at month-end, quarter-end, or year-
end?
    4. Can the system put things in order by date?
    5. Does the system allow you to retrieve things by date?
    6. Can the system perform date-based calculations?
    7. Does the system have a security feature that includes date 
checking?
                       suggested testing criteria
    The following list is not all inclusive. You should add others 
based on your business's needs and ignore those that are not 
appropriate.

    1. Test the changed system with dates before the year 2000 to 
insure that it is working properly.
    2. Test that the changed system rolls over from 12/31/1999 to 1/1/
2000 properly.
    3. Validate the first business day of the year 2000 (1/1/2000, 1/2/
2000 or 1/3/2000 depending on your business needs).
    4. Validate that the system operates correctly at end-of-month (1/
31/2000 and will roll over to 2/1/2000 properly.
    5. Test that the system rolls over from 2/28/2000 to 2/29/2000 
properly, operates correctly on 2/29/2000, then rolls over and operates 
properly on 3/1/2000.
    6. Test 3/31/2000 and 4/1/2000 to show that end-of-quarter 
processing operates correctly.
    7. Test 1/7/2000 and 1/10/2000 to insure that the system operates 
correctly on the first Friday of the new century, and on the Monday 
after the first Friday.
    8. Validate year display fields, including data entry.
    9. Validate the year in reports.
    10. Test that the system sorts in correct order, validate all sort 
processing.
    11. Validate correct calculation of dates.
    12. Validate the correct acceptance of dates from the operating 
systems.
    13. Validate calculated resultant values from dates.
    14. Test that ages are calculated correctly.
    15. Validate interest and other time-based financial calculations.
    16. Test expiration date processing.
    17. Test historical decision analysis.
    18. Validate time reporting processing.
    19. Test workflow/materials requisition and inventory processing.
    20. Verify that billing calculations are correct.
    21. Validate cycle processing, including day-of-week and/or first 
business day of the month.
    22. Verify that the system forecasts correctly.
    23. Test forward processing--process dates after the year 2000 
(2001, 2002, &c.).
    24. Validate backward processing--process dates prior to 2000.
    25. Verify historical or archival date processing.
    26. Validate that the system purges the correct records.
    27. Validate date and data error handling routines.
    28. Validate date expansion, if used, both within the application 
and between interfacing applications.
    29. Validate windowing, if used, both within the system and between 
interfacing systems.
    30. Validate proper handling of special values in dates--99/99/
9999, 88/88/8888, 00/00/000.
    31. Validate that the system works with the date 1/1/1999--first 
date with ``99'' in the year field.
    32. Validate that there are 366 days in the year 2000, and 365 days 
in the year 2001.
    33. Validate that 9/9/99 (September 9th, 1999) is handled properly.

    Some additional dates that may impact businesses.

     1. 7/1/1999--46 out of 50 states start their fiscal year 2000.
     2. 10/1/1999--start of Federal Government's fiscal year 2000.
     3. 2/15/2000--W2 due.
     4. 4/15/2000--Tax day.
     5. 4/30/2000--first month ending on a weekend.
     6. 5/1/2000--tax withholding report due, unemployment tax due.
     7. 9/30/2000--Federal Government's end of fiscal year 2000.
     8. 10/10/2000--first ``6-digit'' date for systems storing date as 
MDDYY.
     9. 12/31/2000 (Sunday)--first year end--check that year contains 
366 days.
    10. 1/1/2001--test that the system has been instructed to roll over 
to 2001.
    11. 2/29/2001--invalid date.
    12. 12/31/2001--second year end--check that year had 365 days.
        how to check a personal computer for year 2000 readiness
    The following steps are suggested to determine if a personal 
computer will roll over to the year 2000 correctly.
    The test presented here requires a bootable DOS floppy diskette. 
This is a safer method to test your PC's system clock because it leaves 
the data and programs on your PC's hard disk unaffected. If you boot to 
your C: drive, you may end up loading Windows or Windows 95 and other 
applications from your startup routine. Using a bootable diskette will 
ensure the integrity of the data and programs on your PC's hard disks. 
The test script presented here will check your PC's ability to 
transition to the year 2000 and recognize it as a leap year.
    Do not perform the tests by changing your system's BIOS Setup 
screen.
    Create a bootable test diskette. Insert a blank floppy diskette 
into the PC's A: drive. From a DOS prompt, type FORMAT A: /S. Or from 
Windows File Manager, click on DISK/FORMAT and check MAKE SYSTEM DISK.
    With the bootable diskette created in Step 1 still in your PC's 
floppy drive, shut down your system (close Windows) and the power off 
your PC. Don't just hit the reset button or warmboot (CTL-ALT-DEL).
    Turn the power on your PC, and allow the PC to boot from the 
diskette.
    After bootup, DOS automatically shows the current date. Make sure 
that the correct date is displayed. Otherwise, you may have to set the 
correct date on your PC's BIOS.
    At the Enter new date (mm-dd-yy) prompt, type 12-31-1999.
    After changing the date, the current time will be displayed.
    At the Enter new time: prompt, type 23:55:00.
    Turn the power off on your PC and wait at least 10 minutes. If you 
don't, DOS will appear to transition correctly to the year 2000. 
However, once you reboot the PC, it will display the incorrect date if 
your system's RTC has the flaw described above.
    Turn the power back on and wait for the boot process to complete.
    Type in Date at the ready prompt. If Sat 01-01-2000 is displayed, 
your PC's BIOS passes the test.
    At the Enter new date (mm-dd-yy): prompt, type 02-28-2000.
    This will test your system's ability to recognize the year 2000 as 
a leap year.
    After changing the date, the current time will be displayed.
    At the Enter new time: prompt, type 23:55:00.
    Power off your PC again and wait at least 10 minutes.
    Turn the power on the PC. Type in Date at the Ready prompt.
    If Tue 02-29-2000 is displayed, your PC's BIOS passes the leap year 
test.
    To conclude testing, at the Enter new date (mm-dd-yy): prompt, 
enter the correct date, e.g., 07-04-1997.
    After changing the date, the current time will be displayed. At the 
Enter new time: prompt, type correct time, e.g., 06:00:00.
    Remove the bootable diskette from the floppy and power off your PC.
                                 ______
                                 

        Responses of Fred P. Hochberg to Questions Submitted by

                            Chairman Bennett

    Question 1. I understand that SBA will be guaranteeing 50 percent 
of the loan value up to $50,000 to help small businesses pay for Y2K 
fixes. Can you characterize or project how quickly the guaranteed 
funding will enable small businesses to complete remediation and 
testing efforts? For example, if a typical small business were to 
obtain funding and begin remediation efforts in December of 1998, what 
are the chances they could reach compliance by the year 2000?
    Answer. The legislation (H.R. 3412) establishing a targeted Y2K 
pilot loan program at SBA failed to pass before Congress adjourned. 
However, SBA believes its current loan programs are already structured 
to do the type of Y2K mitigation loans envisioned in this legislation. 
SBA recently changed its SBAEXPRESS and LowDoc programs to expedite and 
simplify the delivery of funds to small businesses. These programs are 
specifically designed for the type of loans that businesses would need 
to address Y2K in an expedited manner. For example, under our 
SBAEXPRESS program, small businesses can receive a loan to address Y2K-
related problems for up to $150,000 with a guaranteed turnaround time 
of 36 hours or less.
    With regard to the second question, the time required for Y2K 
remediation efforts will vary from one small business to the next 
depending upon the complexity of the Y2K issues at each small business. 
If the fix happens to be solely reprogramming the internal clock of a 
personal computer, then obviously the fix can be done quickly, often 
within one day. If the fix involves a complete overhaul of entire 
systems, including procuring new machines, then the fix will be more 
complex and may take anywhere from a week to many months. If the fix is 
reviewing computer programs, on a line-by-line basis involving millions 
of line of computer code, the fix may be especially long and may be 
dependent upon finding capable technical staff to complete the work. In 
this latter case, this work will require many months. Our message to 
all small businesses is to take action now, don't delay. To assist 
small businesses in getting quick access to the information they need, 
SBA's Y2K website (www.sba.gov/y2k) we have include direct links to 
over sixty computer hardware and software manufacturers.
    Question 2. What sort of figures or data can SBA provide about the 
potential impact of small business failure on the supply chain? For 
example, if it is expected that 50 percent of all business experience a 
failure of a mission critical system, does SBA have any projections as 
to how this could impact the economy in either the short term or long 
term?
    Answer. The SBA does not have any data regarding the impact on the 
economy in either the short term or long term as a result of the Y2K 
issue and possible small business failures. However, we do believe that 
the Y2K issue is a management issue, not a technical issue. As such, 
small businesses who exercise prudent management judgement in their 
everyday operations will successfully solve their Y2K issues in a 
timely fashion. Those small businesses that are unable to address 
ongoing management challenges will also have a difficult time in 
addressing the Y2K issue. In other words, I believe few small 
businesses will fail solely because of the Y2K issue. A small business 
with poor management skills is likely to fail because Y2K is just one 
of many issues they have not been able to overcome. Accordingly, the 
success/failure rate of small businesses will not be radically affected 
and the overall effect on the economy will be minimal.
    Question 3. What is the greatest concern SBA has for small 
businesses?
    Answer. Our greatest concern is that small businesses are not 
taking action soon enough on this important issue. Small businesses 
tend to focus on the ``here and now'' as they grapple with business 
management issues every day. January 2000 is over a year a way and that 
is an eternity for most small businesses. The longer a small firm 
waits, the more costly the Y2K ``fix'' will be. Our slogan is ``Its too 
late to start early.''
    Question 4. How is the SBA stressing the importance of business 
continuity planning? Have you identified best practices for business 
continuity planning?
    Answer. SBA has identified best practices and developed materials, 
classes, seminars, speeches and a web site stressing the importance of 
contingency planning as part of an overall Y2K strategy for every small 
business. On our web site, www.sba.gov/Y2K, we offer advice on 
contingency planning. Specifically, we offer information on contingency 
planning in our seminar materials. These materials, developed by IBM 
for our use during our national Y2K Action Week, provide an excellent 
guide for small businesses as they address their Y2K issues.
    Question 5. Does SBA have any estimates as to the overall cost of 
Y2K for small business?
    Answer. We have not conducted any independent studies of the 
overall cost for small businesses. However, we are in contact with the 
National Federation of Independent Businesses (NFIB) and its Y2K staff. 
NFIB issued a study this past May on the preparedness of the small 
business community for the Y2K problem. It is conducting a follow-up 
study, which should be available by the end of this year, and has 
offered us the opportunity to review the data they receive. We expect 
the study to address this issue and give us insight on the overall 
cost.
    Question 6. Does SBA have any figures indicating the reliance of 
small business on information technology? For example, do you know what 
percentage of small start-up businesses rely heavily on computers.
    Answer. SBA has not done any research in this area and does not 
have any data readily available to make an estimate regarding the 
percentage of small start-up businesses that rely heavily on computers. 
In addition, we are not aware of any similar studies having been done 
in the private sector.
                                 ______
                                 

 [United States Small Business Administration--Small Business Research 
         Summary--RS Number 156 (November 1995) ISSN 1076-8904]

   The Effect of Computer Use on the Earnings of Workers by Firm Size

[By Rakesh Kochhar, 1994, 104p. Completed by Joel Popkin and Co., 1101 
Vermont Ave.N.W., Washington, DC 20005, under contract no. SBA-8033-OA-
                                  93]

                                purpose
    The use of computers by workers is an important element in the 
currentt employment shift toward higher-skill jobs. The extent of 
smalll businesses' participation in this shift, and the wage benefitss 
by firm size to employees participating in the shift, are thee subjects 
of investigation in this study.
    Many policy-makers believe that the competitive potential of 
U.S.businesses--both at home and abroad--will depend on the ability off 
firms to incorporate computer-based technologies and to upgrade thee 
skills of their workers. It is important to understand how smalll and 
large firms have adapted their work places to the emergingg 
information-based economy and whether they have realized similarr gains 
in productivity from the use of computers. Productivity gains from the 
use of computers is expected to be bestt measured by the wage 
differential of computer users over otherr workers in the same 
industry.
                         scope and methodology
    Data for this research became available with the inclusion of a 
question on computer use in the Current Population Survey (CPS) of 
January 1991. These data were merged with data on firm size from thee 
March 1991 survey and wage data from the April 1991 survey.The CPS is a 
regular survey of households by the Bureau of the Census and covers 
over 50,000 households. The survey panel changes fromm month to month, 
so only those households included in the surveyy in all three periods 
could be used. The result was 28,407 observations that matched across 
all three time periods, or less thann half of the 67,374 individuals 
reporting on employment in January 1991. Workers under the age of 16 
and over the age of 65 were eliminated from the sample, as well as a 
few workers with very low wages. The final sample was 18,009 
individuals. The data permitted further analysis by worker age, 
education, sex,job tenure, industry, and occupation. The analysis 
revealed the wage returns to computer usage to be robust and nearly 
constant acrosss firm sizes, industries, and all of the above worker 
characteristics. Computer usage in information-based industries was the 
highest; production occupations showed the lowest computer usage by 
workers. Growth industries were analyzed separately and revealedd 
higher computer usage among workers in growing industries.
                               highlights
  --Small firms were found to be hiring college-educated workers and 
        creating jobs at the top end of the wage spectrum in greater 
        proportionss than in the past. Among new hires, small firms 
        employed 58.9 percent of all workers and 54.8 percent of new 
        hires in the top wage quartile. In the time period covered in 
        the report, small firms were responsible for the majority of 
        new hiring at the high end of the wage spectrum. The author 
        states, ``Between 1990 and 1991 most high-wage jobs were being 
        created by smalll firms.''
  --Computer usage was twice as high among employees in the highest 
        wage quartile compared with those in the lowest quartile. This 
        relationship held for all firm sizes and lengths of job tenure. 
        The overall average was 29.6 percent of workers using computers 
        in the lowest wage quartile and 74.2 percent using computers in 
        the highest wage quartile. The wage return to computer usage 
        was present even among new hires in the under 25-employee firm, 
        where the lowest wage quartile showed 21.6 percent of workers 
        using computers and the highest wage quartile showed 58 percent 
        using computers. To the extent that wage is based on the 
        marginal value of worker product, computers are an important 
        influence for higher workerr productivity in firms of all 
        sizes.
  --The highest premium for computer users over nonusers was found to 
        be in small firms in industries with the highest growth rate, 
        where a premium of nearly 24.8 percent in wages was observed. 
        Fast-growing large firms did nearly as well, with an estimated 
        23.8-percent wage premium for computer users.
  --Computer usage was highest in fast-growing firms of more than 1,000 
        employees, with 69 percent of employees using computers; it was 
        lowest in slow growth firms with fewer than 25 employees where 
        less than 31 percent used computers in their occupation. The 
        author suggests that the 25-employee level may be a threshold 
        for the adoption of computer technologies.
  --Occupations requiring information processing exhibit computer usage 
        four times as high as occupations that are mostly production-
        oriented. Information-processing occupations show computer 
        usage to be 71.9 percent for small firms and 81.3 percent for 
        large firms.
  --Women use computers at a higher rate than men in firms of all 
        sizes. More than 50 percent of women in small firms use 
        computers on the job; the rate for men is below 40 percent.
                          ordering information
    The complete report is available from:
                National Technical Information Service
                U.S. Department of Commerce
                5285 Port Royal Road
                Springfield, VA 22161
                (703) 487-4650
                TDD: (703) 487-4639
                Order number: PB95-239984
                Price codes: A06 (paper); A02 (microfiche)
                               __________

                 Prepared Statement of Senator Jon Kyl

    Small and medium size businesses are key elements in the robust 
American economy. Experts have projected that a good number of small 
and medium-sized business may very well fail because of the Year 2000 
computer problem. In fact some recent news articles across the country 
are citing projections that up to 12 percent of small business 
employing 50 people or less may be expected to declare bankruptcy. What 
would happen if 12 percent of the small businesses in the U.S. were to 
fail in the first quarter of 2000? How do we ensure that the supply 
chain necessary for commerce and defense remains unbroken? Making sure 
that small and medium sized business are prepared and have the 
resources they need is an important step.
    The good news is that a small business can often fix their problems 
faster; the bad news is that small businesses often do not have the 
``in-house'' technical expertise or budgets to fix Y2K problems. The 
Passage of the ``Year 2000 Information Disclosure Act'' (S. 2392) and 
the Year 2000 Readiness and Small Business Restructuring Act of 1998 
(H.R. 3412) provide important resources for the business community. S. 
2392 helps increase the flow of technical information needed for 
identifying and correcting problems, and H.R. 3412 helps ensure that 
small business can borrow the funds they to finance Y2K fixes.
    According to Frank Zarb, the chairman of the National Association 
of Securities Dealers, parent of the Nasdaq stock market, ``I believe 
we're in good shape but I'm still worried. We know, like everyone else 
does that there are going to be some crises, so we formed crisis teams 
that can parachute in after that day.'' I appreciate Mr. Zarb's well 
balanced approach. I think this represents a realistic model for small 
and medium sized businesses. Know your vulnerabilities, do everything 
you can to prepare for Y2K and do not neglect your business continuity 
plans.
    It is in the best interest of every business to investigate their 
Y2K vulnerabilities and build the necessary business continuity plans. 
Small and medium sized businesses are the biggest employers in the 
country, and it is essential that they make the transition to the next 
century in a well executed fashion. Mr. Chairman, I look forward to 
today's hearing.
                               __________

                  Prepared Statement of Keith Mallonee

    Mr. Chairman and distinguished members of the committee: I am 
pleased to appear today before the Special Committee on the Year 2000 
Technology Problem. My name is Keith Mallonee. I am the vice president 
of systems development for McKesson Corporation. In keeping with the 
Committee's request, I will provide a brief overview of McKesson's 
program to address the Year 2000 or 19Y2K' issue and respectfully 
request that my full written statement be included in the record of 
this hearing.
    McKesson is the largest national distributor of pharmaceuticals, 
health care products, medical and surgical supplies, with sales in 
excess of $20 billion for our current fiscal year. Our customers are 
located in all 50 states, and include hospitals, independent 
pharmacies, chain drug stores, food stores, clinics, nursing homes, 
government facilities, physician groups, HMO's and surgical centers.
    Today I am here to share with you the importance of electronic 
commerce to our company, the preparations McKesson is making for Year 
2000 and the state of our developing contingency plans.
    Electronic commerce is very important to the success of our 
business and the business of our customers. McKesson supplies 
pharmaceuticals and health care products to roughly 35,000 customers 
and processes about 60,000 orders containing 1.6 million order lines 
daily. Virtually all of these orders are sent to us by customers in 
some electronic form or another using everything from small hand held 
electronic devices that connect to phones to large mainframe computers. 
In addition, all major movements of funds including customer 
remittances and payroll are handled electronically through electronic 
fund transfers.
    On the inventory management side of our business, we are equally 
dependent on electronic commerce. Roughly 80 percent of all trade goods 
purchased by McKesson are ordered through electronic data interchange, 
or EDI. Payments to our larger trade suppliers are also handled through 
EDI with commercial bank payment services.
    McKesson has become very dependent on electronic commerce and we 
are taking great care to ensure the efficient functioning of this 
environment continues with minimal interruption as we enter the new 
millennium.
    How has McKesson prepared for the Year 2000? Just as we would any 
other major project. In 1996, we began with a survey of all of our 
operations to get a better appreciation for the scope and skills 
required. We then created a Year 2000 central project office for which 
I am responsible. In 1997, we began developing corporate-wide 
standards, dividing the problem into manageable projects, then 
developing plans and budgets.
    Today we are finalizing software and hardware changes and testing 
the integrity of these changes extensively. We monitor our progress 
across the enterprise through reports submitted on a regular basis to 
our central project office, our Chief Information Officer, an executive 
steering committee and ultimately to McKesson's Board of Directors. 
McKesson's Internal Audit Department has independent staff members 
conducting company-wide reviews of subsidiary and divisional Year 2000 
efforts. The results of these reviews are presented to the Audit 
Committee of McKesson's Board of Directors.
    McKesson's executive management has identified Year 2000 as a top 
corporate priority. To that end, we have an estimated 400 people, 
including project managers, technicians, consultants, contractors and 
business partners working on the problem and we expect to spend between 
$30-40 million in making our systems ready.
    How are we progressing? A recent review by our financial auditors, 
Deloitte and Touche, found our progress and methods to be `best of 
class', of which we are quite proud. As with any project of this 
magnitude and complexity, there are challenges, but at this point, 
McKesson does not foresee any serious obstacles meeting its Year 2000 
requirements. In general, McKesson plans to complete the final system 
changes required for Year 2000 compliance by June 1999.
    While McKesson has moved at a very fast pace to solve Year 2000 
problems internally, our ultimate success is very dependent on others, 
particularly our trading partners and the telecommunications, electric 
utilities and transportation industries. As a result, contingency 
planning, while a normal part of our business, will become even more 
important as we approach the Year 2000. In the sales area, we will be 
capable of taking limited emergency orders manually and have provided 
virtually all customers with highly reliable hand held order entry 
devices to use in case their own systems fail. In our major data 
center, we have a diesel generator sufficient for normal operations 
with alternative telecommunication pathways and we can reroute inbound 
electronic orders to off-site systems. At the distribution centers we 
are prepared to pick emergency orders manually and ship product by any 
one of six modes. We have identified our most critical products and 
expect to have at least 45 days of supply on hand at the turn of the 
millennium. In addition, we are working to certify the readiness of our 
2,000 inventory suppliers, with special attention to all manufacturers 
of pharmaceutical products.
    McKesson has been in business since 1833. In the intervening 165 
years, we have faced many challenges in supplying our customers the 
product they need within the timeframe they require. As an example, 
Hurricane Georges recently closed down one of our 36 distribution 
centers for 5 days. Similarly, we have encountered fires, floods, 
earthquakes, tornadoes, blizzards...and yes, even computer system 
failures. Even in the worst disaster McKesson has taken pride in being 
able to overcome the obstacles and deliver product when and where it is 
needed. With Hurricane Georges we quickly rerouted critical orders to 
two other distribution centers and continued to deliver without a 
serious disruption to our customers. Year 2000 is just another 
challenge and we will meet it just as we always have.....our customers 
have grown to expect that from McKesson.
    Mr. Chairman, we appreciate the opportunity to appear before the 
Committee today. These are critical issues facing our industry and we 
welcome your leadership in addressing them. I will be happy to respond 
to any questions that members of the Committee have, either now, or in 
writing following the hearing.
                                 ______
                                 

 Response of Keith Mallonee to Questions Submitted by Chairman Bennett

    Question. How is McKesson avoiding the generic problems of IT 
interconnectivity both domestically and foreign with its EDI trading 
partners?
    Answer. Almost all of McKesson's 35,000 customers are using 
McKesson-owned portable order entry devices that support both manual 
key entry or bar-scanned entry. These units are Year 2000 tested, are 
not dependent on EDI technology except for a working phone line, and 
have been in use by McKesson customers as a sole or alternative order 
entry device since the late 1960's.
    McKesson also offers customers an opportunity to transmit limited 
orders via any touch tone phone.
    If we have a Year 2000 problem with our telephone carrier, we can, 
to a certain degree, use alternate lines, hubs and carriers. At this 
point McKesson expects that if there are telephone problems, they will 
be local, if at all.
    Electronic fund transfers, normally accomplished through EDI, can 
be accomplished by simple wire transfer.
    To limit the chance of Year 2000 EDI problems, all EDI trading 
partners have or will receive an invitation to participate in test EDI 
transmissions as a part of our Year 2000 effort.
    There are ready alternatives to EDI. For example, orders with EDI 
suppliers can be faxed, telephoned, FedEx'd, or even delivered by 
regular mail.
    In addition, McKesson has no suppliers using EDI with ordering 
points outside the United States for its core business of domestic drug 
and healthcare distribution.
    Question. To what extent is McKesson dependent on foreign suppliers 
and how do you expect to avoid the Year 2000 problem with them?
    Answer. Our core business (domestic wholesale healthcare 
distribution) purchases very little, if any, directly from foreign 
suppliers and any such transactions would be handled by non-electronic 
means (such as mail or fax). We do not, therefore, anticipate a direct 
Year 2000 issue with foreign suppliers for our domestic wholesale 
healthcare distribution business. It is difficult to fully evaluate our 
indirect exposure where, perhaps, McKesson deals with a company that 
purchases raw or finished goods from outside the United States.
    Our foreign subsidiary, Medis in Canada, also purchases exclusively 
within Canada. Medis is working on their own Year 2000 plan to include 
vendor Y2K certification. McKesson also has a minority interest in 
Nadro of Mexico but we have been unable to determine to what extent 
they purchase from foreign suppliers.
    Question. To what extent have you coordinated, negotiated or 
otherwise contacted your suppliers and customers to make certain that 
they will be Year 2000 ready? Will you continue to do business with 
companies that are not Year 2000 ready?
    Answer. A review of material relationships with suppliers of 
technology and trade goods was included in the McKesson Year 2000 
project.
    We are participating in an industry effort organized by the 
National Wholesale Druggists' Association (NWDA) to verify the Year 
2000 readiness of trade suppliers with special attention to 
manufacturers of branded pharmaceutical products. The NWDA is the 
national trade association for pharmaceutical distributors. McKesson is 
dedicated to getting Year 2000 certifications from a list of suppliers 
identified as critical to our business; together these critical 
suppliers represent over 85 percent of McKesson's purchases in 1997.
    Within the structure of the core project office at corporate 
headquarters is a team dedicated to trading partner issues. On a daily 
basis McKesson is communicating by phone and letter with major 
suppliers and exchanging information about mutual Year 2000 interests.
    On the non-trade side of the business, Year 2000 compliance 
statements were required from all suppliers of McKesson's computer 
hardware and commercial software starting in early 1997. As of October 
1998, 70 percent of the computer hardware and purchased software used 
in the core business, wholesale drug and healthcare distribution, was 
compliant. Non-compliant technology was or will be replaced by June 
1999.
    McKesson has just established a web site containing a section 
devoted to Year 2000 information. This web site will allow McKesson 
efficient and timely communication with our trading partners and the 
public on key Year 2000 issues. The site is divided into 3 sub-areas: 
general information of possible interest to everyone, an area dedicated 
to customer concerns, and a separate area dedicated to supplier topics.
    At this point we are not aware of any supplier that has expressed 
serious doubt about their ability to become Year 2000 compliant. If a 
trade supplier is identified with serious Year 2000 problems, the 
decision to cease doing business with them will rest with our product 
and inventory managers.
    Question. What infrastructure availability did you assume in 
planning your Year 2000 remediation and contingency plans?
    Answer. Most of our customers operate on a 19just-in-time' 
inventory model. They assume that they can carry a minimal level of 
inventory because an order placed today will be filled by McKesson 
tomorrow. Because McKesson distributes pharmaceuticals with health 
sustaining, and in some cases, life dependent attributes, this 
dependency is taken quite seriously. As I mentioned in my verbal and 
written statement to the committee on October 7, 1998, McKesson has 
been in business since 1833 and has managed to deliver critical 
products despite all types of business disruptions, such as 
earthquakes, tornadoes, floods, fires and hurricanes. In some of those 
situations, distribution center phone lines have gone dead, power has 
failed, employees have been unable to get to work, computers have 
failed, and normal resupply has been disrupted. In these cases, our 
local managers, administrative staff, sales people and warehouse 
employees have picked critical orders by hand or shifted orders to 
other distribution centers for filling. Critical product was moved from 
one distribution center to another to cover short-term supplier 
problems, and orders were faxed rather than transmitted by EDI. You can 
be very resourceful if someone's health and your business relationships 
require it.
    McKesson relies heavily on technology in its infrastructure and has 
moved aggressively to address both internal and external Year 2000 
concerns. Because of our strong internal Year 2000 organization, we are 
becoming increasingly confident that, internally, our systems will 
successfully meet the Year 2000 challenge.
    We currently believe that the most likely risks of Year 2000 
business disruptions are external in nature and may occur in 
telecommunications, electric, or transportation services and with non-
compliant smaller trading partners. Problems will probably be 
localized, non-critical and hopefully short in duration. The most 
serious disruption would be an extended and/or extensive communications 
failure. Such an extensive communications failure is not considered 
likely based on our monthly Year 2000 reviews with major communications 
carriers, the flexible design of our network, and our use of backup and 
off-site systems.
    Question. How does your company rate the potential Year 2000 impact 
of microprocessors on your business?
    Answer. Internally, McKesson uses microprocessors in desktop and 
laptop computers, security systems, servers, controllers, telephone 
equipment, time keeping and reporting devices, portable intelligent 
scanning equipment used in our warehouses, and in a multitude of other 
devices. At this time we are not aware of any internal situation where 
a device using a microprocessor would cause a serious impact on our 
business. It's difficult to evaluate the potential external impact of 
microprocessors on our business, but I am not aware of any serious 
problems.
    Question. What percentage of your overall time will be spent 
testing as compared with time spent on remediation tasks? Will your 
testing phase extend beyond June of 1999?
    Answer. We estimate that at least 60 percent of our total Year 2000 
effort will be devoted to testing. Testing is an important part of 
McKesson's Year 2000 effort. All existing and modified computer code 
has, or will be, subjected to an extensive, well-defined, multi-tiered, 
series of tests. Throughout calendar year 1999 we will be conducting a 
rigorous final level of review called integrated testing under post-
Year 2000 conditions.
                               __________

                  Prepared Statement of Lou Marcoccio

                              introduction
    GartnerGroup is a worldwide business and information technology 
advisory company, providing research and advice in more than 80 major 
focus areas of business and technology, including Year 2000. We 
research Year 2000 status, issues, and best strategies, and provide 
advice and methods to companies and governments throughout the world.
    Major points in this testimony:

    (1) Year 2000 worldwide compliance status
    (2) Predicted failures and impact
    (3) The impact of embedded chips
    (4) When system failures will occur throughout the duration of this 
problem
    (5) Risks to the United States and possible impact
    (6) Accuracy of disclosures reported to the U.S. SEC
    (7) Recommendations to the United States Senate

    Method of Measurement of Compliance Status: COMPARE (COMpliance 
Progress And REadiness): GartnerGroup uses a methodology for 
determining the status of a company or government agency. It is used to 
rank and compare level of completion of compliance. It consists of five 
levels:

    (1) Level 0--Has not started any Year 2000 effort
    (2) Level I--Starting, awareness, champion identified, begin 
business dependency inventory
    (3) Level II--Conduct detailed inventory of all business 
dependencies
    (4) Level III--Detailed project plans, resources in place, 
prioritize business dependencies, risk assessment, complete compliance 
of 20 percent critical items
    (5) Level IV--Complete compliance efforts on remaining 80 percent 
of critical items
    (6) Level V--Complete compliance of non-critical items and launch 
policies to guard against post year 2000 failures
                            research methods
    This information is gathered from interviews and client inquiry 
meetings. GartnerGroup is prohibited from disclosing specific names of 
companies or government agencies that are providers of this 
information, due to agreements of disclosure, under which the 
information is provided. Research data is gathered using various 
research methods, e.g., client interviews, surveys, consortia groups, 
user companies, equipment manufacturers, consulting firms, and legal 
firms. The research covers 15,000 companies in 87 countries. An attempt 
was made to equally distribute the research across small (under 2,000 
employees), medium (2,000 to 20,000 employees), and large (over 20,000 
employees) companies in each country, and to equally distribute across 
27 vertical industries. We analyze the research and produce predictions 
and analysis. This information is provided to clients in our written 
research and advice. Year 2000 status of companies and governments has 
been found to be quite different in each of three dimensions--size, 
industry, and country.
                            research results
    23 percent of all companies and government agencies have not 
started any Year 2000 effort. 83 percent of these are small companies 
with fewer than 2000 employees.
[GRAPHIC] [TIFF OMITTED] T7OC98G.004

Why Companies & Government Agencies Began to Address This Problem
    (1) A failure occurred affecting a mission critical business 
process
    (2) Regulatory mandate and possible penalties
    (3) Fear of internal litigation due to lack of due diligence
    (4) Customer pressures

    Since awareness and failure scenarios have reached many countries, 
many companies are now getting started because of fear of interruptions 
to their supply chain and pressure from customers.
[GRAPHIC] [TIFF OMITTED] T7OC98G.005

    Large companies are farthest ahead. They began earlier, because 
failures occurred, they had more resources to deploy, and they had 
older systems critical to their continued business operation. They 
spend a larger percentage of NOR (net operating revenue) on IT 
(information technology) than small companies. Smaller companies have 
fewer resources and less resource flexibility. A large percentage of IT 
systems at large companies were built in-house. Small companies have 
purchased a much larger percentage of IT systems from vendors. Since a 
majority of business insurance carriers recently added Year 2000 
exemptions to current active business interruption policies, companies 
will not be able to rely on their insurance coverage as they planned. 
Many large companies have cash reserves and internal insurance 
strategies to rely upon, whereas small companies have limited safety 
nets or parachutes.
    As of Q3 1998, large companies have completed remediation of 20-80 
percent of their internal systems, and 30-50 percent have started 
significant levels of testing. Mid-size companies have 0-30 percent 
remediated, and 20-40 percent have begun testing. Small companies have 
0-5 percent remediated, 30 percent have begun testing, and they are 
heavily reliant upon vendors to fix their systems. Large companies are 
using their own internal resources and contracting only 2-7 percent to 
outside vendors. Mid-size companies are contracting 25 percent to 
vendors, while small companies are contracting 50 percent to vendors.
    IT budgets were relatively flat from 1997 to 1998, however 30 
percent of IT budgets will be spent on Year 2000 efforts in 1998. We 
estimate 44 percent of IT budgets will go to Year 2000 projects in 
1999.
    Small companies spend 50 percent of their Year 2000 spending on 
outside services, while large companies do most of the work themselves 
with already-existing internal resources.
    From 1996 through Q1 1998, companies were using vendor form letters 
to determine supply chain risks. Many of these are not responded to, 
and of the ones received, the vast majority are unusable for compliance 
risk assessment. During Q1 and Q2 1998, more than 60 percent have 
changed to a strategy of requesting face-to-face or telephone (direct 
contact) vendor reviews. This should help in obtaining more accurate 
supply chain risk information; however, many are struggling with trying 
to get vendors to agree to this type of meeting. Therefore, getting 
vendors to disclose accurate information related to compliance of their 
products remains a challenging task.
    Prior to 1998, 5 percent of companies had business participation or 
business ownership of compliance efforts in their company. During 1998, 
this grew to nearly 30 percent. We forecast that companies in which the 
IT organization ``owns'' the Year 2000 compliance projects for the 
corporation are 3-5 times more likely to have a serious mission 
critical system failure (0.8 probability).
    The predominant focus of Year 2000 projects differ considerably, 
based upon the size of the company and country it is in. Large 
companies are now focused on contingency planning and assessing 
business dependency risks, while continuing to complete fixing of 
internal systems and beginning to test (see Figure 2). Mid-size 
companies are just beginning to address contingency planning, while 
attempting to assess supply chain risks and trying to leap-frog steps 
required to fix and text internal solutions (see Figure 2). Many small 
companies have still not started, but the ones who have, are focusing 
on vendor compliance and inventorying their business dependencies (see 
Figure 2).
    In April 1997, 50 percent of companies, across all industries, had 
not started Year 2000 efforts. By November 1997, the number dropped to 
30 percent. By October 1, 1998, 23 percent of companies throughout the 
world had not started. 83 percent of those are small companies. We 
predict that in January 2000, nearly 20 percent will still not be 
started, and they will mostly be small companies and companies in 
lagging countries (0.8 probability).
                       predicted failures by size
    GartnerGroup defines a ``failure'' as an interruption to a business 
operation, a business dependency which cannot be provided or delivered 
as required, or inaccuracy of data or customer transaction. ``Mission 
critical'' is defined as any business dependency which, if it were to 
fail, would cause any of the following:

    (1) A shutdown of business, production, or product delivery 
operations
    (2) Health hazard to individuals
    (3) Considerable revenue loss
    (4) A significant litigation expense or loss
    (5) Significant loss of customers or revenue

    30-50 percent of companies and government agencies worldwide will 
experience at least one mission critical system failure (includes all 
sizes, all industries, all countries) through Q1 2000. In the U.S., 15 
percent of companies and government agencies will experience a mission 
critical system failure (also see section on country status for status 
of U.S. versus all other countries). 10 percent of failures will last 3 
days or longer. The cost of recovering from a single failure after it 
occurs will range from US $20,000--$3.5 million.
    The number of companies predicted to experience at least one 
mission critical system failure (0.8 probability):
  --50-60 percent of small companies and government agencies
  --40-50 percent of mid-size companies and government agencies
  --10-20 percent of large companies
                   characteristics by industry sector
    The second dimension used to gather Year 2000 status information is 
by industry. We monitor 27 industries, and find there are distinct 
issues unique to each industry. Very few of the industries are 
regulated. The industries have been placed into four risk categories.

         Figure 3 : Research Industries and Failure Predictions
------------------------------------------------------------------------
 
Category 1.--Insurance, Investment       15 percent of companies in
 Services, Banking, Pharmaceuticals,      these industries will
 Computer Manufacturing.                  experience at least one
                                          mission critical system
                                          failure.
Category 2.--Heavy Equipment,            33 percent of companies in
 Aerospace, Medical Equipment,            these industries will
 Software, Semiconductor, Telecom,        experience at least one
 Retail, Discrete Manufacturing,          mission critical system
 Publishing, Biotechnology, Consulting.   failure.
Category 3.--Chemical Processing,        50 percent of companies in
 Transportation, Power, Natural Gas,      these industries will
 Water, Oil, Law Practices, Medical       experience at least one
 Practices, Construction,                 mission critical system
 Transportation, Pulp & Paper, Ocean      failure.
 Shipping, Hospitality, Broadcast News,
 Television, Law Enforcement
Category 4.--Education, Healthcare,      66 percent of companies in
 Government Agencies, Farming &           these industries will
 Agriculture, Food Processing, City &     experience at least one
 Town Municipal Services                  mission critical system
                                          failure.
------------------------------------------------------------------------

    Insurance, investment services, and banking lead all other 
industries. Banking has a unique status, since small banks are lagging 
and large banks in the United States are ahead of many other 
industries. The insurance industry began having failures more than 10 
years ago, and due to the critical impact their IT systems have on 
their business operations, they began their compliance efforts early. 
Banks in the U.S. began having failure problems nearly 30 years ago, 
but were not driven to begin compliance efforts until they were driven 
by regulation.
    Infrastructure utilities and emergency services are critical for 
sustaining business operations and well-being. In the U.S., we predict 
that general infrastructure, power, non-wireless telephones, and 
critical services will continue mostly uninterrupted, with potential 
for relatively minor problems and some inconveniences. Natural gas 
utilities are lagging the utility industries. Healthcare lags in areas 
of medical practices, hospitals and elderly care. Public, private, and 
higher education also lag far behind. Many world governments are also 
far behind. The U.S. and Canadian governments are more than 40 percent 
ahead of any other government in the world, but lag large, private 
industry in the U.S. State governments differ widely in status. Most 
U.S. states have Year 2000 projects. 50 percent have reached the start 
of level III, and nearly all are being managed and driven from within 
IT. 65 percent of U.S. cities and towns do not have Year 2000 projects. 
Many mid-size and smaller cities and towns are lagging far behind or 
have not started. An industry highly overlooked is agriculture 
(farming, food processing, transportation/distribution, and import and 
export of foods and food bi-products). Several agriculture sub-
industries are lagging far behind. Governments range from COMPARE level 
to level III, with the majority in level 0-II. (see Figure 3).
[GRAPHIC] [TIFF OMITTED] T7OC98G.006

                       characteristics by country
    The largest impact this problem with have on the world is related 
to the global economy. Countries already plagued with financial woes, 
sharp increases in inflation, limited monetary reserves, and high 
unemployment are some of the same countries farthest behind with Year 
2000 compliance. Figure 6 shows countries grouped according to level of 
risk and the predicted percentage of companies to experience failures. 
One white dot indicates that 15 percent of companies will have at least 
one mission critical system failure. One solid dot indicates that 33 
percent of companies will experience such a failure. Two solid dots 
indicate that 50 percent will experience such a failure, and three 
solid dots indicate that 66 percent will experience the same. 
Infrastructure risks within a given country are shown separately in 
Figure 7. There are several key non-Year 2000 interdependencies 
considered when determining risks within a specific country, e.g., rate 
of inflation, shortage of food or key resources, current government out 
of favor with majority of people, risk of unrest, infrastructure 
failure risks, ability to import/export key goods or resources, likely 
dependencies on other countries for aid, and monetary reserves and 
world value of their currency. A number of countries already afflicted 
with several of these problems are considerably lagging in Year 2000 
efforts, and will likely see even greater negative impact as a result.
[GRAPHIC] [TIFF OMITTED] T7OC98G.007

    In our country status and predicted failure rates within countries 
(Figure 6), the estimates include all companies and government agencies 
together. Venezuela started awareness efforts months ago, but a large 
number of companies and government agencies have not yet begun 
compliance efforts. The new government leader may affect the rate of 
progress. In Argentina, companies are finding it somewhat difficult to 
get funding for Year 2000 projects and consulting firms needed to 
supplement smaller companies are limited in number. Except for Israel, 
Middle Eastern countries are just beginning, and are lagging. In 
Russia, larger companies in just a few large cities are working on the 
problem, but companies throughout the country outside those cities are 
lagging far behind. Municipal services, healthcare, and other Russian 
industries are far behind. In Pakistan and India, only larger companies 
have begun efforts. In Mexico, the banking industry is aided by a 
regulatory process that succeeds in getting relatively accurate 
disclosures made. This helped to get the banking industry moving more 
quickly than other industries. Two years ago, companies in Japan did 
not believe they had a problem with Year 2000, but now many are trying 
address compliance.
[GRAPHIC] [TIFF OMITTED] T7OC98G.008

    The chart in Figure 8 shows the risk and probability of failure of 
basic infrastructure by countries. It shows a ranking of 1 through 10 
that describes how widespread and severe infrastructure and service 
interruptions are likely to be for each group of countries (grouped in 
Figure 6). Each failure effect is ranked in each country category 
according to how widespread the impact will be realized, and the level 
of severity expected. The chart takes into account today's (as of Q3 
1998) status and risks, interdependencies, levels expected to be 
reached by 2000, and likely failure results. Since some companies and 
governments will slow down or speed up their compliance efforts prior 
to 2000, and more and better status information is made available, this 
information will be updated periodically.
[GRAPHIC] [TIFF OMITTED] T7OC98G.009

                   failure scenarios and predictions
    Each company and government agency is ranked according to its 
current status, its probability of gaining compliance, and the impact 
of technical systems on its typical business operations. After 
following failures and tracking status related to probabilities of 
failure, we show the relationship of status to predicted mission 
critical failure in Figure 9 (below). We now know that it takes 
approximately 30 months for a mid-size company to complete level IV and 
gain compliance of their mission critical dependencies.
[GRAPHIC] [TIFF OMITTED] T7OC98G.010

    Using the chart in Figure 9, you can estimate high-level risk and 
probability of at least one mission critical system failure occurring 
within any company in an industry or government. This is done by using 
the current COMPARE status level and assuming it takes an average of 30 
months for a midsize company to complete compliance of mission critical 
business dependencies.
                     public panic and social order
    The economic and sociopolitical results from Year 2000 failures can 
include panic, unrest, increased crime, food and infrastructure 
interruptions, and health and safety issues. Social order may be 
affected when basic needs are disrupted. These affects are controlled 
by ensuring that basic needs will continue to be met and proactively 
reducing fear and disorder. Social disorder will be at risk in several 
countries and regions of the world, contributed to by Year 2000 
failures.
                                  core
    To assess operational risk, to determine where contingency plans 
are necessary, and to develop contingency strategies, GartnerGroup uses 
a methodology called CORE (COMPARE Operational Risk Evaluation). It is 
used to determine risks related to supply chain, interdependencies, 
customers, investors, embedded systems, and IT systems. We recommend 
companies and agencies use CORE to determine operational risks and 
risks related to global dependencies.
    CORE includes five steps or phases:

    (1) Perform High Level Risk Assessment
    (2) Inventory Business Dependencies
    (3) Categorize Business Dependencies by Impact to the Business
    (4) Perform Detailed Risk Assessment and Ranking
    (5) Design and Implement Contingencies & Disaster Recovery

    Use CORE to assess risks related to countries, infrastructures, 
industries, supply chain, or any business dependency.
                      estimated cost of year 2000
    We estimate the total cost of Year 2000 to be:
  --Worldwide IT Cost: U.S. $300 billion to $600 billion
  --U.S. IT Cost: U.S. $150 billion to $225 billion
  --U.S. $1-2 trillion: Total worldwide cost
                        when failures will occur
    System failures due to Year 2000 have been occurring for some time. 
They will increase in 1999, reach their highest volumes during 2000, 
and drop off during 2001. Few will continue past 2003. Contributing 
factors (all are 0.8 probability):
Software
    (1) 83 percent of commercial software is not yet certified 
compliant--11 percent in April, 2002
    (2) 4 percent of follow-on versions of commercial software will not 
be compliant
    (3) 70 percent of custom solutions developed by a vendor more than 
seven years ago will not be supported by that vendor
Data
    (1) 70 percent of archived data will not be remediated, but 
attempts will be made to use this data in remediated systems
    (2) Non-compliant data will be passed to/from companies
    (3) Some data centers will be shut down during rollover to reduce 
risk of failures
Systems
    (1) Many IT systems will run non-compliant transactions during 
1999, 2000, and 2001, since many are periodic transactions
    (2) Some IT systems use applications that were frozen during 1999, 
but will be used again some time after 2000
                            embedded systems
    Embedded systems will have limited effect on Year 2000 problems, 
and we will see a minimal number of failures from these devices. Only 1 
in 100,000 free-standing microcontroller chips are likely to fail due 
to Year 2000. A small percentage of real-time clock-driven chips are 
affected, but these failures will be a small percentage of the non-
embedded system failures. The key issues concerning embedded chip 
failures are: (1) very few will fail, and (2) of those that fail, the 
majority will fail right at the millennium, and the majority of these 
will only fail once--if they are active when the clock ticks over. 
Embedded chips used for key infrastructure processes, life support 
systems, and other critical processes should be checked and verified by 
the manufacturer of the equipment, due to the potential severity and 
potential result of such a failure.
 number of companies & government agencies expected to gain compliance
    In October, 1998, 15 percent of all companies claim to have 
achieved level IV compliance of mission critical systems. We predict 
that 50 percent will achieve this goal by 2000 (0.8 probability). The 
majority of large companies in Category 1 countries will complete at 
least 80 percent of level IV by 2000 (0.8 probability). 
[GRAPHIC] [TIFF OMITTED] T7OC98G.011

                  possible risks to the united states
    Actions and proactive programs will be needed to keep these risks 
minimized, and keep them from materializing as described (see 
Recommendations).
Domestic
    (1) Interruptions due to failures in interdependencies and 
interconnections between companies and countries produce significant 
negative impact for U.S. businesses and government operations
    (2) IT systems in critical industries will not be fixed in time
    (3) Global impact from Year 2000 is not adequately planned for and 
Year 2000 fuels global recession much more than anticipated
    (4) U.S. foreign investments encounter disastrous results and 
significantly impact the U.S. investment market
    (5) Too many people lose confidence in the banking sector
    (6) Too many interruptions occur in food or medical supply chain
    (7) Local city and town governments cannot provide critical 
services
    (8) Foreign loans, pacts, and trade agreements are adversely 
affected
Foreign
    (1) Public panic or loss of confidence in the banking sector in 
high risk countries
    (2) Global economy impacted by foreign business and government 
interruptions
    (3) Foreign loans, pacts, and trade agreements are adversely 
affected
    (4) Aid or bail-outs are needed for highest-risk countries
    (5) Foreign business interruptions impact too many U.S. companies
    (6) Foreign security issues ignited by unrest or severe economic 
issues
    (7) Key foreign government agencies experience significant failures
                recommended actions for the u.s. senate
    (1) The United States has no body or group tasked with full time 
monitoring and analysis of global risks the Year 2000 problem is likely 
to pose to the United States. Even if advisory or consulting companies 
were to provide this information to the U.S. Senate or other bodies, a 
full time effort is needed to coordinate global risk assessments of 
U.S. and foreign governments and other risk threats from other 
countries on a regular basis--and, even more importantly, to take 
subsequent emergency action and launch pre-failure contingency plans to 
reduce risk and ward off possible serious effects. There also needs to 
be a focal point for providing risk information and warnings to the 
American public.
    Recommendation: Identify one current federal agency (as a Global 
Risk Management Agency) to manage and coordinate global impact of the 
year 2000 problem on the United States. Economic, financial, monetary, 
military, political, and other resources will need to be analyzed 
regularly, and quickly-developed strategies and contingencies will need 
to be launched across agencies, political governing bodies and foreign 
governments. This agency should report to the Executive Office, and 
have immediate access to the President's Cabinet in matters of foreign 
policy, aid, funding, and national security. It should provide press 
releases, information, guidelines, and warnings to the American public 
with regard to industries, infrastructure, government, and personal 
risks throughout 2001.
    (2) Many Federal programs are administered locally, and many local 
governments lag in Year 2000 readiness. Therefore, interfaces between 
levels of government are at risk. These include interfaces and 
transactions that occur between local, state, and Federal Government 
Agencies. Local cities and towns are lagging far behind and need 
expertise, information, awareness, and aid, to combat the Year 2000 
problem.
    Recommendation: Launch U.S.-wide program to coordinate efforts with 
State and local governments and provide special local city and town 
government aid and information. This effort should be guided by the 
Global Risk Management Agency (described in number 1 (above).
    (3) Our experiences shows that U.S. companies are not providing 
accurate disclosures related to Year 2000 risks and contingencies. 
There are considerable differences between the status of Year 2000 
compliance and critical risks that companies disclose to the SEC, and 
what the actual status and risks are within that company. This 
increases the risk of public investments being made without full 
understanding of Year 2000 risks.
    Recommendation: Pass legislation or require the U.S. SEC to 
implement random audits as part of the Year 2000 disclosure and 
reporting requirements for publicly held companies in the U.S. We 
suggest a sample of audits be conducted by an outside audit agency to 
confirm these findings, and then change the SEC policy to include 
sample audits as part of the routine process of Year 2000 disclosure, 
if substantiated with the sample audits.
    (4) U.S. Senate and U.S. federal government Year 2000 plans and 
contingency plans seem to assume that most failures will occur when we 
hit January 1st, 2000. As described in this testimony, failures will 
occur heavily from 1999 through 2001, and not over one single day or 
week.
    Recommendation: Set correct expectations in U.S. government 
agencies, with U.S. government contingency plans, and with foreign 
governments that the failure window will be a three-plus-year period. 
Ensure that the SEC disclosure period and other Year 2000 regulatory 
government efforts are planned to last during the entire period needed.
    (5) Many lagging companies and government agencies in the U.S. are 
being asked to implement new regulations, rules, reports, and processes 
in their IT systems and data to support new federal requirements or 
legislation continually being passed by Congress (pertaining to a 
specific industry or segment, e.g. healthcare, education, 
telecommunications, etc.). This is a major contributor to lack of 
progress in these companies. Most best-in-class companies farthest 
ahead in gaining compliance have frozen or significantly reduced 
enhancements to current IT systems. This has allowed them to focus on 
fixing the systems and other business dependencies.
    Recommendation: Question all new legislation to determine if it may 
require IT modifications ( i.e., software, hardware, data, or automated 
reports) in federal, state, or local government agencies, or in private 
companies. Cease and desist from passing or enacting any legislation 
that may affect IT systems or change reporting data. Such bills should 
be put on hold for an extended period, to allow companies and agencies 
to be successful in their compliance efforts. This will reduce the risk 
of non-completion of compliance for healthcare, education, and federal, 
state, and local government by 30-50 percent.
    (6) The U.S. Government efforts appear to be focused in two areas: 
(1) IT systems within federal agencies and (2) launching legislation to 
help support compliance within critical industries. It is now clearly 
evident that segments of companies and governments throughout the world 
will not be fully prepared to deal with this problem by 2000. 
Significant global impact will be realized without immediate action to 
avoid moderate or worst case results.
    Recommendation: We suggest adding a 3rd area of effort--managing 
global dependencies and risks. It's critical to launch substantial 
contingency efforts in order to reduce global dependency risks prior to 
Q3 1999. These efforts may be conducted by the Global Risk Management 
Agency (described above). We suggest this new and additional focus be 
defined as a major component of U.S. national compliance efforts, and 
directly linked to the U.S. federal agency efforts, the Executive 
Office of the federal government, and the U.S. Special Committee on 
Year 2000.
                                summary
    A great deal of progress has been made during the past year in the 
U.S. and in several parts of world. IT organizations in the U.S. have 
increased their spending for Year 2000 projects an average of 6 times 
over what was spent during 1997. Year 2000 is now prioritized at the 
top, or number 2 (following Enterprise Resource Planning system 
projects--to replace Legacy systems) by most U.S. companies. Large 
companies in the United States have made the most significant progress, 
and many of them will complete most of their compliance efforts by 
2000. Even smaller companies in the United States have made significant 
progress in the past year, in several industries.
    Even with all of this progress, there are still very serious risks 
for the United States and throughout the world. The gap is widening 
even more, between companies and governments farthest ahead and the 
ones farthest behind, since the laggards are moving much more slowly 
toward compliance. In the United States, industry segments such as 
healthcare, education, agriculture, construction, food processing, 
governments, and companies under 500 employees are lagging way behind 
in compliance efforts. Many of these will simply not finish critical 
systems by 2000.
    U.S. investors are provided very optimistic , often inaccurate, 
disclosures from publicly traded companies (to the U.S. SEC), and 
therefore accurate investment risk assessment data is not often 
available. This is likely to affect our U.S. market and several other 
economic factors as we get closer to 2000.
    Interdependencies and interconnectivity between companies and 
across country borders are also extremely high in significance related 
to Year 2000 risks. Many of these interdependencies are not being 
covered by either company, and many times these interconnections and 
data transfers cannot be easily tested. These are of critical 
importance in banking, government, healthcare, and for many global 
manufacturers.
    Even if we were to miraculously fix every one of these domestic 
issues and make certain all U.S. companies and government agencies will 
get themselves Year 2000 compliant before 2000, the absolute largest 
risk to the United States and to U.S. citizens is the impact from 
companies and governments outside the United States. Far too many 
companies and governments critical to our continued strong economy, and 
providers of key resources, are more than 30 months behind private 
industry in the U.S. Since it takes an average of 30 months for a 
midsize company to achieve compliance of their most critical systems, 
many of these lagging foreign companies and governments will simply not 
have enough time to get their systems fixed before 2000. Failures will 
lead to a negative impact on our economy and availability of critical 
resources. We'll see significant impact from failures in these regions, 
including economic, sociopolitical, investment shifts, market changes, 
critical resources, national security, and defaults on federal loans. 
The only way now to combat this enormous issue, is for the U.S. 
Government to launch significant foreign contingency strategies in 
order to reduce or negate high risk dependencies on these industries 
and countries before we begin to feel these ill-effects. Since failures 
will increase in numbers throughout 1999, increase in volume throughout 
2000, and continue at reduced levels throughout 2001, the time to act 
on this is now.
                               __________

         Prepared Statement of Senator Daniel Patrick Moynihan

    As we wind up the last Year 2000 (Y2K) hearing of this Congress, I 
would like to commend Senator Bennett and the Special Committee for its 
work in addressing the computer problem. The Committee has done a fine 
job in looking at all the aspects of society that the Y2K problem 
affects: the utilities industry, the heath sector, financial services, 
transportation, government, and businesses. The Committee should also 
be applauded for the role it played in formulating and passing S. 2392, 
The Year 2000 Information and Readiness Disclosure Act. As an original 
cosponsor of this piece of legislation, I am pleased to see that its 
enactment is soon at hand. The head of the President's Council on Y2K, 
John Koskinen, said that passing this bill is one of the most important 
things that we could do on the Y2K front. I agree. I say well done to 
the Committee for all of the work it has done in such a short amount of 
time.
    It was almost two and a half years ago that I sounded the alarm on 
the computer problem. On July 31, 1996, I sent President Clinton a 
letter expressing my views and concerns about Y2K. I warned him of the 
``extreme negative economic consequences of the Y2K Time Bomb,'' and 
suggested that ``a presidential aide be appointed to take 
responsibility for assuring that all Federal Agencies, including the 
military, be Y2K compliant by January 1, 1999 [leaving a year for 
`testing'] and that all commercial and industrial firms doing business 
with the Federal government must also be compliant by that date.''
    January 1, 1999 is quickly approaching. I believe that we have made 
progress in addressing the computer problem and that the ``Good 
Samaritan'' legislation will play a significant role in ameliorating 
this problem. But much work remains to be done. For the next 450 days 
we must continue to work on this problem with dedication and resolve.
    Historically, the fin de siecle has caused quite a stir. Until now, 
however, there has been little factual basis on which doomsayers and 
apocalyptic fear mongers could spread their gospel. After studying the 
potential impact of Y2K on the telecommunications industry, health 
care, economy, and other vital sectors of our lives, I would like to 
warn that we have cause for fear. For the failure to address the 
millennium bug could be catastrophic.
                               __________


                Prepared Statement of Dr. Charles Popper

    Good morning Mr. Chairman and members of the Committee. My name is 
Charles Popper and I am Vice President of Corporate Computer Resources 
at Merck & Co., Inc. In that position, I serve as the chief information 
officer of Merck.
    Thank you for inviting me to participate in today's hearing on the 
Year 2000 problem. I applaud this Committee's efforts in both 
investigating and publicizing the potential effects of this very 
serious and prevalent computer bug. I would like to discuss what my 
company, Merck, is doing to deal with the problem. I would also like to 
provide a broader context that you may find useful.
    Merck is a global research-driven pharmaceutical company that 
discovers, develops, manufactures and markets a broad range of 
medicines, directly and through its joint ventures, and provides 
pharmaceutical benefit services through Merck-Medco Managed Care. Merck 
remains the oldest and largest U.S.-based company dedicated to 
innovative vaccine research, development and manufacturing. Merck 
believes in focusing its efforts on the discovery of important new 
medicines. The Company will spend almost $1.9 billion on research and 
development in 1998. Merck's pharmaceutical manufacturing operations 
encompass 30 plants worldwide in the United States, Europe, Central and 
South America, the Far East and the Pacific Rim.
                             y2k and merck
    As you know, the Y2K bug can potentially affect any computer 
program that processes dates, including software application programs, 
operating system programs, and firmware programs that are embedded in 
countless devices that are relied upon by companies and consumers 
alike. Our task at Merck has been to ensure that all such programs that 
are in use anywhere within Merck's world wide operations will operate 
correctly throughout the transition to the new millennium.
    But our objective all along has been a more important one, 
consistent with Merck's company mission. As George W. Merck stated many 
years ago, ``we try never to forget that medicine is for people.'' 
Merck is solving its Y2K problem is order to ensure that we can 
continue to discover, develop, manufacture, and distribute medicines 
that treat important human diseases. Our paramount goal is to ensure 
the continuity of the supply of medicines to our patients.
                            merck's y2k plan
    We are doing so by following a simple strategy.
  --First, we have inventoried all computer systems, applications, and 
        devices with embedded processors.
  --Second, we have assessed each of these systems to determine whether 
        it includes any date processing and whether its correct 
        operation is of serious concern to our business. As an example 
        of a system where we are less concerned about a possible Y2K 
        bug, consider a program that reports monthly sales and 
        organizes the columns of the report in chronological order. 
        While we prefer to have the report continue to show the most 
        recent results from right to left, if the Y2K bug were to 
        merely cause the columns to print in a different order, this 
        would be only a minor concern. We are deferring the repair of 
        such bugs to the final stages of our Y2K project.
  --Third, we have developed a compliance strategy for each system. 
        That is, we have decided whether to repair the software, to 
        replace it with a newer version that is Y2K compliant, to 
        retire the system from active service, or to simply let it fail 
        (as in the above sales report example).
  --Fourth, we are executing the strategy for the many thousands of 
        systems in our inventory. This is obviously a daunting task, 
        because of its magnitude and its geographic diversity; we have 
        to deal with systems in the many hundreds of Merck locations 
        world wide. Hence we have put in place an elaborate management 
        tracking and control system, to ensure that nothing falls 
        through the cracks.
  --The fifth and final step is to thoroughly test all of our systems. 
        Our attitude is to trust no one but ourselves. If a system 
        vendor tells us that their application is Y2K compliant, we 
        will insist on testing it ourselves or at least auditing in 
        detail the test results provided by the vendor. We have already 
        found instances of applications certified compliant by the 
        vendor that, in fact, did not pass our tests initially.
    Our goal has been to achieve Y2K compliance by the end of this 
year, thus allowing all of 1999 for dealing with the inevitable 
glitches and inconsistencies among systems. We have also planned from 
the outset to use 1999 for the global deployments of remediated 
systems. Many of our systems and applications are deployed in multiple 
manufacturing plants, headquarters sites, and research laboratories. It 
is really not necessary to deploy the corrected system everywhere this 
year; it suffices to successfully test one instance of the system, so 
that we can safely plan additional deployments next year. The actual 
deployment schedule is designed to minimally disrupt our ongoing 
operations.
    As you can imagine, Merck's Y2K Project is a very significant 
effort. We began reasonably early, in 1996. There are now in excess of 
several hundred people involved; we are spending many tens of millions 
of dollars to plan, execute, and manage this work. By starting early, 
we were able to schedule the resources in such a way as to have less 
impact on both ongoing business operations and the other information 
technology initiatives so important to Merck's continued success.
                   merck's business partners and y2k
    Fixing our internal systems is only part of the problem. Merck, 
just as any global company, works with many thousands of business 
partners, suppliers, customers, and government agencies. Our ability to 
continue our company's operations successfully in January of the year 
2000 depends just as much on the Y2K programs of these companies and 
agencies as on our own internal systems. Hence we have organized two 
other major sets of activity:
  --Each business area is examining its business partners to assess its 
        Y2K risk. If the proper operation of that entity's systems is 
        essential for Merck's operations, we are both working with that 
        entity to better understand its Y2K remediation plans and also 
        developing internal contingency plans just in case that entity 
        fails to achieve Y2K compliance on time.
  --We are also working as part of the VitalSigns 2000 Project, an 
        effort sponsored by the Odin Group, to gather important 
        information about the Y2K compliance of the entire health care 
        industry in which we participate. This is the only systematic 
        effort of its kind, whose objective is to map out the cross-
        industry processes that together provide American patients with 
        health care services. The VitalSigns 2000 team has developed a 
        survey instrument for the five groups of entities comprising 
        the health care industry: payers, providers, suppliers, 
        distributors, and government agencies. The survey is collecting 
        information about the Y2K readiness of each of these sectors, 
        as well as their interdependencies. By understanding the cross-
        industry processes and their Y2K vulnerabilities, we, together 
        with the rest of the industry, can develop the detailed 
        contingency plans that can assure the continuity of high 
        quality patient care.
                  y2k and the pharmaceutical industry
    What about the broader American pharmaceutical industry? While I 
obviously cannot testify about the detailed plans and projects of 
Merck's competitors, I have had the opportunity to discuss the Y2K 
problem with my colleagues in other pharmaceutical companies, as we've 
worked together within PhRMA, the Pharmaceutical Research and 
Manufacturers of America. These companies have all followed a 
methodology similar to Merck's and are applying the level of resources 
needed to deal with the problem. They have also recognized the broader 
issue of the readiness of business partners and are developing 
appropriate contingency plans.
    We hope that our colleagues and counterparts elsewhere in industry 
and government are diligent in their efforts, so that America's health 
care system is unaffected by Y2K.
                               conclusion
    Let me close with some broader context. I read periodically about 
companies and agencies that are just now waking up to the severity of 
the problem. Worse, I still read and hear about entities that still do 
not believe that there is a serious problem. They may be right, in 
their local situation, but only an organized testing program will allow 
them to be sure. So I do worry about what will happen as the clock 
strikes midnight December 31, 1999.
    The key to success will be our overall preparedness. Hence the work 
of this Committee is of vital importance. It is essential that you keep 
the pressure on both industry and government, both to minimize the 
number of system failures we experience and to maximize our readiness 
to deal with the problems that do occur.
    Again, I thank the Committee for the opportunity to be here today 
and look forward to your questions.
                                 ______
                                 

       Responses of Dr. Charles Popper to Questions Submitted by

                            Chairman Bennett

    Question 1. Mr. Popper, Merck & Co. is as international in its 
operations as an American company can get. You have heard Mr. 
Marcoccio's comments on the severity of the international Y2K problem. 
From your perspective as the CIO of an international company, what more 
do you think the United States should be doing to head off this 
developing storm cloud?
    Answer. I believe that the U.S. should focus on two key areas. 
First, we must provide strong leadership on the Y2K issue by setting an 
example for other countries. All segments of the federal government 
must do whatever it takes to prepare for the Millennium Bug--there must 
be adequate plans as well as determined management and follow up. We 
need to demonstrate to other governments both the seriousness of the 
problem and the techniques and resource commitment needed to address it 
properly. Second, we should work to enable adequate international 
disclosures of Y2K readiness. We can do this by encouraging other 
countries to emulate the recently enacted Year 2000 Information and 
Readiness Disclosure Act [S. 2392], and by working through the 
appropriate international organizations to enact similar international 
protection.
    Question 2. Laurene West testified about her personal medication 
Y2K problems, which provides a unique perspective. How do you see the 
pharmaceutical supply chain responding to that kind of short shelf-life 
medication issue?
    Answer. I believe that the supply of short shelf-life medications 
to patients can best be assured by allowing each pharmaceutical company 
to address its own specific problems. Each company knows its products, 
its customers, and its supply chain alternatives best. Each company can 
therefore develop the contingency plan that best meets its unique 
situation and the needs of its customers, including the issue of short 
shelf-life medications. Any broader action--especially one that 
attempts to implement a common contingency plan--would only add risk, 
by putting all of our eggs into one basket.
    Question 3. Recently, the CIO of another major pharmaceutical 
company told our committee that in the next 3-6 months they will begin 
a ``flight to excellence'' which means the company will begin cutting 
off suppliers or business partners who cannot demonstrate that they Y2K 
ready. Is Merck considering any similar actions? Would you consider 
this ``flight to excellence'' a good way to promote Y2K readiness on a 
business to business level?
    Answer. Merck is certainly examining all of our suppliers and 
business partners, and, if we are not satisfied with their plans for 
Y2K readiness, then we are formulating contingency plans. One element 
of the plan might include seeking alternate sources for those goods or 
services. An alternative is assuring the availability of supply through 
the expected duration of supply chain interruption. The key is to 
develop and implement an effective contingency plan for each critical 
product or service, drawing upon our knowledge of the state of 
readiness of our suppliers and partners. In this way, we can ensure 
that we continue to meet our customers' needs.
    Question 4. Mr. Popper, the pharmaceutical products your company 
produces are dependent on suppliers for ingredients and distributors 
for sales to the ultimate consumer. Where do you see the most critical 
interconnectivity points?
    Answer. Our analysis of the Y2K risks created by our suppliers and 
customers is an ongoing effort, which we expect to continue throughout 
the balance of 1998 and all of 1999. So it is inappropriate to identify 
the most critical risks on a ``once and for all'' basis. Right now, our 
assessment is that the most important risks are within the power 
utility, transportation, and government sectors.
    Question 5. Mr. Popper you mentioned the VitalSigns 2000 Project 
that Merck is participating in as a contributor. How do you see this 
helping to bridge the Y2K problems in the Health Care industry?
    Answer. The Vital Signs 2000 Project, sponsored by the Odin Group, 
is intended to identify the major Y2K risks of the entire 
pharmaceutical supply chain, including suppliers, distributors, 
providers, and payers. The survey will identify those industry segments 
(or their suppliers) who are less likely to be prepared, so that we can 
prioritize and prepare good quality contingency plans. We are also 
working to develop templates for contingency planning that will be made 
available to the entire industry. We expect two benefits from this 
effort. First, it will enable even small companies to prepare good 
quality contingency plans. Second, it will allow all companies to more 
easily examine the readiness of their business partners in a standard 
way; this too will facilitate better and more consistent contingency 
plans.
    Question 6. Mr. Popper, we've heard a lot today about small and 
medium sized businesses. We heard from another witness that these firms 
tend to ``not'' pay attention to the Government and it's 
communications. However, they do listen to their trade associations. Do 
you think enough is being done to inform the small and medium sized 
players in the pharmaceutical sector? What more can be done, say with 
trade associations?
    Answer. I believe that a reasonable answer to the issue of small 
and medium sized players will emerge from the Vital Signs 2000 survey; 
prior to analyzing the survey results, I cannot assess how ready these 
industry segments will be. Using trade associations to inform and 
support smaller companies is probably a good idea. Here, too, it might 
be feasible to leverage the template and contingency planning expertise 
developed by the Vital Signs 2000 project.
    Question 7. Mr. Popper, could you please describe to the Committee 
the kind of contingency planning that is required for a firm of your 
size to cope with the Year 2000 problem?
    Answer. In brief, our challenge is to be prepared for all 
reasonable contingencies. We have identified all of our suppliers of 
both goods and services, and we have assessed the risk and impact of 
supply interruptions for each supplier. We then prioritized the 
suppliers based upon this risk/impact assessment. Finally, we are 
working through this prioritized list to prepare reasonable contingency 
plans. In addition, we intend to form emergency response teams to deal 
with the unexpected problems that will inevitably arise when we roll 
over into the new millennium.
    One caveat is in order. There are contingencies that are 
impractical for even Merck to prepare for. For example, it is 
conceivable that scattered electric power outages could spread via the 
power grid to black out major portions of the country. We cannot 
prepare to overcome such a circumstance. This is, in fact, where we 
rely upon the U.S. government to help. If it were concluded that 
scattered power outages are likely or even possible, we would hope that 
there would be planning at the federal level to prevent these from 
spreading. As our own planning proceeds, we would be happy to share 
with the Committee any findings of similar contingencies that we 
believe would benefit from federal attention.
                               __________

                   Prepared Statement of Rod Rodrigue

    It is an honor to be before this Committee to bring to you 
information with regards to the Year 2000 problem. All of you have been 
inundated with studies which attest to the negative economic impact on 
this country's 384,000 manufacturers.
    A national study indicated that 7 percent of small manufacturers 
could shut down and an even greater number would experience varying 
degrees of business interruptions. The national negative impact exceeds 
$150 billion. It is our estimate that if these figures hold true, Maine 
would experience a negative impact in excess of a quarter of a billion 
dollars.
    I am here today with good news that there's a national system armed 
with an effective tool to positively impact the Y2K problem. Several 
months ago the Department of Commerce's NIST/MEP program developed an 
assessment tool, which allows MEP engineers to quickly, and accurately 
organize the broad spectrum of Y2K issues faced by today's small and 
medium-size manufacturers. The use of this project management tool 
gives the small manufactures a road map for addressing the most 
critical issues such as accounting systems, computerized production 
equipment, environmental management systems, as well as external 
threats.
    The most exciting aspect of this tool is that it now resides in the 
hands of 2,500 men and women located in 400 offices in 50 states and 
that its implementation can be coordinated under a single unified 
national effort at MEP headquarters. The MEP centers are linked to over 
3,500 partner agencies, which can be called upon to help disseminate 
the Conversion 2000 tool. I believe that for the first time we can 
present to you a viable mechanism for attacking the millennium problem.
    Under the leadership of Senators Snowe and Collins Maine has 
progressed beyond the design stage and proceeded directly into 
implementation in over 100 companies. Utilizing a call center in 
contacting 2,500 Maine manufacturers, we confirmed what many studies 
have concluded. Despite having knowledge of the Year 2000 problem over 
half of the small manufactures had no plan to take any action before 
the turn of the century, and those who wanted to act were having great 
difficulty in organizing a systematic approach to the problem. After 
recognizing that between 500 to 600 small Maine manufacturers would 
need immediate assistance, the Maine MEP built a broad-based coalition 
which included Chambers of Commerce, Economic Development Districts, 
Small Business Development Centers, volunteers and business visitation 
specialists. These agencies, as well as independent consultants, will 
be trained by MEP engineers to deliver the Y2K assessment tool 
throughout the Maine manufacturing community.
    Technical experts will staff Y2K hot lines on a 24-hours basis. 
Once the assessment has been completed MEP engineers will generate a 
report which clearly defines the necessary remedial steps. Accompanied 
with this report will be a single-page instruction sheet on how to 
apply for a Small Business Administration (SBA) LowDoc/Fastrack loan. 
The finalized report will not only facilitate loan processing but will 
also provide a standardized industry accepted document which will 
demonstrate the manufacturers due diligence in becoming compliant for 
their banks and other trading partners.
    As president of the Maine MEP I have been asked what the committee 
can do to assist small manufacturers at this crucial juncture. On 
behalf of the millions of men and women who work in small and medium-
size manufacturing facilities, I respectfully request the committee to 
appropriate the necessary funding to allow the MEP system to implement 
the Y2K tool at the national level. It is important to understand that 
this is an assessment tool and that we must complete this work on an 
expedited basis in order to allow these manufacturers to complete the 
identified problems in time.
                                 ______
                                 

                  Addendum to Rod Rodrigue's Testimony

    Along with the testimony submitted at the Y2K hearing, I believe 
that it is incumbent upon me to mention the importance of appropriating 
additional funding to help the Manufacturing Extension Partnership's 
(MEP) initiative in developing a national Y2K program like Maine MEP's. 
The MEP is committed to helping U.S. manufacturers in addressing the 
Y2K issues. To implement the Y2K program additional resources would 
assist states like New Jersey. Robert Loderstedt, President of New 
Jersey MEP, has indicated to me that of the 13,000 small manufacturers, 
New Jersey faces a potential closure of 1,000 businesses in Year 2000 
and between 2,000-3,000 others needing assistance in becoming Y2K 
compliant. Although Maine needs additional appropriation to address the 
Y2K problems, New Jersey, as well as other states, clearly has a great 
financial need in tackling their manufacturers' Y2K issues.
                                 ______
                                 

          Responses of Rod Rodrigue to Questions Submitted by

                            Chairman Bennett

    Question. In your testimony regarding the NIST/MEP Conversion 2000 
assessment tool, you indicated that within Maine you have progressed 
beyond the design stage with over 100 companies engaged using the tool 
and MEP assistance. When did these efforts start? How long does it take 
to complete an assessment with Conversion 2000 and MEP representatives? 
What can you tell the committee about the results of those efforts to 
date? Are there any lessons learned to share at this point?
    Answer. The efforts started in early September as soon as we had 
first results from our call center that was set up to directly, 
individually, and personally raise manufacturer awareness of the Y2K 
problem.
    Complete assessments with Conversion 2000 and a MEP representative 
are determined by the size of the company and scale of their specific 
problem. We have some companies that are relatively small and without 
significant computing resources that feel they don't need any help at 
all. We can educate them that Y2K is not just an internal computer 
problem but a more generic business problem with both internal and 
external considerations. These companies, once aware of all the 
potential exposures, can be helped fairly quickly (one or two visits 
and letters between suppliers) because of their limited exposure. For 
other companies it has taken our very pointed calling awareness program 
to bring focus to the Y2K process (quite late I think) and they are in 
much more significant jeopardy, taking longer to complete. A case in 
point is one company that sources all it's raw materials from five 
different European countries with five currencies, has a third party 
broker to clear customs for these products, and being a catalog company 
depends on another third party mailing list provider for its market. 
This company also has manufacturing operations that may have an 
embedded chip concern. Considering that Europe is significantly behind 
the United States in its Y2K efforts and that the Euro common currency 
will be rolled out at the same time as Y2K hits, this company has a 
much more complex situation than others and will take longer to assess. 
This is only one case but there are many more that once a MEP 
representative has called and explained the whole realm of 
possibilities are finding that this is in fact a real problem for them 
that they are having to deal with and are not prepared.
    To date we have identified through our call center 250 Maine 
companies that have indicated they would like to have a field engineer 
call. We have assigned MEP representatives to 206 of these companies 
and are currently working directly with 30.
    There is a lot of apathy in the marketplace and it takes a 
concerted effort to get businesses to recognize their exposure. This is 
more of a problem for companies than they originally recognized and 
they have to devote more time to it than ever envisioned. MEP needs to 
be involved in the assessment phase because without some concerted 
effort many of these companies will not come to the process until it's 
too late. MEP needs to provide funding for the assessment phase of Y2K 
because it's a good investment in our business future. A small expense 
now in assessment can mitigate far larger costs later.
    Question. You have asked the committee to appropriate the necessary 
funding to allow the MEP system to implement the Conversion 2000, Y2K 
tool, at the national level. What is the necessary funding needed at 
the national level? How would you propose that the funds be 
administered to discourage abuse and encourage proactive Y2K efforts? 
If federal funds were made available for a national MEP effort, how 
would you propose those non-manufacturing businesses are given similar 
assistance? Is it appropriate for the Federal Government to accept 
these costs and where should it stop?
    Answer. Based upon our estimates for the needs of Maine 
manufacturers, we believe the funding needed at the national level is 
at least $50 million for expanding the Y2K outreach initiatives of the 
MEP system. These funds would be best managed through the national MEP 
program, as the federal funds added to the cooperative agreements of 
the manufacturing extension centers would leverage the match funding 
requirements from the states and local partners. This means that if the 
Federal Government provides half of the needed total, the match funding 
requirements would effectively bring $50 million in resources to bear 
upon this critical need.
    An expanded MEP outreach effort would benefit non-manufacturing 
businesses through expanded partnerships with Export Assistance Centers 
and Minority Business Development Centers within the Department of 
Commerce, Small Business Development Centers (SBDC's) of the SBA, and 
Department of Agriculture extension offices. We have been working with 
the SBDC's of Maine to help streamline the loan approval process for 
SBA Y2K remediation project loan guarantees. The Utah and Iowa MEP 
centers have partnered with SBDC's to provide Y2K awareness materials 
and presentations. The Department of Commerce recently signed an MOU 
with the Department of Agriculture under which MEP is providing Y2K 
awareness materials, Y2K Self-Help Tool, and training. Discussions are 
continuing with the Department of Agriculture and SBA for replicating 
these successful partnering models across the national system, if 
additional funds become available.
    The MEP Y2K outreach program takes a company through the awareness 
phase and helps a company determine which of its systems are not Y2K 
compliant. It then helps a company plan the necessary remediation and 
identify the resources required to implement the corrective actions 
(such as SBA loan guarantees). At that point it is the company's 
decision to commit its own resources to proceed with the remediation 
project. Federal funds will not be used to repair systems for 
companies, but we believe that it is appropriate for the Federal 
Government to expand its Y2K outreach efforts in continuing awareness 
and assessment activities to help small businesses identify the extent 
of their Y2K problems.
    Question. As a result of the Conversion 2000 assessment process is 
a report defining necessary remedial steps generated by MEP engineers, 
according to your testimony. You note the report will both facilitate 
SBA loan processing and demonstrate due diligence. Has the SBA agreed 
to accept this report as the basis for expediting loans? How do small 
manufacturing companies using Conversion 2000 generate this report? 
Will the SBA accept a report not generated by a non-MEP engineer?
    Answer. For matters of SBA policy please contact Kris Swedin, SBA 
Associate Administrator for Legislative and Congressional Affairs. Kris 
may be contacted at SBA headquarters at 202-205-6700.
    Maine MMEP, Maine SBA and the Maine SBDC have developed a 
partnership where the MMEP Assessment will be utilized by the SBDC to 
put together the financials and business plan for any company needing 
capital to meet it's Y2K needs. The SBA will work with the SBDC and 
it's lending partners to ensure that no business lacks the capital for 
Y2K conversion. We believe that this model could be used in other 
states.
    Question. The need to continue awareness campaigns at this late 
date continues to trouble this committee. However, it is been more 
troubling that once made aware of Y2K issues, over half of small and 
medium size manufacturers in Maine plan to take ``No Action.'' Would 
you please describe your sensing of why this course of action (``No 
action'') is selected over 50 percent of the time? What is being done 
to educate them as to the consequences of taking ``no action''?
    Answer. We believe that the reason for many companies deciding not 
to act is the lack of a complete understanding of the pervasiveness of 
the Y2K problem and how it can effect their business. Many companies 
are ``generally aware'' of the problem, but have not taken the time to 
investigate the potential effects of failures within external 
organizations upon which they rely, within their own embedded systems, 
or in their ``relatively new'' systems which they assume are compliant. 
A more proactive and detailed awareness campaign is needed to target 
this large group of small businesses to break through these 
misperceptions and apparent apathy about the Y2K problem. A portion of 
funds made available for expanding the national MEP Y2K outreach effort 
would be used for a more in-depth awareness campaign for small 
businesses.
                               __________

                  Prepared Statement of Harold Schild

    Chairman Bennett and committee members, I thank you for providing 
me an opportunity to share with you our experience as a relatively 
small, farmer owned, dairy cooperative, in dealing with the year 2000 
computer problem. I'll provide you with the full text of my comments 
but only recap the highlights in my remarks here before you today.
                              first notice
    We were first made aware of possible Year 2000 problem during 
February 1996 audit of our 1995 financial records by a big five 
auditing firm.
    At the management level, we authorized our Management Information 
Services staff to research the validity of the potential for problems 
in our computer systems. They reported that there was indeed a real 
danger of a complete calamity when January 1, 2000 rolled around and we 
should begin immediately to work toward correcting the problem.
                        magnitude of the problem
    TCCA is a 150 member dairy cooperative nestled between the Coast 
Range Mountains and the Pacific Ocean 75 miles west of the Portland, 
Oregon metro area. The association has sales of about $160 million, 
totally in branded, value-added dairy products, primarily cheddar 
cheese, a small sample of which I've shared with you today.
    At the time we became aware of the Y2K problem we had an M.I.S. 
staff of two people. Despite our efforts, we have been unable to 
attract additional staff to our coastal area to cope with every day 
programming demands, plus deal with the Y2K bug. Many other companies, 
IN THE METRO AREA, able to pay higher salaries, have engaged most of 
the qualified PROGRAMMERS in the region.
    Our approach was to form teams that would think of all the 
potential problems in their areas. Some of our people were sent to 
seminars to gain a better understanding of where to search for the Y2K 
bugs. A few of the potential problem areas they found were:

    1. Accounting software
    2. Electronic Data Transfer (E.D.I.) between TCCA and customers
    3. Member and employee payroll
    4. Point of sale programs (Visitor's Center/Farm Store)
    5. Were our suppliers compliant
    6. Legal issues--performance agreements
    7. Financial transactions--customer payments
    8. Order reception and processing--customers complaint?
    9. Automated product processing--would the plant produce product?

    To date, our accounting department estimates that our out of 
pocket, cash expenditures will exceed $1 million to avoid a major Y2K 
problem. This does not include any of the internal cost of staff time 
or expense for training. The loss of productivity internally, because 
our people were busy with Y2K, is also not included in this cost 
estimate. This cost will be directly borne by our dairy members many of 
whom are struggling to make ends meet already.
                             current status
    At the present time, we are applying a test program to all of our 
software to determine if all bugs have been exterminated. We are 
confident that TCCA will be Y2K ready before the fall of 1999 if we do 
not experience delays in receiving software, which we have contracted 
for installation April 1, 1999. We expect no problems, but then I'm 
sure there will be some surprises, there always are.
                       food industry's readiness
    Many CEO's of dairy companies I talk to express a wide range of 
views on Y2K from disbelief that it is more than a computer industry 
hype to stimulate business, to a view that the electronic world as we 
know it will cease to operate, leaving commerce stalled, utilities shut 
down, and only hand operated equipment functioning. Some project no 
additional cost to complying with Y2K requirements while others 
estimate their costs will, like ours, exceed $1 million.
    As in many other industries, the large, well financed seemed to be 
better prepared than those who are less sophisticated and more 
personally operated. I would rate the dairy industry as possibly 
receiving a ``C'' for overall preparedness.
                     what can congress do to help?
    Many persons are not aware of the real potential for disaster that 
exists. This committee is an excellent vehicle toward a broader 
awareness level nationwide.
    Some suggestions for Congress to act upon:

    1. Establishing a centralized, government sponsored web page for 
all U.S. companies to log on to and certify they are completely 
compliant. Companies could access this page to verify if their 
suppliers and customers are prepared to function after January 1, 2000. 
This would reduce duplication of effort.
    2. Immediate tax recovery of all program upgrade costs. I 
understand that the IRS has stated that the portion of any new software 
or hardware needed for Y2K compliance could be expensed in the current 
year. However, much of the software and hardware needed to operate the 
new upgrades will not be immediately deductible as an expense since it 
is not used solely for Y2K but may incidentally improve other non-Y2K 
functions of the operating systems. This upgrade must be expensed over 
a longer period of time under the current IRS guidelines.
    3. Assure the industry that government services will be fully 
compliant. I understand many Federal, State, and local public bodies 
such as utilities, emergency services, financial institutions, and 
transportation services are not Y2K compliant and do not have the 
resources to become compliant by January 1, 2000.

    I thank you for this opportunity to express the Y2K status of our 
cooperative in Oregon. Hopefully it can help others avoid a major 
crises just 65 weeks from now.
                                 ______
                                 

            Summary of Tillamook<Register> Cheese Y2K Issue

    Upon our February 1996 audit, of our 1995 financial records, it 
became apparent that we should begin immediately to address the 
potential problems in our computer systems when January 1, 2000 occurs. 
TCCA selected staff to attend Lucent seminar to gain understanding of 
the diverse elements that will be affected by the Y2K issue (legal 
issues, banking and commerce, supplier compliance, and order 
processing).
    Our MIS staff of two people took it upon themselves to form 
internal teams to research how the Y2K issue will effect the daily 
operations of our company in each department. These teams determined 
that none of our major systems (Accounting System, Patron Payroll 
System, EDI Software, Payroll software, other smaller applications, and 
our PBX Voice Mail system) were Y2K compliant. As a result, these teams 
evaluated and selected new applications to replace almost all major 
systems in the organization.
    MIS is also in the process of determining the general preparedness 
of our contacts in the food manufacturing industry. We have received 
over 10 letters of certification and surveys assessing the level of the 
problem within this entity.

    1. Research of the Y2K Crisis:
  --Gain understanding of the impact the Y2K issue will have on our 
        network infrastructure, computing hardware, and major software 
        systems
  --More specifically how will this effect plant operations (staff), 
        customers, manufacturing industry, and budget
  -- Preparation of other companies
    2. Compliance Requirements:
  --Written high-level plan that outlines TCCA's procedures for Y2K 
        issue (include cost estimate)
  --Identify and schedule staff for plan implementation
  --Timetable of expected completion dates
  --Prepare comprehensive inventory of financial, informational and 
        operational systems
  --Identify critical systems and decide which are negatively impacted
  --Plan for renovation, replacement and upgrade
  --Contact key vendors, service providers, and customers to determine 
        their systems compliance
  --Mitigation of risk of litigation and non-compliance
  --Contingency plan for systems failing to function properly
  --Delegate MIS and administration to oversee Y2K issue
    3. Year-To-Date Status
  --Selected new Windows Accounting Application (Platinum for MS SQL) 
        and implementation has begun--conversion process expected to 
        last through 5/99
  --EDI software upgraded to Sterling Gentran (also on MS SQL) and is 
        ready for installation and implementation--completion of this 
        process is pending on the interfacing Accounting system--
        expected to be in place by 12/98
  --Payroll software (ADP for SQL) replaced and in use since 9/98
  --Still searching for a new software application to replace Patron 
        Payroll system--currently assessing Windows based system 
        developed in New Zealand--expected implementation 6/99
  --Currently upgrading PBX Phone and Voice Mail system
  --On-going testing of all equipment and desktop applications for Y2K 
        compliance
  --Currently developing three phase implementation of HMI system 
        (Wonderware Factory Suite) to control and monitor the 
        production process for all products--scheduled completion Fall 
        1999 (note that we can still make cheese if computer shuts 
        down)
  --Currently assessing compliance of our suppliers, trading partners, 
        business associates, etc. * * * and to inform them of our plans 
        in progress
  --Established estimated budget for implementation of plan:

Accounting....................................................  $450,000
Patron Payroll................................................   100,000
EDVADP........................................................    25,000
Farm Store....................................................    40,000
Visitor's Center..............................................   100,000
                        -----------------------------------------------------------------
                        ________________________________________________
    Total cost................................................   715,000

    (Cost expected to be well over a million dollars, not including 
staff time)
                                 ______
                                 

          Responses of Harold Schild to Questions Submitted by

                            Chairman Bennett

    Question 1. You mentioned that you first became aware of the Y2K 
problem during your company's February 1996 audit. Can you describe how 
exactly the problem came to the company's attention? What problems in 
your systems did you encounter which led you to believe there was a 
potential problem?
    Answer. The management letter comment was first made as part of the 
1996 audit, with the letter released in March 1997. This was becoming 
an automatic inquiry by auditors at the time to start looking at what 
their clients were setting up for Y2K. It was a comment to mean that 
we, along with other companies, should start addressing the Y2K 
problem. I would assume the Y2K issue was in almost everybody's 
management letter that year. It wasn't really that TCCA, or other 
companies were oblivious to the problem, but a comment directed to 
boards and management that it was an area that was going to have to be 
addressed.
    Question 2. You mentioned that Tillamook has been unable to attract 
additional staff to cope with your programming demands. What impact 
will it have on your Y2K readiness if you can't obtain the needed 
assistance in the programming area? Do you have any suggestions about 
how to remedy this problem?
    Answer. We are looking for an additional person right now. As we 
talked about, we need to get better organized, and take care of a lot 
of administrative matters, such as documentation, Y2K compliance 
progress, user training and procedures, etc. Without that, and if we 
can't get the right person, too much of what we do will be hit or miss, 
with whatever problem screams the loudest getting the most immediate 
attention. I think we probably can attract the right person, unless we 
run into the restraints of the overall company staffing budget which 
can be adjusted administratively. It is true that programmers are in 
high demand right now, and I would be scared if we weren't really 
putting in brand new software-farm store, Wonderware, Platinum, retail, 
etc. If we were trying to rewrite everything ourselves, I don't think 
we would ever get it done. I don't really know how to remedy the 
problem.
    Question 3. What will the impact of Y2K costs be on your dairy 
members who are already struggling to keep their business viable?
    Answer. First of all, the estimated costs to TCCA as a 
manufacturing and marketing cooperative are in the $1 million range for 
the fiscal years of 1998 and 1999. That amount will impact each of our 
150 members by about $6,500 for the year. In a cooperative, all income 
that is not expended to cover operations is paid to members in either 
monthly payments for milk or year-end distribution of retained 
earnings.
    There is no way yet to estimate how much it will cost to evaluate 
and correct the on-farm equipment such as automated milkers, feeders, 
environmental systems, herd record keeping, or computerized automotive 
controls. Each farm could experience different impacts depending on 
their level of electronic sophistication.
    Question 4. You rated the dairy industry as a ``C'' for overall Y2K 
preparedness. What evidence can you cite to support conclusion? What 
specific steps do you recommend the dairy industry take to improve this 
rating?
    Answer. The grade of ``C'' was given mostly on antidotal 
perception. Some fellow dairy executives readily discuss the level of 
effort they have expended on the Y2K problem. Most, however, are 
reluctant to discuss the issue or they openly state skepticism that the 
Y2K problem is real. The higher the level of retail involvement a dairy 
has, the more likely it is to be prepared for Y2K.
    Question 5. One of your specific recommendations for the committee 
was that the Congress should establish a web page for all U.S. 
companies to log on to and certify that they were completely compliant. 
Assuming the U.S. Congress could accomplish this as a requirement for 
all U.S. businesses. If there were not major fines for submitting false 
data and certifications, what would be the inceptive for any firm to 
submit anything other than an affirmative that they were compliant? 
Would you believe the statements found at such a web site?
    Answer. If a web site were established it should include legal 
penalties for false statements. The Commerce Department could research 
any complaint and rule on the liability for misrepresentation.
    I would believe few companies would make false statements of 
compliance under the threat of legal action. In general, we do business 
with companies we know and have experienced good relations with. Those 
we do not know as well are now checked out through other companies' 
experience.
    The system might not be perfect, especially if implemented in a 
short time frame. However, such a central clearing site would be 
preferable to not having any way to know if your partners in business 
are Y2K compliant.
                               __________

               Prepared Statement of Senator Gordon Smith

    Thank you Mr. Chairman. I appreciate the opportunity to lead the 
effort in addressing the business sector on Y2K issues.
    I would like to thank all the distinguished witnesses before us 
today for taking time to testify, and for helping us address the 
challenges facing the entire business sector at both the small and 
large ends of the scale. And with American businesses today becoming 
more and more dependent on technology, I hope this hearing will be a 
stepping stone for all small businesses to inch closer to full 
preparedness for the Year 2000.
    Those most at risk from Y2K failures are small and medium-sized 
companies, not their larger counterparts. Many small companies have not 
yet realized the extent to which the Y2K computer problem will affect 
their businesses. And they may not have access to capital to cure such 
problems before the Y2K issue causes disastrous effects. This is why it 
is so important for the federal government to both raise awareness of 
the problem as well as the emerging solutions.
    In my former life, before serving as a U.S. Senator, I was a pea 
picker from Pendleton, and owned a small frozen food processing plant. 
I can assure you that any interruption within the farm-to-fork chain 
can result in not only a direct loss to those who supply food, but will 
likely translate into food shortages and price increases nationwide. As 
with many businesses, food suppliers are increasingly dependent on 
computerized processing and information exchange.
    For example, farmers and ranchers use electronically-equipped 
irrigation systems, animal systems and transport systems. Food 
processors rely on automated systems that help prepare and package 
consumer-ready products. Distributors, wholesalers, and retailers 
depend on computer-driven equipment to transport, deliver, store, 
display, and sell food products. Inventory and accounting systems, 
harvesting equipment, grain elevators, refrigeration and security 
systems also depend on the computations of computers.
    Mr. Chairman, I am aware that in preparing for this hearing, our 
Committee has encountered some difficulties in securing witnesses from 
the major U.S. food retailers and manufacturers. I regret that these 
retailers and manufacturers cannot join us today. I would like to 
extend to them another invitation to join us next year as we continue 
to address the food industry and the important role they play in the 
world's food market.
    However, I am happy to report that we will hear from a 
representative of one of Oregon's food companies, many of whom have 
been working very hard to assure that they are Y2K compliant.
    I am proud to introduce Harold Schild, President and CEO of 
Tillamook County Creamery, who is one of our witnesses today from 
Tillamook, Oregon. I look forward to hearing Mr. Schild's testimony to 
address the ``real'' problems with which a typical small business is 
confronted and its approaches for addressing the Y2K problem.
    Another company from Oregon, Norpac Foods, has also been leading 
the efforts in addressing the Y2K problem in the frozen food business. 
While Norpac's representative is not present today, the company has 
provided a statement to be entered into the record.
    I am very pleased to see the Deputy Administrator of the Small 
Business Administration, Mr. Fred Hochberg, here before us today. The 
SBA has been one of the few leading federal agencies actively raising 
public awareness for Year 2000, and I would like to commend the agency 
for its aggressive outreach programs to small businesses. I know my 
constituents in Oregon have found the SBA web site very useful and 
informative.
    Mr. Hochberg, I am interested in your opinion regarding the recent 
legislation, passed by the Senate Small Business Committee, that 
requires the SBA to establish a Y2K Loan Program. I understand this 
loan program would establish a new short-term loan program under which 
the SBA would guarantee up to 50 percent of the value of private-sector 
loans, up to a total loan value of $50,000 for small businesses to 
become Y2K-compliant. If you or any of the witnesses can testify on the 
impact this legislation will have on the small businesses of America, I 
would be very interested.
    As we work toward addressing the Y2K problem, let's not forget that 
many of our international neighbors are still very far behind. We need 
to continue to encourage foreign countries to focus on the impacts of 
Y2K, since it could potentially shut down an entire country. With this 
in mind, I look forward to learning more about the specific Y2K 
challenges facing both our small businesses and global corporations.
    Thank you Mr. Chairman.
                               __________

             Prepared Statement of Senator Olympia J. Snowe

    Mr. Chairman: Thank you very much for holding today's hearing 
regarding how the year 2000 computer problem will impact small 
businesses. When I wrote to you in August, encouraging you to hold this 
hearing, it was after I held a series of forums about this problem and 
how this problem impacts small businesses. I planned the forums in 
Maine because I felt that it was very important to bring the Year 2000 
computer problem issue to the attention to small businesses.
    I am very glad I did because I learned a lot about the problem. I 
learned that this is a very serious problem for small businesses. I 
learned that it will take a great deal of effort by the operators of 
the small businesses to correct this problem. I also learned, like most 
things today, a solution to this issue will require an investment of 
time and money and a concerted effort to ensure that small businesses 
are aware of the problem and are encouraged to solve it now, rather 
than later.
    As Rod Rodrique of the Maine Manufacturing Extension Partnership 
will tell you during his testimony, the forums were an overwhelming 
success and people who attended learned a great deal about the problem, 
as I did. Mr. Chairman, I am happy to report that as a result of the 
forums, many small businesses in Maine are working to ensure that they 
are Year 2000 compatible. I hope they complete the work on time.
    Today, as we all know, almost every aspect of our lives are 
influenced by computers. Everything from buying groceries, to phoning 
the office, to getting money from the ATM machine, all rely on the 
computer to process information needed to conduct these transactions. 
And certainly, just as small businesses form the backbone of our 
economy, computers have come to form the backbone of our small business 
operations.
    I decided to convene these first-of-its kind in the nation forums 
throughout Maine this past August because the clock is literally 
ticking on our opportunity to fix the Y2K problem. As the last grains 
of sand slip through the 20th century hourglass, the clocks inside an 
estimated 200 million computers across America are counting down toward 
what could be a disaster for the country and private enterprises across 
the United States.
    We've all heard the humorous twist on an old saying: ``Why do today 
what you can put off until tomorrow?'' Well, after December 31 of next 
year, there won't be a tomorrow for computers that, despite being able 
to balance multi-million dollar ledgers, won't even know what day it 
is. In other words, instead of New Years' being a time for celebration, 
it could be a time for consternation--and perhaps the greatest 
collective hangover this country's ever known.
    In all seriousness, though, the impact on the small business 
community could be significant. According to a National Federation of 
Independent Business and Wells Fargo Bank study, 82 percent of small 
businesses are at risk.
    Fortunately, it doesn't have to be that way. With the benefit of 
foresight and proper planning, we can diffuse this ticking time bomb 
and ensure that the business of the nation continues on without a 
hitch--or a glitch.
    From a technical standpoint, the corrections are not difficult to 
make. However, determining that there's a problem, finding people 
qualified to fix the problem, and crafting a solution to fit the 
individual needs of different computers and programs poses significant 
challenges.
    For one, to determine whether a system needs to be fixed, the 
software code must be reviewed, which often entails reading literally 
thousands or even millions of lines of computer code.
    Furthermore, there is a serious shortage in this nation of workers 
skilled in performing this task--especially those who can decipher 
older computer languages which may no longer be taught in school, but 
are likely to contain the Y2K ``bug''.
    Finally, there is no set method of curing the problem. A magic 
``one size fits all'' solution simply does not exist, and it will be up 
to each individual technician to determine the proper course of action. 
That is why it is so important that we start now to fix the problem.
    On the federal level, the Senate Commerce Committee, of which I am 
a member, has been working to address the situation, which poses the 
threat of having a serious negative impact on the U.S. economy over the 
next few years. In fact, a recent study by Standard Poor's determined 
that, due to the Year 2000 computer problem, economic growth could be 
cut by half a percentage point in 2000 and early 2001, a result that 
would be similar to the economic damage expected from the Asian 
financial crisis.
    Major industry sectors must coordinate their efforts to correct 
their computer systems so they continue to function as designed. 
Especially among banks, credit unions, and the stock market, the perils 
of inaction could be millions of transactions lost, resulting in 
billions of dollars being transferred to wrong accounts, or accounts 
rendered inaccessible.
    These are important reasons not to wait another day to tackle this 
issue, but as a member of both the Commerce and Small Business 
Committees, back in April when the Commerce Committee was having a 
hearing on this very topic, I began to wonder what the effects would be 
on small business as well. After discussing this issue with people in 
Maine, I discovered that, in fact, small businesses were aware of the 
issue but have not focused on the problem.
    I know many small businesses simply don't have the kind of time and 
resources that many larger businesses may have at their disposal to fix 
this potentially serious problem. In order to provide small businesses 
assistance, I joined Senator Kit Bond as an original co-sponsor of 
legislation that will help small businesses solve their Y2K problems.
    Under this legislation, the Administration will establish a pilot 
loan guarantee program under which it will provide loans up to $50,000 
to small businesses to address the issue. I believe this is a critical 
way in which the federal government can help finance the purchase or 
repair of computer equipment to achieve Y2K compliance.
    With that, I'd like to again thank you for holding this very 
important hearing.
                               __________

                 Prepared Statement of Ronald J. Streck

                              introduction
    Good morning. My name is Ron Streck and I am President and CEO of 
the National Wholesale Druggists' Association (NWDA). NWDA appreciates 
the invitation to testify today before the committee about the 
implications of the Y2K ``bug.''
    NWDA is the national trade association representing distributors of 
pharmaceutical and related healthcare products. NWDA active member 
companies operate 215 distribution centers throughout the country that 
service every state, the District of Columbia and U.S. territories. 
NWDA's active members provide distribution services to the 130,000 
pharmacy outlets in the country, including the 21,000 independent 
pharmacies, 18,000 chain pharmacies, 7,500 hospital pharmacies, 220 
mail order pharmacies, 7,000 food stores, 5,000 mass merchandisers, 
4,000 long-term care and home health facilities, 56,000 clinics and 
1,000 HMO's.
    Our most recent data indicates NWDA-member wholesale distributors, 
on average, obtain products from over 750 manufacturer suppliers. 
Typically, a single wholesale distribution center stocks an average of 
24,000 items and will process over 13,000 order lines per day. 
Virtually all orders placed by pharmacy customers to their wholesale 
distributors are transmitted electronically and more and more 
``electronic'' picking devices are used to fill these orders.
    To service an increasingly demanding and integrated healthcare 
market, practically all wholesalers provide daily deliveries with a 
growing number of wholesalers providing twice-a-day deliveries to their 
customers. However, today's wholesalers do so much more than ``just'' 
deliver product in a timely manner. Some of the value-added services 
NWDA members provide to their customers include marketing and 
advertising support, product sourcing programs and special handling 
services. Other services provided that are especially relevant to the 
Y2K discussion are the computer and information programs that include 
third party claims processing and receivables services, inventory 
management, pharmacy computer systems for dispensing and care, and 
point-of-sale systems.
    Wholesalers have been innovators and leaders in information 
technology. They continue to use information technology to integrate 
suppliers and customers. These programs and systems rely on automation, 
connectivity, information systems, electronic linkages and network 
building that allow for the prompt and efficient delivery of life 
saving healthcare products. NWDA members have been methodically working 
to ensure their systems and those of their customers are compliant. You 
will hear more about exactly what wholesalers have been doing from 
Keith Mallonee of the McKesson Corporation in a few minutes.
    Based on the number of suppliers, customers and orders, it does not 
take long to speculate on what would happen if there were an 
interruption of electronic transfer of information. Many of these 
transmissions are reliant on commercial and government 
telecommunication networks--systems over which the pharmaceutical 
industry has no control. NWDA and its members need to know that these 
vital communication networks are Y2K compliant and ready to support the 
delivery of healthcare services to the patient. This constant 
electronic transfer of information is the reason I am here today.
    NWDA and our members have long been concerned with the potential 
for Y2K problems. This topic was first discussed in 1993 when the 
association began an initiative to raise awareness of the problem in 
the industry and develop a plan of action. In the subsequent years, 
NWDA's Technical Standards Committee, Productivity Committee, and 
Business Systems Committee have addressed the issue and it has been 
highlighted numerous times in the association's newsletter. NWDA staff 
have been active participants in the process that developed Y2K 
standards among EDI standards' groups and in the adoption of Year 2000 
compliance standards required under the Health Insurance Portability 
and Accountability Act. In addition, NWDA's long-range strategic plan 
includes a specific goal to ``set up a system to share information on 
solutions to the Y2K problem by 1998.''
    As we have developed our association's webpage, NWDA has devoted a 
separate section just for dissemination of general Y2K information. We 
endorse the notion of common solutions for common process problems and 
we are ready to move ahead with an industry clearinghouse for Y2K 
technical fixes that would allow drug wholesale trading partners to 
freely share such technical information. We have been reluctant to 
proceed with this project due to liability and antitrust concerns. 
However, with the passage of the Year 2000 Information and Readiness 
Disclosure Act (S. 2392) we understand that we will now be able to move 
ahead. We commend Congress for its approval of this important 
legislation and urge the President to move swiftly to sign the bill 
into law.
                                concerns
    We are greatly concerned that federal, state and local governments 
are quickly running out of time to adequately test and correct all 
public service and infrastructure systems. It is disturbing to read 
reports from Congress and the General Accounting Office indicating that 
there are serious concerns that many federal agencies will not be 
ready. The July 1998 report by the GAO entitled ``Year 2000 Computing 
Crisis'' concluded that ``federal agencies and state governments 
suggest that the full extent of the managerial and operational 
challenges posed by the heavy reliance on others for data needed to 
sustain government activity is not yet known.''
    Congressman Steve Horn, in his role as chairman of the House 
Subcommittee on Government Management, Information and Technology, has 
issued another report card on federal agencies with HCFA once again 
receiving an ``F.'' We fear that federal and state government agencies 
will not survive the change over to Year 2000 without interruptions in 
healthcare reimbursements. Let me explain the impact a failure in the 
Medicare/Medicaid programs could cause in the delivery of prescription 
drugs.
    Wholesalers operate on very low profit margins (1997 figures show a 
net profit after taxes of 0.76 percent) and extend credit to their 
customers who also operate on very tight margins. Over 75 percent of 
prescription drugs are reimbursed through various third party and 
government programs. Pharmacies and hospitals purchase products on 
credit with the expectation that there will be a continual flow of 
reimbursement to offset these expenses. If prescription drug 
reimbursements for their Medicaid and Medicare patients should be 
interrupted for any length of time, we are concerned that many retail 
pharmacies and rural hospitals will not be able to weather the storm.
    A related concern is the emerging role wholesalers have recently 
taken to manage their customer's receivables. Wholesalers, as part of 
their customer service program, will buy the receivables from their 
pharmacy customers and pay them within three days. Typically, the 
wholesaler must then wait 30 to 90 days to be reimbursed by the third 
party payer. If the government or other payers are not Y2K compliant, 
it will seriously imperil the cash flow for the wholesalers and their 
customers.
    Government reimbursement is only one area that could disrupt the 
flow of life sustaining prescription drugs to patients. Even if all 
parts of the prescription drug supply chain are compliant and ready, if 
there are failures in other links, it would be irrelevant that we are 
ready. We need assurances that government agencies will be Y2K ready so 
they can seamlessly carry out their important functions. If they are 
not, and drug wholesalers therefore cannot provide pharmaceuticals to 
the pharmacy or hospital when they are needed, the results could be 
catastrophic. Additionally, failures within the transportation, 
communications, public utility or financial networks will have a great 
impact on our sector. All these systems are interconnected and 
disruption in one causes disruption throughout the entire system.
    We are hearing that patients and providers are starting to talk 
about trying to stockpile products as a contingency plan. This is not a 
realistic approach and one that could prove to be very dangerous to the 
patient. Not only are there cost and efficiency concerns, but more 
importantly, there are safety and efficacy issues revolving around the 
integrity of the product due to expiration dates and sensitive storage 
requirements. In addition, if a DEA registrant suddenly increased its 
normal ordering pattern for controlled substances, a ``suspicious 
order'' report would be generated and investigation of these events 
would put an unnecessary and avoidable drain on law enforcement 
resources. Also, many patients are prohibited under their insurance 
plans from obtaining more than a 30-day supply of their prescription. 
Clearly, stockpiling or hoarding prescription drugs is not the answer.
                               conclusion
    Wholesalers are making contingency plans to make sure there is not 
a disruption in the availability of product. I want to emphasize that 
wholesalers are just one link in the chain. If the government agencies 
that play such a vital role in the health care system are not going to 
be Y2K compliant, contingency plans must be quickly completed and this 
information passed on to the public. How a business or industry 
develops its own backup plan depends on what government services will 
be available. NWDA and our member companies stand ready to work with 
government, at all levels, to address these issues to ensure that life 
saving medicines continue to get to those who need them when they need 
them. Time is of the essence. I thank the Committee for holding this 
hearing today to address this momentous issue.
                                 ______
                                 

        Responses of Ronald J. Streck to Questions Submitted by

                            Chairman Bennett

    Question. Mr. Streck, even though your industry deals with 750 
pharmacy suppliers and 130,000 outlets in the country, you rate 
government agencies as one of your top Y2K concerns. Will you please 
tell the Committee which government agency you are most concerned about 
and why?
    Answer. Government agencies are not our only concern. For example, 
we are concerned about the Y2K readiness of our trading partners, 
pharmacy customers, utility companies and telecommunication networks. 
However, we continue to hear reports from the GAO and others that 
numerous government agencies are behind in their efforts to become Y2K 
compliant.
    We are concerned that HCFA will not be ready. Indeed, in a 
September 1998 report, the GAO concluded that ``Despite its actions to 
improve the direction and oversight of the Y2K effort, HCFA's Y2K 
progress is significantly behind schedule.'' HCFA concerns us because 
of the impact a disruption in the reimbursement schedule would have on 
pharmacy providers participating in the Medicare and Medicaid programs. 
It could be especially devastating for small retail pharmacies. The 
ripple effect on drug wholesalers could also be dramatic due to the 
emerging role they are taking in managing their customer's receivables. 
As discussed in my testimony, ``Wholesalers, as part of their customer 
service program, will buy the receivables from their pharmacy customers 
and pay them within three days. Typically, the wholesaler must then 
wait 30 to 90 days to be reimbursed by the third party payer. If the 
government or other payers are not Y2K compliant, it will seriously 
imperil the cash flow for the wholesalers and their customers.''
    Another federal agency that has a significant impact on drug 
wholesalers is the Drug Enforcement Administration (DEA), due to its 
oversight responsibilities in tracking controlled substances. Drug 
wholesalers need reassurance that DEA's systems will be prepared to 
deal with the Y2K problem and that there will not be a disruption in 
the distribution of controlled substances. Because drug wholesalers 
receive and distribute products via the nation's highways, we are also 
concerned that the systems related to this are compliant. It is very 
disturbing to read in a GAO report (March 1998, GAO/T-AIMD-98-101) that 
``highway safety could be severely compromised because of potential 
Year 2000 problems in operational systems.''
    The readiness of state agencies that administer programs that 
complement or parallel federal programs are also of concern. For 
example, if HCFA were Y2K compliant but the state agency that 
administers the Medicaid program is not, there will be disruptions.
    Finally, I want to clarify one of the numbers cited in the 
question--on average, a wholesaler will deal with 750 suppliers; 
overall, there are approximately 2,000 such suppliers in the country.
    Question. Please explain to the Committee how the Drug Enforcement 
Agency (DEA) becomes involved if patients or providers stockpile drugs 
in anticipation of the Y2K problem?
    Answer. The DEA is responsible for monitoring the distribution of 
controlled substances. As you know, these drugs are particularly 
susceptible to abuse and therefore the oversight is strict. For 
example, the DEA, through the U.S. Attorney General, sets an annual 
production quota for Schedule I drugs (high potential for abuse, no 
accepted medical use, used primarily in research settings) and Schedule 
II drugs (high potential for abuse, acceptable medical use with severe 
restrictions, abuse may lead to severe psychological or physical 
dependence). While stockpiling of Schedule I's is very unlikely, it 
could happen more readily with Schedule II drugs. Based on the quota 
amounts, which are established in the preceding year, orders by 
manufacturers for ingredient quantities are placed, production 
schedules are set, etc. well in advance of the time the product reaches 
the marketplace. If stockpiling does takes place toward the end of 
1999, manufacturers will not be able to meet the needs of those 
patients who did not hoard and their lives will be in danger.
    Under the supervision of DEA, there is also a highly regulated 
method for tracking controlled substances through the supply chain. 
When there is a significant change in ordering patterns or an 
unaccounted for variance, it is the obligation of the drug wholesaler 
to report this ``suspicious order'' to DEA. DEA then has the 
prerogative to investigate. It is our concern that if there were a 
marked change in ordering patterns in the final months of 1999, the DEA 
would have to expend significant resources to investigate.
    I would like to reiterate that I do not believe that stockpiling is 
the answer. There are safety, efficacy, storage and waste issues that 
must be considered. As discussed in the next question, now is the time 
for health care providers and patients to be discussing alternatives to 
insure that necessary medications are available if Y2K problems result 
in a disruption of the regular supply channel.
    Question. Does the wholesale drug industry have any plans to 
provide an emergency supply of drugs to people like Laurene West who 
will perish without them?
    Answer. Virtually all drug wholesalers have contingency plans to 
deal with emergency situations. They have a history of providing life 
saving medications even when floods, earthquakes, hurricanes and other 
natural disasters have disrupted the normal flow of product. I am proud 
of the responsiveness and creativity of our industry in these 
situations. Ms. West should be commended for her proactive stance and 
recognized for raising important concerns. As always, drug wholesalers 
are ready to work with health care providers and their patients, who 
are especially dependent upon pharmaceuticals to maintain life, to have 
ready access to them. It is incumbent upon those providers and patients 
to be working together now to develop contingency plans should the Y2K 
``bug'' alter the normal means of obtaining the necessary drugs.
    Question. Would you please explain to the Committee your industry's 
plan for a web page for an industry clearinghouse for Y2K technical 
fixes?
    Answer. NWDA established and maintains on our website a centralized 
page of links that provides industry-specific Y2K information. With the 
passage of the Year 2000 Information and Readiness Disclosure Act, we 
will be enhancing the site to include a list server and discussion 
forum for members to share appropriate Y2K information and solutions. 
It is my hope that we will be ``up'' in the next 30 to 45 days. Once it 
is operative, a major effort will be undertaken to publicize this 
resource to our membership.
    Additionally, I am pleased to let the committee know that NWDA may 
be working with the Pharmaceutical Research and Manufacturers 
Association (PhRMA), the national association representing our 
country's pharmaceutical manufacturers, to facilitate dialogue between 
our respective members on this topic. We have just begun our 
discussions on this project and it may expand to include all segments 
of the pharmaceutical supply chain.
    Question. Mr. Streck, you have stated that the constant transfer of 
information is the reason you are here today. Have you contacted the 
major telecommunication companies to tell them of your concerns and 
obtain reassurance that they will be operating on January 1, 2000?
    Answer. The telecommunications sector touches virtually everyone in 
our country. It is my hope that Congress has sent a strong message to 
this industry that it is essential that it be Y2K ready on January 1, 
2000.
                               __________

                 Prepared Statement of Laurene L. West

    Standing here before you this morning I probably appear to be in 
good health. I am not. Without daily medication and a coordinated 
effort from the health care community, I will be a casualty of the Year 
2000--I will die.
    I had a tumor removed from the center of my brain and now I require 
daily medication to prevent re-growth. Additionally, when I had the 
first of 13 surgeries on my head, I acquired a staph infection which 
does not respond to any known oral antibiotic. I am dependent on IV 
antibiotics which I can not stockpile as they expire in less than 30 
days. A disruption to the supply of IV antibiotics will kill me.
    I am a Registered Nurse--for more than 20 years I have worked in 
Critical Care areas of the hospital. Concurrently for the past 14 
years, I have worked to develop and implement medical information 
systems. For the past two years I have worked with various health care 
organizations to help them prepare for the Year 2000 crisis.
    I know health care. I know what impact the Year 2000 will have on 
healthcare.
    My message today is two fold * * *
    First--we have all read media reports expressing concern about 
potential power outages in the Year 2000 and the resulting effect on 
national security, financial institutions, air traffic control, etc. * 
* * all hospitals and health care facilities will be at significant 
risk without power. However, today, I want to suggest that a disruption 
in the medication supply will be more important than a disruption to 
the power supply. Nurses can keep patients alive with manual 
procedures--doing CPR for extended periods of time but we can not keep 
patients alive without medications.
    The second message is that all Americans will be affected if there 
is a disruption in the supply and distribution of medications, 
particularly for those of us who are alive only because we have 
uninterrupted access to prescription medications.
    Ladies and Gentlemen, my medications requirements are minimal 
compared to those of many other Americans. Millions of insulin 
dependent diabetics, cardiac patients, transplant patients (kidney, 
heart, lung, cornea--all organs) will die if their medication 
requirements are not met.
    We need to begin immediately to teach the American public what they 
can do to prepare. We need a massive, national public awareness/
education program so that we can minimize the number of Year 2000 
related casualties. An informed and educated public will be less likely 
to panic * * * causing social unrest because prescription drugs are not 
available.
    All medication dependent Americans are looking to you to help 
mobilize national resources to help us survive. I want to help with 
this process, all I need are funding and your influence.
    Let's work with the RX2000 Solutions Institute, health care 
organizations represented in this room, the American Medical 
Association, AARP, The International Red Cross, as well as federal 
resources to develop plans for a coordinated national preparedness 
program so that the Year 2000 does not cause unacceptable risks.
    We need legislation allowing for a one time exclusion for Medicare 
or health plans allowing patients to receive a 90 day supply of 
medications instead of a 30 day supply. We need creative processes for 
distributions of controlled substances and radioactive isotopes. (All 
health plans should volunteer this option.) Just in time inventory is a 
big problem
    Pharmaceutical companies--should be pressuring AMA, AHA, ANA, DOI 
to allow for this exclusion * * * may loose 50-70 percent of their 
client base by Q1 2000).
    We need to work with the CDC (Center for Disease Control) to 
prevent global epidemics from a lack of antibiotics or immunizations.
    We should compose a National ``Patient Advocacy Council'' to 
monitor Y2K efforts within all health care organizations. This could be 
an attachment to the RX2000 Institute. (I would like to chair this 
committee.)
    Health care organizations should be required to stockpile 
medications and supplies as well as disclose their Y2K compliance 
progress with their patient population.
    And, if worst case scenarios do occur, and health care is rationed, 
the public needs to know what procedures and diagnoses will be treated.
    Thus far, most health care organizations have taken the stance that 
their liability exposure can be limited by keeping ``in check'' their 
due diligence efforts. (This may be politically and legally correct but 
I do not consider this to be ethical.) If WE do not teach the public, 
who will? There is no harm if we over react, many may die if we do not 
act.
    I am willing to do whatever I can to help save as many lives as 
possible--mine included. My story is not unique, there are millions of 
people who know there is a problem but they do not know where to turn 
for suggestions or help. Let's help them.
                               __________

             ADDITIONAL MATERIAL SUBMMITTED FOR THE RECORD

                                 ______
                                 
                                        NORPAC Foods, Inc.,
                                      Stayton, Or, October 5, 1998.
Hon. Gordon Smith,
U.S. Senate,
Washington, DC.
    Dear Senator Smith: It is a privilege to respond to your request 
for information about how NORPAC Foods, Inc., Oregon's largest fruit 
and vegetable processor, is addressing Year 2000 (Y2K) issues.
    As a large food processor, we are addressing Y2K issues to meet two 
long-range goals and specific near-term business objectives.
    First, our actions are guided by our commitment to maintain and 
improve the critical trust relationship we have with our consumers at 
every level of our distribution process. This includes our 240 owner-
growers, more than 4,000 employees, countless suppliers, and the 
citizens in the communities throughout Oregon where our facilities are 
located. Our public holds us to a critical standard and we take that 
responsibility very seriously throughout every level of our 
organization.
    We have placed Y2K compliance in this trust category because of the 
critical interdependence NORPAC has with so many people, and the scores 
of inside and outside company business functions that are served by our 
computer system. There is the continuous expectation that both the 
quality and access to information, and how we and others use it, must 
not be adversely affected.
    Second, we are a highly regulated business operating in an industry 
that must continue to meet many stringent standards established by 
federal, state or local governments, or the specific operating 
agreements we have with our growers, suppliers or vendors.
    Recognizing these two trust goals and our primary operational 
objective to ensure that the goods and services we provide will flow 
without interruption as we move into the next century, we established 
our formal Y2K Project in 1997. This multi-phase process has been 
implemented throughout every level of our company, with the ongoing 
support of our board of directors.
    While you will find a more specific description of our plan 
attached to my letter, here is a summary of our actions.
    Our initial and primary operational focus has been on our own 
internal computer system. This system integrates the operation of our 
company across five geographically dispersed locations and through 
shared business relationships with many other businesses outside of 
NORPAC. We have brought our information systems department together 
with plant operations and engineering to look at both common and 
specific issues and solutions.
    Earlier this year, we required that any new software systems, 
whether developed internally or purchased externally, be Y2K compliant. 
To raise expectations with our suppliers and external business partners 
about NORPAC's standards, we sent a letter and readiness survey to 
prompt them to take appropriate actions.
    These actions have resulted in a detailed assessment of where we 
are, particularly with our progress on coding changes to our own 
systems. Before the end of this year, we will have completed all 
testing and verification to ensure that our software changes are Y2K 
compliant.
    Operationally, we are working to identify, assess and develop 
responses to problems in outside-manufactured processing equipment. 
This effort has been challenging, as suppliers are presenting a 
declining level of information about whether this equipment has time-
dated chips. Ultimately, this will impact our re-packing of stored 
fruits and vegetables into ready-to-market consumer products, and the 
transportation and tracking of them more than one year from now.
    Despite the fact that we have made a significant investment in 
information about the Y2K issue, and developed and implemented a very 
thorough and comprehensive response, many uncertainties remain.
    The issues are larger than what will happen from a data processing 
or operational standpoint when we enter the new millennium. For 
example, what will our unknown legal exposure be? Where will a company 
like NORPAC be, who has made a very thorough effort to meet this 
problem, who then finds itself exposed to presently undefined legal 
liabilities?
    We would encourage Congress, under your leadership, to craft some 
appropriate ``firewall'' legislation to acknowledge and protect those 
organizations, like NORPAC, who have made significant efforts to ensure 
Y2K compliance.
    Senator Smith, from your own knowledge of the food processing 
business, you know that all of us take these issues very seriously. 
Because we are a food processor, we may hold ourselves to a standard of 
public trust that is unique, but we are not asking for unique 
protection.
    Rather, we would encourage you and the Congress to look for ways to 
clearly acknowledge Y2K compliance, and provide every American business 
with an assurance that their efforts have created a foundation for the 
future not a springboard for a decade of unanticipated litigation.
    In the spirit of sharing information about this important issue and 
reaching solutions to common problems, please look to NORPAC Foods as a 
participant with Congress and other interested parties. If you, or your 
distinguished colleagues, have any questions, please call me.
    Thank you for your continuing leadership.
            Sincerely,
                                               Rick Jacson,
                                                 President and CEO.
                                 ______
                                 

                   NORPAC Foods, Inc. Action Summary

  --What is the issue? (1)
  --What is our OBJECTIVE? (2)
  --How did we get started and what have we done? (3)
  --Where are we now? (4)
  --What areas are there where there might be exposure? (5)
                             (1) the issue
    Simply stated, computers (where ever they are used) may have a 
problem functioning January 1, 2000, due to a defect in date 
identification. Given our exposure, we needed to identify where we use 
computers and then ensure that the date issue will not negatively 
impact our operations.
                           (2) our objective
     NORPAC views Year 2000 compliance as a company-wide issue and has 
a serious commitment to ensure that goods and services we provide will 
flow without interruption as we move to the next century.
    A major activity has been to ensure our computer systems will 
function without interruption. We have involved Plant Operations and 
specifically, our Engineering Department to review all of our 
processing capabilities for compliance with the year 2000 issue.
           (3) how did we get started and what have we done?
    NORPAC established a formal Year 2000 Project in 1997. Awareness of 
the Y2K problem was communicated to all areas of the company, as well 
as the Board of Directors. Since 1997, our Information Systems 
Department has required that any new systems, whether internally 
developed or acquired from software vendors, are Year 2000 compliant 
when delivered. In early 1998 NORPAC encouraged its suppliers to take 
appropriate action as well. In February 1998, a letter and survey was 
sent to all NORPAC suppliers and external business partners. The goal 
was to raise awareness of NORPAC's expectations with its suppliers, to 
determine their readiness with the Y2K issues and to gain their 
commitment that they will be Year 2000 compliant.
                   (4) assessment (where are we now?)
    INFORMATION SYSTEMS: At this point we have done an extensive 
assessment as to the Y2K impact on our computer system processes. This 
includes our software (in-house developed or purchased), our computer 
hardware (both company computers and personal computers), and our data 
communication capabilities (including EDI standards). We are rapidly 
completing the ``coding'' changes to our computer systems to make them 
Y2K compliant. We are now entering a testing phase, where all software 
changes need to be tested and verified. This is a critical and fairly 
lengthy process. We want to complete this effort, if at all possible, 
by the end of this year.
    OTHER AREAS: As a food processor we have extensive processing 
equipment in our plants. Much of this equipment uses micro processors 
and PLC's (programmable logical controllers) to monitor and control the 
processing. Fortunately, for us there is very little date manipulation. 
We also have the advantage that most of the control processors have 
manual override capability. We have concluded that our exposure in this 
area is very limited, and we have not had to conduct any rigid 
verification and testing procedures.
                         (5) exposure/concerns
     There are areas where we simply do not know if we will have a 
problem. These areas lie outside our control (power, transportation, 
banking systems). However, these ``gray'' areas do require us to be 
attentive to any information about the potential problems that might 
negatively impact us. This will be an on-going process up until 01/01/
2000.
    The INTERNET continues to provide a wealth of this information. We 
expect that Federal and State government will continue to provide 
information as well. We have already met with our local city government 
and with the state's Y2K Project Leader. Issues like electrical power 
availability are now being discussed. It appears that complete 
assessment of exposure in many of these areas is still underway. As new 
information presents itself, and this creates concern for us on our 
company's ability to carry on our business operation, contingency plans 
will need to be made more formal. This is an area that can impact us 
all; the private citizen, business or government. It seems appropriate 
that an information sharing initiative be established (whether that be 
on the INTERNET, town hall meetings or other formats).

                                <all>

</pre></body></html>
